<html>
<title> - THE STATE OF POSITIVE TRAIN CONTROL IMPLEMENTATION IN THE UNITED STATES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 


THE STATE OF POSITIVE TRAIN CONTROL IMPLEMENTATION IN THE UNITED STATES

=======================================================================

                                (115-55)

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RAILROADS, PIPELINES,
                        AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                               __________                             


 		    U.S. GOVERNMENT PUBLISHING OFFICE
 		    
33-636 PDF		   WASHINGTON : 2018 		    
 			
 			
 			

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BOB GIBBS, Ohio                      GRACE F. NAPOLITANO, California
DANIEL WEBSTER, Florida              DANIEL LIPINSKI, Illinois
JEFF DENHAM, California              STEVE COHEN, Tennessee
THOMAS MASSIE, Kentucky              ALBIO SIRES, New Jersey
MARK MEADOWS, North Carolina         JOHN GARAMENDI, California
SCOTT PERRY, Pennsylvania            HENRY C. ``HANK'' JOHNSON, Jr., 
RODNEY DAVIS, Illinois               Georgia
MARK SANFORD, South Carolina         ANDRE CARSON, Indiana
ROB WOODALL, Georgia                 RICHARD M. NOLAN, Minnesota
TODD ROKITA, Indiana                 DINA TITUS, Nevada
JOHN KATKO, New York                 SEAN PATRICK MALONEY, New York
BRIAN BABIN, Texas                   ELIZABETH H. ESTY, Connecticut, 
GARRET GRAVES, Louisiana             Vice Ranking Member
BARBARA COMSTOCK, Virginia           LOIS FRANKEL, Florida
DAVID ROUZER, North Carolina         CHERI BUSTOS, Illinois
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              BRENDA L. LAWRENCE, Michigan
JOHN J. FASO, New York               MARK DeSAULNIER, California
A. DREW FERGUSON IV, Georgia         STACEY E. PLASKETT, Virgin Islands
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
MIKE GALLAGHER, Wisconsin
VACANCY

                                  (ii)

  


     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                   JEFF DENHAM, California, Chairman

JOHN J. DUNCAN, Jr., Tennessee       MICHAEL E. CAPUANO, Massachusetts
SAM GRAVES, Missouri                 DONALD M. PAYNE, Jr., New Jersey
LOU BARLETTA, Pennsylvania           ELIJAH E. CUMMINGS, Maryland
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
MARK MEADOWS, North Carolina         ALBIO SIRES, New Jersey
SCOTT PERRY, Pennsylvania            JOHN GARAMENDI, California
MARK SANFORD, South Carolina         ANDRE CARSON, Indiana
TODD ROKITA, Indiana                 RICHARD M. NOLAN, Minnesota
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut
BRIAN BABIN, Texas                   CHERI BUSTOS, Illinois
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            MARK DeSAULNIER, California
LLOYD SMUCKER, Pennsylvania          DANIEL LIPINSKI, Illinois
PAUL MITCHELL, Michigan              GRACE F. NAPOLITANO, California
JOHN J. FASO, New York, Vice Chair   PETER A. DeFAZIO, Oregon (Ex 
JASON LEWIS, Minnesota               Officio)
MIKE GALLAGHER, Wisconsin
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Hon. Ronald L. Batory, Administrator, Federal Railroad 
  Administration:

    Oral statement...............................................     4
    Prepared statement...........................................     5
Hon. Robert L. Sumwalt III, Chairman, National Transportation 
  Safety Board:

    Oral statement...............................................     9
    Prepared statement...........................................    10
Susan A. Fleming, Director, Physical Infrastructure, U.S. 
  Government Accountability Office:

    Oral statement...............................................    13
    Prepared statement...........................................    15
Scot Naparstek, Chief Operating Officer, Amtrak:

    Oral statement...............................................    23
    Prepared statement...........................................    25
Edward R. Hamberger, President and Chief Executive Officer, 
  Association of American Railroads:

    Oral statement...............................................    30
    Prepared statement...........................................    31
Jeffrey D. Knueppel, P.E., General Manager, Southeastern 
  Pennsylvania Transportation Authority, on behalf of the 
  American Public Transportation Association:

    Oral statement...............................................    35
    Prepared statement...........................................    37
Stacey Mortensen, Executive Director, San Joaquin Regional Rail 
  Commission:

    Oral statement...............................................    43
    Prepared statement...........................................    46

                       SUBMISSIONS FOR THE RECORD

Testimony of Floyd Mason, President, Brotherhood of Railroad 
  Signalmen......................................................    71
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



THE STATE OF POSITIVE TRAIN CONTROL IMPLEMENTATION IN THE UNITED STATES

                              ----------                              


                      THURSDAY, SEPTEMBER 13, 2018

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m. in 
room 2167, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The subcommittee will come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time. We expect a very lengthy hearing today, but 
we also know that there are several other committees meeting, 
as well as floor votes today.
    Our hearing today focuses on the implementation of Positive 
Train Control, PTC, in the United States. It is an especially 
important hearing, as yesterday marked the 10th anniversary of 
the tragic Chatsworth accident.
    This important life-saving technology is one of the most 
complex safety mandates ever undertaken by the railroad 
industry. PTC is a radio- or GPS-based system designed to 
prevent train-to-train collisions, over speed derailments, 
incursions into work zones, and the movement of a train through 
a switch left in the wrong position.
    From its inception a decade ago, Congress and stakeholders 
anticipated that the PTC mandate would be a daunting 
undertaking. It has never been implemented on such a large 
scale, and has never required such a high level of 
interoperability.
    Since the 2008 mandate was enacted and the 2015 bipartisan 
extension was passed, freight, passenger, and commuter 
railroads have been working to implement PTC. We have seen a 
great deal of progress, from freight rails as well as commuter 
rails across the entire country, but we have still seen 
challenges. We have still seen accidents. We have had promises 
made to us, as a committee, that haven't been met.
    And we held a hearing earlier this year. He and I have been 
very united on this topic. And we ask the entire industry, if 
there is something you need, let us know. If it is funding, if 
it is a technical rule, whatever the issue is, because we have 
got a very, very large country with very unique circumstances 
and different rails across the entire country in different 
positions, as far as implementation. We have consulted several 
times to ask each other what have the rails come up with. Has 
anybody asked for extensions? Is anybody asking for money or 
grants?
    And so, as you will see in this committee hearing, I would 
expect the patience is growing thin on actual PTC 
implementation. That is why we called this, to hear from all of 
you. So it is a critical issue for our country, especially as 
we have continued to see some accidents, for a variety of 
different reasons. But most of which would be solved if we had 
PTC in place.
    With that, I yield to the ranking member, Mr. Capuano.
    Mr. Capuano. I agree with everything the chairman just 
said, 100 percent.
    I also want to state that, from what I see, there has been 
a lot of progress made. So I want to be clear about that. From 
what--the way I look at it, there is a few people who are 
lagging behind, which actually, I think, proves the point that 
there is no reason to be lagging behind, because most everybody 
is doing their job.
    So I just want to be real clear: for those who are doing 
their job, thank you, I appreciate it. A long time coming, and 
it is finally happening.
    For those of you who are not, understand it is going to be 
very difficult to make an argument that for some reason 
everybody else could do it except you. It is going to be almost 
impossible, as far as I am concerned.
    And I do say again that when that time comes, there will be 
nobody to point a finger at any more. There will be no more 
bottom lines on whether it was worth the money to not do PTC 
and possibly risk lives or property. Those days are over.
    And again, most of you get it, and I want to be real clear. 
Because of that, I--we get upset on occasion, but I also want 
to be real clear. Most companies have done it. Most public 
entities have done it, or are on the way to doing it. The 
handful who are not, I am just saying very clearly, be careful, 
because I don't think you are going to find very many, if any, 
open minds on this side of the table when you come to say, for 
some reason, every other person except us could get their job 
done, particularly at this late date.
    With that, I am going to yield back.
    Mr. Denham. I now recognize the full committee chairman, 
Mr. Shuster.
    Mr. Shuster. Thank you, Chairman Denham. Thanks for holding 
this hearing. And I just want to echo the concerns that the 
chairman and the ranking member have about PTC.
    I would like to point out, though, further, we are talking 
about who is doing, who is not doing. And I want to say I know 
my reports that I have seen is the freight rails are all in 
position to deploy, and it is the commuter rails and the other 
smaller entities out there that seem to be holding this up.
    And, as the chairman said, there have been concerns, we 
have reached out, asked what the needs are, and time and time 
again it has either been--not got a response back, or 
everything is OK. And, as I said, it is concerning when we, in 
2015, we unanimously voted to extend it, we did it because we 
thought that everybody would step up their game and get to a 
point that we would see PTC being deployed.
    So again, it is--as the ranking member said, it is not 
everybody. What I have seen, again--I will emphasize the 
freight rails seem to be doing what they are supposed to be 
doing, and need to move forward. And that interoperability is 
the piece that doesn't seem to be there, that doesn't--they 
can't do what they need to do to fully implement the PTC.
    So again, this hearing is important. Safety is absolutely 
critical to this committee when it comes to all modes of 
transportation. So I look forward to hearing everybody's 
testimony today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Denham. I now recognize Mr. DeFazio for any statement 
he may have.
    Mr. DeFazio. Thanks, Mr. Chairman. Thanks for holding this 
important hearing.
    Yes, I hope, like the speakers before me, to hear about how 
we are going to meet the statutory deadlines of 2018 and full 
utilization by 2020.
    You know, I am concerned at some of those at the rear of 
the pack. As Ranking Member Capuano mentioned, there is no 
feasible excuse that isn't, you know, for this committee, or 
for the agency.
    I am concerned. Ranking Member Capuano, Congressman Cohen, 
and Congressman Cooper and I sent a letter to the FRA after 
they exempted the Music City Star a permanent exemption from 
PTC, you know, and I understand there is another railroad that 
is pending. I hope to hear from Administrator Batory on this.
    You know, Congress did not authorize exemptions to PTC. I 
find that nowhere in the law. And you know, this causes me 
concern that some will look at this, look at the exemption, the 
one granted and the one potentially in process, and say, 
``Well, there is our out, you know, we are way behind schedule 
here.''
    So, you know, this is not something that Congress 
anticipated. And, you know, I look forward to hearing how FRA 
might revise the process in the future.
    Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Mr. DeFazio.
    I would like to welcome each of our witnesses here today. 
Our panel is comprised of the Honorable Ron Batory, 
Administrator of the Federal Railroad Administration, FRA; the 
Honorable Robert Sumwalt, Chairman, National Transportation 
Safety Board, NTSB; Susan Fleming, Director of Physical 
Infrastructure, Government Accountability Office; Scot 
Naparstek, executive vice president and COO of Amtrak; Ed 
Hamberger, president and CEO of the Association of American 
Railroads; Jeff Knueppel, general manager, Southeastern 
Pennsylvania Transportation Authority, on behalf of the 
American Public Transportation Association; and Stacey 
Mortensen, executive director of the San Joaquin Regional Rail 
Commission.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    Without objection, so ordered.
    Since your written statement has been made part of the 
record, the subcommittee would request that you limit your 
testimony to 5 minutes.
    Mr. Batory, you are recognized.

  TESTIMONY OF HON. RONALD L. BATORY, ADMINISTRATOR, FEDERAL 
RAILROAD ADMINISTRATION; HON. ROBERT L. SUMWALT III, CHAIRMAN, 
    NATIONAL TRANSPORTATION SAFETY BOARD; SUSAN A. FLEMING, 
      DIRECTOR, PHYSICAL INFRASTRUCTURE, U.S. GOVERNMENT 
ACCOUNTABILITY OFFICE; SCOT NAPARSTEK, CHIEF OPERATING OFFICER, 
  AMTRAK; EDWARD R. HAMBERGER, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, ASSOCIATION OF AMERICAN RAILROADS; JEFFREY D. 
  KNUEPPEL, P.E., GENERAL MANAGER, SOUTHEASTERN PENNSYLVANIA 
  TRANSPORTATION AUTHORITY, ON BEHALF OF THE AMERICAN PUBLIC 
  TRANSPORTATION ASSOCIATION; AND STACEY MORTENSEN, EXECUTIVE 
         DIRECTOR, SAN JOAQUIN REGIONAL RAIL COMMISSION

    Mr. Batory. Thank you, Chairman Denham, Chairman Shuster, 
Ranking Member Capuano, Ranking Member DeFazio, and members of 
the subcommittee. Thank you for the opportunity to testify 
today to discuss Positive Train Control, better known as PTC.
    I come to my position as Administrator of the Federal 
Railroad Administration with 45 years of experience in the 
railroad industry. Through my career I have continually focused 
on improving safety performance, and I bring this same 
commitment to the FRA.
    Secretary Chao and myself have made railroads' 
implementation of PTC the top of FRA's agenda. Forty-one 
railroads are required to implement PTC systems, and that 
includes all 7 Class I freight railroads, 30 commuter and 
intercity passenger railroads, including Amtrak, and 4 short 
line and terminal switching railroads. This technology is 
required to be implemented on approximately 58,000 miles of the 
140,000-mile rail network.
    While railroads are making progress, FRA expects that most 
railroads will need to request an alternative schedule to 
complete testing, obtain system certification, and meet 
interoperability requirements.
    This summer, for the first time in agency history, the FRA 
hosted three symposia for the to-be-compliant railroads. Each 
of the day-long sessions brought together railroad safety 
officials and FRA's PTC experts to ensure that each railroad 
subject to the mandate is aware of its obligations and is 
equipped to meet the deadline. These meetings discussed 
industry questions and lessons learned, requirements for the 
December 31, 2018, deadline, along with best practices for 
testing and safety plans.
    Since April 2016, FRA has tracked individual railroads' 
self-reporting implementation. Based on the railroads' most 
recent reports, PTC systems are in operation on 66 percent of 
the freight railroads' required route mileage. Passenger 
railroads have made less progress, with PTC systems in 
operation on 24 percent of what is required.
    The most recent data also showed a reduction in the number 
of railroads FRA considers to be at risk of not qualifying for 
an alternative schedule, from 12 railroads in April of 2018 to 
9 in August of this year. FRA currently considers any railroad 
that has installed less than 90 percent of its system hardware 
as of June 30th to be most at risk of failing to qualify for an 
alternative schedule. It is important to note that the 
installation of all PTC system hardware is only one of six 
criteria required to qualify for an alternative schedule to 
complete full PTC system implementation after December 31, 
2018.
    The nine at-risk railroads are the New Mexico Rail Runner, 
CapMetro, New Jersey Transit, Altamont Corridor Express, MARC, 
Trinity Railway Express, Tri-Rail, Caltrain, and SunRail. FRA 
is in frequent communication and providing additional onsite 
technical assistance to further assist these railroads.
    Over the next several months FRA expects to receive and 
review requests for railroads' alternative schedules beyond the 
December 31, 2018, deadline. By law, FRA has 90 days to review 
and issue a decision to approve or deny the alternative 
schedule. FRA expects to receive many of the requests before 
the end of the year, and will review the extension request in 
January through March of 2019. If a railroad fails to qualify 
and receive FRA approval for an alternative schedule, FRA is 
authorized to assess monetary penalties.
    PTC is designed to provide important risk reduction 
protocols to enhance existing safety, but these systems come 
with significant costs. Since 2008, FRA has awarded $961 
million in grant funding to support railroads' implementation. 
More recently, on August 24th of this year, FRA selected 28 PTC 
projects, including 13 commuter railroads, to receive $203 
million under the Consolidated Rail Infrastructure and Safety 
Improvement grant program. Of the $203 million announced, $80 
million in grants, or 39 percent, was announced for at-risk 
railroads. Since 2008, a total of $2.5 billion in grants and 
loans has been allocated to the railroads to assist with PTC 
implementation.
    In an effort to show FRA's continued commitment to PTC 
implementation, we reissued a notice of funding opportunity for 
the remaining $46 million in grants. Similar to the previous 
issued NOFO, this is an expedited solicitation with a 30-day 
application period. Applications will be due October 12th.
    Looking forward to the rest of this year and into 2019, FRA 
will continue to support and facilitate railroads' 
implementation of PTC by utilizing the tools afforded by 
Congress, and providing extensive technical assistance.
    I appreciate the committee's support for our programs, and 
look forward to your safety-oriented questions.
    [Mr. Batory's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Ronald L. Batory, Administrator, Federal 
                        Railroad Administration
    Chairman Denham, Ranking Member Capuano, and members of the 
subcommittee:
    Thank you for the opportunity to testify today to discuss positive 
train control (PTC). I come to my position as Administrator of the 
Federal Railroad Administration (FRA) with 45 years of experience in 
the railroad industry, rising to become the President and Chief 
Operating Officer of a significant freight rail carrier in the United 
States. Throughout my career, I have been focused on continually 
improving safety performance, and I bring this same commitment to my 
current position as Administrator of the FRA.
    As we approach critical deadlines for railroads' implementation of 
PTC systems, myself, and the men and women that serve at FRA remain 
committed to working with the railroads and its supply industry to 
ensure the full implementation of this important rail-safety technology 
in a timely manner.
                              ptc mandate
    Railroads' implementation of PTC systems has been, and remains, at 
the top of our agenda. PTC systems represent the most fundamental 
change in rail safety technology since the introduction of Automatic 
Train Control in the 1920's. As mandated by the Rail Safety Improvement 
Act of 2008 (RSIA), each Class I railroad and entity providing 
regularly scheduled intercity or commuter rail passenger service must 
implement an FRA-certified PTC system on (1) its main lines over which 
5 million or more gross tons of annual traffic are transported if the 
main line carries poison-or toxic-by-inhalation hazardous materials, 
and (2) its main lines over which intercity or commuter rail passenger 
transportation is regularly provided. Under RSIA, railroads were 
originally required to complete implementation by December 31, 2015. 
Approximately 2 months before that deadline, the House and Senate 
overwhelmingly passed, and the President signed, the Positive Train 
Control Enforcement and Implementation Act of 2015 (PTCEI Act), 
extending the deadline for full PTC system implementation to December 
31, 2018.
    In addition, under the PTCEI Act, Congress permits a railroad to 
request FRA's approval of an ``alternative schedule'' with a deadline 
extending beyond December 31, 2018, but no later than December 31, 
2020, for full PTC system implementation. The law requires FRA to 
approve a railroad's alternative schedule with a deadline that is as 
soon as practicable, but not later than December 31, 2020, if a 
railroad submits a written request to FRA that demonstrates it has met 
the statutory criteria to qualify for such an alternative schedule. 
Currently, 41 railroads are required by statute to implement PTC 
systems: all 7 Class I freight railroads; 30 commuter and intercity 
passenger railroads, including the National Railroad Passenger 
Corporation (Amtrak); and 4 short line and terminal railroads. The 
technology is required to be implemented on approximately 58,000 route 
miles of the 140,000-mile railroad network.
    While railroads are making progress, FRA expects that most 
railroads will need to request an alternative schedule to complete 
testing, obtain PTC System Certification, meet the statutory 
interoperability requirements, and fully implement PTC systems on all 
main lines required to be governed by PTC systems. FRA continues to 
take a proactive approach to help railroads acquire, install, test, and 
fully implement certified PTC systems as soon as possible.
    At the direction of Secretary Elaine L. Chao, FRA senior leadership 
met individually with executives from each of the 41 railroads in 
January and February of this year. In May and June, we also held 
followup meetings with the 12 railroads identified as at risk, as of 
Quarter 1 of 2018, of not meeting the statutory criteria necessary to 
qualify for FRA's approval of an alternative schedule. Railroads have 
generally been candid in detailing the challenges and obstacles 
confronting their properties. During the meetings, we sought to 
objectively evaluate each railroad's PTC deployment status, and learn 
what remaining steps each railroad needs to take to meet the deadline 
or satisfy the statutory criteria necessary to qualify for an 
alternative schedule.
    During these meetings and throughout our conversations with the 
railroads, they commonly conveyed the following ongoing challenges:
    <bullet>  There is a competitive yet limited number of PTC system 
vendors and suppliers. Unusually weighted demand and supply has 
constrained the timely serving of all 41 railroads and their tenant 
railroads;
    <bullet>  As reliability and stability of PTC systems is still 
immature, railroads are experiencing significant technical issues with 
both PTC system hardware and PTC system software that often take 
considerable time to diagnose and resolve, impacting current 
operations;
    <bullet>  Host railroads (totaling 36) noted that many tenant 
railroads (estimated at 250+) that operate on main lines requiring PTC 
system implementation have made variable, and often unknown, progress 
equipping locomotives with operational PTC technology, while some 
tenant railroads report that their host railroads are not providing 
opportunity for testing. FRA is initiating efforts to synchronize the 
coordination among the host and tenant railroads;
    <bullet>  Railroads have only recently begun testing PTC systems 
for interoperability;
    <bullet>  Many commuter railroads stated that negotiating legal 
agreements with certain vendors and suppliers often took time to 
complete, given various insurance, liability, and State law issues;
    <bullet>  Absence of consistent leadership at several railroads, 
regardless of leadership quality, weakened the ``sense of urgency'' and 
the focus on PTC system implementation at some entities subject to the 
statutory mandate; and
    <bullet>  Railroads noted concern about FRA's review and approval 
cycle, given the surge in submissions requiring FRA approval in 2018-
2020.
    By law, it is the railroads' responsibility to implement PTC 
systems, but FRA is facilitating railroad and supplier collaboration to 
hasten, and urge, implementation. We have also met individually with 
PTC system component suppliers to learn more about their capacity to 
meet the high demand of railroads to achieve timely implementation.
    This summer FRA hosted three PTC symposia for the 41 railroads 
mandated to implement PTC systems. Each of the day-long sessions 
brought together railroad safety officials and FRA's PTC experts to 
ensure that each and every railroad subject to the mandate is aware of 
its obligations and is equipped to meet the congressionally mandated 
deadline. The first symposium discussed industry questions and focused 
on requirements for the December 31, 2018, statutory deadline.
    The second focused on best practices for testing PTC systems on the 
general rail system, including field testing, revenue service 
demonstration (RSD), and interoperability testing. The third focused on 
lessons learned and best practices for PTC Safety Plans, which are 
required for host railroads to obtain PTC System Certification and 
achieve full system implementation. As FRA tracks railroads' progress, 
additional symposia on PTC may be offered, as new challenges arise.
                           ptc status update
    Since April 1, 2016, FRA has been closely tracking and displaying 
on its website individual railroads' self-reported PTC system 
implementation status. FRA's PTC Dashboard tracks railroads' progress 
toward full implementation on a quarterly basis, including the number 
and percentage of locomotives equipped and PTC operable, track segments 
completed, radio towers installed, training completed, spectrum 
acquisition, route miles in RSD, whether the railroad has obtained PTC 
System Certification, route miles in PTC operation, and more recently, 
interoperability between host railroads and tenant railroads. In 
addition, FRA tracks, on a quarterly basis, the progress each railroad 
has made toward meeting the statutory criteria necessary to qualify for 
FRA's approval of an alternative schedule.
    Based on railroads' most recent Quarter 2 reports (with data 
current as of June 30, 2018), PTC systems are in operation on 35,487 
route miles, which is approximately 66 percent of the freight 
railroads' route miles that are required to be governed by a PTC 
system. Passenger railroads have made less progress, with PTC systems 
in operation on 975 route miles, which is approximately 24 percent of 
the required route miles. Notably, PTC systems are being operated in 
RSD on an additional 1,103 freight railroad route miles and an 
additional 140 commuter railroad route miles, as of Quarter 2. Fifteen 
railroads report they have completed installation of all hardware 
necessary for PTC system implementation, and 12 other railroads have 
installed between 95 and 99 percent of the PTC system hardware 
identified in their PTC Implementation Plans, as of June 30, 2018. All 
but one railroad, whose PTC systems use spectrum, reported they have 
acquired sufficient spectrum. In addition, 14 railroads have initiated 
sufficient RSD or met substitute criteria, which is also one of the six 
statutory criteria needed to qualify for an alternative schedule.
    The most recent data also showed a reduction in the number of 
railroads at risk of not qualifying for an alternative schedule, from 
12 railroads as of Quarter 1 of 2018, to nine railroads as Quarter 2. 
FRA currently considers any railroad that had installed less than 90 
percent of its PTC system hardware as of June 30, 2018, to be most at 
risk of failing to qualify for an alternative schedule. Installation of 
all PTC system hardware is only an initial phase of implementing a PTC 
system and only one of the six statutory criteria required to qualify 
for an alternative schedule to complete full PTC system implementation 
after December 31, 2018. The nine at-risk railroads are: New Mexico 
Rail Runner Express (Rio Metro), Capital Metropolitan Transportation 
Authority (CapMetro), New Jersey Transit (NJT), Altamont Corridor 
Express (ACE), Maryland Area Regional Commuter (MARC), Trinity Railway 
Express (TRE), South Florida Regional Transportation Authority (Tri-
Rail), Peninsula Corridor Joint Powers Board (Caltrain) and Central 
Florida Rail Corridor (SunRail).
    In addition to the letters of concern from April and June 2018, on 
August 24th, I sent letters to the nine railroads that FRA remains 
concerned are at risk of both missing the statutory implementation 
deadline, and failing to qualify for an alternative schedule. This 
assessment was based on railroads' self-reported progress as of June 
30, 2018 (Quarterly PTC Progress Reports for Quarter 2 of 2018). I also 
sent similar letters expressing concern to the relevant State 
departments of transportation and Governors. FRA is working closely 
with all 41 railroads subject to the PTC mandate; for the nine at-risk 
railroads, FRA is actively engaging in frequent communication and 
providing additional onsite technical assistance. Of course, all 
railroads subject to the mandate must pay careful attention to the 
requirements for an alternative schedule if they will not achieve full 
PTC system implementation by December 31, 2018, and must continue 
vigilantly working toward prompt PTC system implementation.
                 grant funding and financial assistance
    PTC technology is designed to provide important safety 
improvements, but these systems come with significant costs, both in 
terms of immediate acquisition and increased operations and maintenance 
costs. Industry estimates PTC acquisition will exceed $14 billion, and 
maintenance will cost 10 to 20 percent of annual capital costs. Since 
2008, FRA has awarded approximately $961 million in grant funding to 
support railroads' implementation of PTC systems. FRA also supported 
the Federal Transit Administration (FTA) with its evaluation and 
selection of approximately $197 million in grant funding awarded to 17 
commuter and intercity passenger railroads and State and local 
governments for installation of PTC systems, which were announced on 
May 31, 2017. More recently, on August 24, FRA selected 28 PTC 
projects, including 13 commuter rail projects not usually eligible for 
FRA funding, to receive $203.7 million under the Fiscal Year 2018 
Consolidated Rail Infrastructure and Safety Improvements (CRISI) grant 
program. Given that applications for this funding were due July 2, I 
would note that FRA worked tremendously hard to evaluate the 
applications and make selections. Our hard work allowed us to make the 
grant announcements 2 months after receipt of the applications. This 
process can typically take up to 6 months or longer to complete.
    Currently, FRA has two open funding opportunities that can further 
aid railroads, States, and other stakeholders with implementing PTC as 
well as other important safety and infrastructure needs: $318.4 million 
under the broader Fiscal Year 2018 CRISI program, and $46.3 million for 
the remaining funding under the PTC-specific Fiscal Year 2018 CRISI 
program. And finally, FRA is evaluating applications submitted under 
the $65.2 million Fiscal Year 2017 CRISI and $4.8 million Fiscal Year 
2017 Restoration & Enhancements grant programs, and will be making 
selection announcements in the near future.
    In total, the sources of the approximately $1.16 billion in FRA and 
FTA grant funding for PTC are:
    <bullet>  $475 million from FRA's High-Speed Intercity Passenger 
Rail Grant Program;
    <bullet>  $197 million in Section 3028 of the Fixing America's 
Surface Transportation Act (FAST Act) funding;
    <bullet>  $204 million in CRISI grant funding;
    <bullet>  $0.3 million in a Special Transportation Circumstances 
Grant;
    <bullet>  $142 million in annual capital grant funding to Amtrak;
    <bullet>  $86 million from FRA's Railroad Safety Technology Grant 
Program;
    <bullet>  $52 million in American Recovery and Reinvestment Act 
grant funding to Amtrak; and
    <bullet>  $2 million in Research and Development grants.
    Additionally, in May 2015, FRA issued a $967.1 million loan to 
Metropolitan Transportation Authority for Long Island Rail Road's and 
Metro-North Railroad's implementation of PTC systems. And on December 
8, 2017, the Build America Bureau closed on a $162 million 
Transportation and Infrastructure Finance and Innovation Act loan and a 
$220 million Railroad Rehabilitation and Improvement Financing loan to 
be issued to the Massachusetts Bay Transportation Authority for PTC 
system implementation.
    In sum, thanks to the funding provided by Congress, the Department 
has made available over $2.5 billion in grants and loans since 2008. 
This amounts to nearly 20 percent of industry estimates for PTC 
implementation costs.
             enforcement of the ptc implementation mandate
    FRA is committed to helping ensure that railroads implement PTC 
systems as safely and expeditiously as possible, in accordance with the 
congressional mandate. FRA is authorized to assess monetary civil 
penalties against any railroad that fails to implement a PTC system by 
the applicable statutory deadline (either December 31, 2018, or, if a 
railroad has an approved alternative schedule, the applicable date not 
later than December 31, 2020). FRA's civil penalty schedule recommends, 
as guidance, a $16,000 civil penalty for a failure to timely complete 
PTC implementation on a track segment where it is required. For any 
violation of a Federal rail safety statute, regulation, or order, 
however, the current statutory minimum civil penalty FRA may assess is 
$853, and the ordinary statutory maximum is $27,904. FRA may assess a 
civil penalty for each day the noncompliance continues, but FRA may 
elect to take enforcement action on a one-time basis or each month, 
quarter, year, or other interval of time during which the noncompliance 
continues. FRA is currently considering all options, within the 
framework established by law, to determine what type of enforcement 
action will be most effective and appropriate under the circumstances. 
Our goal is to ensure any enforcement action compels a railroad to 
fully implement its PTC system as efficiently and safely as possible.
    Also, I would like to note that in June and July 2018, FRA 
initiated enforcement action against each of the 13 railroads that 
failed to complete one or more of the end-of-2017 hardware installation 
milestones and/or spectrum acquisition milestones the railroad 
established in its PTC Implementation Plan. Consistent with FRA's 
commitment to ensuring railroads comply with the statutory mandate, 
including interim requirements, FRA's Notice of Probable Violation to 
each of the 13 railroads proposed the maximum civil penalty for this 
type of interim violation--i.e., a one-time civil penalty of $27,904.
    Since this Administration took office, railroads have made 
significant progress toward installing and implementing PTC systems. 
From Quarter 1 of 2017 to Quarter 2 of 2018, railroads increased the 
total amount of installed PTC system hardware from 77 percent to 97 
percent. As of June 30, 2018, PTC systems are either in RSD or in 
operation on approximately 37,705 route miles (i.e., 65 percent) of the 
nearly 58,000 route miles that are subject to the statutory mandate.
    Moving forward, FRA will continue to support and facilitate 
railroads' implementation of PTC technology by utilizing the tools 
afforded by Congress and providing extensive technical assistance and 
guidance to railroads and suppliers. We remain vigilant in harnessing 
and leveraging all the personnel, financial, and other resources 
available to help expedite railroads' implementation efforts. We 
appreciate the subcommittee's support for our critical programs, and we 
welcome your continued partnership to advance rail safety and service. 
I look forward to your questions.

    Mr. Denham. Thank you.
    Mr. Sumwalt?
    Mr. Sumwalt. Good morning, Chairman Shuster, Chairman 
Denham, Ranking Member DeFazio, Ranking Member Capuano, and 
members of the subcommittee.
    As Chairman Denham indicated, yesterday marked the 10-year 
anniversary of the tragedy at Chatsworth. That accident killed 
25 people, injured over 100, many with life-altering injuries. 
And, of course, in the aftermath of that accident, Congress 
mandated PTC through the Rail Safety Improvement Act of 2008.
    Now, here we are, 10 years later, and nearly 3 years after 
the original deadline mandated by Congress. And we still do not 
have PTC fully implemented in the United States. Is that 
acceptable? It is certainly not acceptable to the NTSB.
    Since Chatsworth, we have investigated 22 accidents that 
could have been prevented by PTC, and these accidents resulted 
in 29 deaths, over 500 injuries, and property costs in excess 
of $190 million.
    The NTSB strongly urges swift implementation of the 
congressional PTC mandate.
    That said, it is important to note that even after that 
mandate is met, significant portions of the Nation's rail 
network will not have PTC. According to reports submitted by 
the railroads to FRA, only about 40 percent of the Nation's 
rail network will have PTC.
    And of significant concern as it relates to Amtrak, there 
are over 1,400 miles of mainline track that Amtrak currently 
operates on that will not have PTC. And if Amtrak continues to 
operate on those segments, there will be a diminished level of 
safety for those passengers and train crews who are traveling 
through communities such as Topeka, Kansas; Grand Junction, 
Colorado; Portland, Maine; Memphis, Tennessee; New Orleans; St. 
Louis; and many others.
    In other cases, under its regulations, the FRA has approved 
exemptions to the PTC requirement for other mainline tracks on 
which not only freight, but also intercity passenger and 
commuter railroads operate. Again, this means there will be a 
significant diminished level of safety for passengers traveling 
on those railroads.
    Earlier this year, an Amtrak passenger train collided with 
a standing CSX freight train in Cayce, South Carolina. An 
operational PTC system could have prevented that accident. This 
is the second accident that we have investigated involving a 
train being unexpectedly diverted onto a side track because of 
a switch being left in the wrong position in an area of track 
under signal suspension due to installation and testing of PTC.
    When I testified before this committee in February, in the 
aftermath of that Cayce accident, I told you about an urgent 
safety recommendation that we had issued that day which called 
on the FRA to order railroads to implement operational measures 
needed to ensure safety operation in areas where PTC is being 
installed and tested.
    Now, I want to point out that we only issue urgent safety 
recommendations when we determine that the course of action 
requires immediate attention to avoid imminent loss. And here 
we are, 7 months later, and the FRA has not issued such an 
order, and the recommendation is currently classified by the 
NTSB as ``Open-Unacceptable Response.'' And I think that the 
classification of that recommendation in an unacceptable status 
speaks for itself. We are concerned with the lack of action by 
the FRA.
    The NTSB is also concerned that 10 years after Chatsworth 
most railroads are still not ready. And let me spell that out: 
for every day that we go without PTC, we are at risk for 
another Chatsworth; another Bronx; another Amtrak in 
Philadelphia; another DuPont; another Cayce, South Carolina. 
Each of these were mass casualty events due to human error, 
accidents that could have been prevented by PTC.
    And I thank you for the opportunity to testify today. Thank 
you for holding this hearing. And I look forward to your 
questions.
    [Mr. Sumwalt's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Robert L. Sumwalt III, Chairman, National 
                      Transportation Safety Board
    Good morning, Chairman Denham, Ranking Member Capuano, and members 
of the subcommittee. Thank you for inviting the National Transportation 
Safety Board (NTSB) to testify before you today.
    The NTSB is an independent Federal agency charged by Congress with 
investigating every civil aviation accident and significant incidents 
in the United States, as well as significant accidents and incidents in 
other modes of transportation--railroad, highway, marine, and pipeline. 
We determine the probable cause of these accidents and other 
transportation events and issue safety recommendations aimed at 
preventing future accidents. In addition, we carry out special studies 
concerning transportation safety and coordinate the resources of the 
Federal Government and other organizations to assist victims and their 
family members who have been impacted by major transportation 
disasters.
    On November 14, 2016, we announced our Most Wanted List of 
Transportation Safety Improvements for 2017-2018.\1\ This list, based 
on safety issues we have identified in our investigations, highlights 
the 10 areas in transportation safety where we believe improvements are 
most critical. One issue area on this cycle's Most Wanted List is 
``Increase Implementation of Collision Avoidance Technologies,'' which 
addresses the need for positive train control (PTC) to reduce 
accidents, prevent injuries, and save lives.
---------------------------------------------------------------------------
    \1\ NTSB, 2017-2018 Most Wanted List (Washington, DC: NTSB, 2016).
---------------------------------------------------------------------------
           the state of positive train control implementation
    Yesterday marked the 10-year anniversary of the tragic accident in 
Chatsworth, California, in which a Metrolink commuter train and a Union 
Pacific freight train collided head-on, killing 25 people and injuring 
102 others.\2\ Our investigation concluded that the Metrolink 
engineer's use of a personal electronic device to send text messages 
distracted him from his duties and that positive train control (PTC) 
could have prevented this accident. In the aftermath of that tragedy 
and a number of others that the NTSB investigated, Congress passed the 
Rail Safety Improvement Act of 2008 (RSIA), which required the 
implementation of a PTC system on each line over which intercity 
passenger or commuter service is operated or over which poison-or 
toxic-by-inhalation hazardous materials were transported, by December 
31, 2015.\3\ In October 2015, Congress extended this deadline to 
December 31, 2018, and included provisions for railroads to request an 
additional 24-month extension to December 31, 2020, if certain criteria 
are met.\4\
---------------------------------------------------------------------------
    \2\ NTSB, Collision of Metrolink Train 111 With Union Pacific Train 
LOF65-12 Chatsworth, California September 12, 2008, Rpt. No. NTSB/RAR-
10/01 (January 21, 2010).
    \3\ Rail Safety Improvement Act of 2008, Pub. L. No. 110-432, Sec.  
104 (October 16, 2008).
    \4\ Positive Train Control Enforcement and Implementation Act of 
2015, Pub. L. No. 114-73, Sec.  1302 (October 29, 2015).
---------------------------------------------------------------------------
    Now, 10 years later and nearly 3 years after the original deadline 
imposed by Congress, PTC is still not fully implemented in the United 
States. The NTSB strongly urges swift implementation of the 
congressional PTC mandate. However, it is important to note that even 
after that mandate is met, significant portions of the rail network 
will not have PTC. According to reports from railroads to the Federal 
Railroad Administration (FRA), only about 40 percent of the rail 
network--or 58,000 of 134,000 route miles--will have PTC. 
Significantly, Amtrak will have over 1,400 miles of track it currently 
operates on that will not have PTC. If Amtrak continues to operate on 
these segments, there will be a diminished level of safety for 
passengers and train crews traveling communities such as Topeka, 
Kansas; Grand Junction, Colorado; Portland, Maine; Memphis, Tennessee; 
New Orleans; St. Louis; and many others.
    In other cases, under its regulations, the FRA has approved 
exceptions to the PTC requirement for other main line tracks on which 
not only freight, but also other intercity passenger and commuter 
railroads operate. Again, this means that there will a significantly 
decreased level of safety for those passengers and train crews that are 
traveling on those railroads.
              ntsb investigations of ptc-related accidents
    Since the enactment of RSIA, there have been 22 accidents we have 
investigated or are currently investigating that could have been 
prevented by PTC. These accidents resulted in 29 deaths, over 500 
injuries, and over $190 million in property damage. These include:
    <bullet>  In September 2010, near Two Harbors, Minnesota, human 
error and fatigue contributed to the collision of two freight trains. 
Five crewmembers were injured.
    <bullet>  In May 2011, in Hoboken, New Jersey, human error 
contributed to the collision of a train with the bumping post at the 
end of the track.
    <bullet>  In June 2012, near Goodwell, Oklahoma, human 
inattentiveness contributed to the collision of two freight trains. 
Three crewmembers were killed.
    <bullet>  In May 2013, near Chaffee, Missouri, inattentiveness and 
fatigue contributed to the collision of two freight trains. Two 
crewmembers were injured and a highway bridge collapsed.
    <bullet>  In December 2013, in the Bronx, New York, fatigue 
contributed to the derailment of a passenger train. Four passengers 
were killed and 61 others were injured.
    <bullet>  In May 2015, in Philadelphia, Pennsylvania, an Amtrak 
engineer's acceleration to 106 miles per hour (mph) as he entered a 
curve with a 50 mph speed restriction, due to his loss of situational 
awareness, led to a derailment. Eight passengers were killed and 185 
others were injured.
    Two accidents currently under investigation occurred in DuPont, 
Washington and Cayce, South Carolina. Each of these accidents happened 
on tracks that were unprotected by PTC. While we are still 
investigating both, they are each a type of accident that a fully 
operational PTC system is designed to prevent--overspeeds and 
misaligned switches.
            Amtrak 501 Derailment--DuPont, Washington
    On the morning of December 18, 2017, on its first regular passenger 
service trip, Amtrak passenger train 501 derailed as it traversed a 
curve near DuPont, Washington. The lead locomotive, the power car, and 
two passenger railcars derailed from an overpass onto Interstate 5. At 
the time of the accident, 77 passengers, 5 Amtrak employees, and a 
technician from the railcar manufacturer, Talgo Incorporated, were on 
the train. Of these individuals, 3 passengers were killed and 62 
passengers and crewmembers were injured. Eight individuals in highway 
vehicles were also injured. Our investigation is ongoing, but on 
January 4, 2018, we issued a preliminary report regarding this 
derailment.\5\
---------------------------------------------------------------------------
    \5\ NTSB, Preliminary Report, RRD18MR001 (January 4, 2018).
---------------------------------------------------------------------------
    Central Puget Sound Regional Transit Authority (Sound Transit), a 
public transit agency in the State of Washington, owns the Point 
Defiance Bypass tracks where the derailment occurred. Sound Transit 
reported that the PTC system on this line was not operational at the 
time of the accident. The authorized track speed decreases from 79 mph 
to 30 mph as the track approaches the curve. According to the lead 
locomotive's event data recorder, the final recorded speed of the 
locomotive was 78 mph. In this accident, PTC would have notified the 
train engineer about the speed reduction for the curve, and if he did 
not take appropriate action to control the train's speed, PTC would 
have applied the train brakes to maintain compliance with the speed 
restriction and to stop the train.
            Amtrak 91 Collision with CSX Train--Cayce, South Carolina
    In the early morning of February 4, 2018, an Amtrak passenger train 
unexpectedly entered a siding near Cayce, South Carolina, and collided 
with a stationary CSX freight train. Two of the crewmembers--the 
engineer and the conductor--were killed, and at least 92 passengers and 
crewmembers were transported to medical facilities. Our investigation 
is ongoing, but on February 28, 2018, we issued a preliminary 
report.\6\
---------------------------------------------------------------------------
    \6\ NTSB, Preliminary Report, RRD18MR003 (February 28, 2018).
---------------------------------------------------------------------------
    At the time of the accident, a signal suspension was in place 
through the area, due to signal work being done, including upgrades to 
prepare for implementation of PTC. Trains were being directed through 
the area by a CSX dispatcher, who would issue warrants, or permissions, 
to use the main line.\7\ The crew of the CSX train had completed work 
in the area, moved the train to the siding, and released their 
authority to use the main line back to the dispatcher. However, the 
switch on the main line was left open to the siding and locked. The 
Amtrak train, traveling at 57 mph, was diverted into the siding from 
the main and struck the CSX train.
---------------------------------------------------------------------------
    \7\ Signal suspension means train control signals located alongside 
the track have been taken out of service, oftentimes for maintenance or 
system upgrades. When these signals are taken out of service, train 
movements are controlled by means such as absolute blocks or by track 
warrants.
---------------------------------------------------------------------------
    This is the second accident that we are investigating involving a 
train being unexpectedly diverted onto a side track because of a switch 
left in the incorrect position in an area of track under ``signal 
suspension'' due to installation and testing of PTC. On December 5, 
2017, we issued an accident brief regarding the collision of two Union 
Pacific Railroad freight trains that occurred on March 14, 2016, in 
Granger, Wyoming. One crewmember received minor injuries. We determined 
that the probable cause of the accident was that the employee-in-charge 
incorrectly used information from a conversation with the train 
dispatcher as authorization to send a train into the signal suspension 
territory. Contributing to the accident was the failure of a crewmember 
to check the switch position before authorizing the train to enter the 
signal suspension territory.\8\
---------------------------------------------------------------------------
    \8\ NTSB, Collision of Two Union Pacific Railroad Freight Trains, 
Granger, Wyoming. Rpt. No. NTSB/RAB-17-10 (December 5, 2017).
---------------------------------------------------------------------------
    In both the Granger and Cayce accidents, human decisionmaking and 
actions likely played key roles. Safe movement of the trains through 
the signal suspension depended on proper switch alignment, which, in 
turn, relied on error-free manual work. The risk of error was not 
safeguarded, either by technology or supervision. The reliance on 
error-free human performance for safe train movement creates a single 
point-of-failure given the current operating practices and regulations. 
We concluded that additional measures are needed, such as restricted 
speed, to ensure safe operations during signal suspensions, especially 
during the movement of passenger trains, due to the likelihood of harm 
to the traveling public.
    Therefore, on February 13, 2018, we issued an urgent safety 
recommendation to the FRA to issue an emergency order directing 
railroads to require that when signal suspensions are in effect and a 
switch has been reported relined for a main track, the next train or 
locomotive to pass the switch location must approach with a restricted 
speed. After verifying the switch position, the train crew would be 
required report to the dispatcher that the switch is correctly lined 
for the main track before trains would be permitted to operate at 
maximum-authorized speed.\9\ We only issue urgent recommendations when 
we determine that the course of action requires immediate attention to 
avoid imminent loss due to a similar accident.
---------------------------------------------------------------------------
    \9\ NTSB, Safety Recommendation Report: Train Operation During 
Signal Suspension. Rec. No. R-18-005 (February 13, 2018).
---------------------------------------------------------------------------
    On April 23, 2018, the FRA published a notice of draft safety 
advisory in response to our urgent safety recommendation. The proposed 
safety advisory recommends that railroads adopt industry best safety 
practices regarding railroad operations under temporary signal 
suspensions. Because FRA's proposal would not require adoption of such 
practices, as called for by our urgent safety recommendation, the NTSB 
has classified this urgent safety recommendation as ``Open--
Unacceptable Response.'' Furthermore, it is noteworthy that FRA has not 
even published proposed industry best practices. We believe that the 
FRA must act now to prevent accidents like those in Granger or Cayce.
    On July 10 and 11, 2018, we held a 2-day investigative hearing to 
explore issues involved in the DuPont and Cayce accidents. The purpose 
of the hearing was to elicit additional factual information about the 
accidents as part of our ongoing investigations. The factors involved 
in these accidents are comprehensive and we are examining a multitude 
of aspects beyond PTC, including Amtrak operations on host railroads 
and safety management systems in passenger rail.
                               conclusion
    The NTSB is gravely concerned that the majority of the Nation's 
railroads, particularly passenger railroads, required to install PTC 
will not have fully operational systems by the December 31, 2018, 
deadline. I appreciate the committee holding another hearing this year 
on the importance of PTC, and I am here today to urge implementation of 
this lifesaving technology without further delay. For each day that 
goes by without PTC, we are at continued risk for another tragic 
accident.
    Thank you for the opportunity to testify before you today. I look 
forward to responding to your questions.

    Mr. Denham. Thank you, Mr. Sumwalt.
    Ms. Fleming, you are recognized.
    Ms. Fleming. Chairmen Shuster and Denham, Ranking Members 
DeFazio and Capuano, and members of the committee, thank you 
for the opportunity to discuss railroads' implementation and 
FRA's oversight of PTC, one of the most promising technological 
advances in rail safety in decades.
    As you know, GAO has been closely tracking and reporting on 
railroads' and FRA's PTC efforts since 2010. Although railroads 
and FRA have made some progress in certain areas, it has been 
slow. And in light of the implementation and other challenges, 
we have consistently cautioned that some railroads may not meet 
required deadlines.
    We are now fast approaching the December 31, 2018, deadline 
for railroads to either fully implement PTC or seek an 
extension of up to 2 years. My testimony today focuses on two 
issues: the progress that railroads required to implement PTC 
have made, and FRA's efforts to assist them; and how railroads 
and FRA plan to approach the December 2018 and 2020 deadlines.
    With respect to railroads' progress, we found that many 
railroads remained in the early implementation stages, meaning 
equipment installation and initial field testing. Equipment 
installation presents a more positive picture. Half of 
railroads were still installing equipment on trains and 
alongside tracks. However, nearly three-quarters reported being 
more than 90 percent done.
    Progress varied more widely with respect to testing. All of 
the Class I freights and Amtrak had initiated field testing and 
entered the latter stage of advanced testing known as revenue 
service demonstration, or RSD.
    By contrast, 19 commuter railroads and 2 Class II and III 
freight railroads had initiated field testing, and only 8 
commuter railroads and no Class II or III had initiated RSD. 
Initiating RSD is important for two reasons: first, it allows 
railroads to test trains operating PTC as part of their regular 
operations; second, unless commuter or Class II or III freights 
receive FRA approval to use substitute criteria, they must 
initiate RSD by year-end to qualify for an extension.
    In this regard, FRA's recent clarification about substitute 
criteria may lessen concerns, at least in the near term, about 
the number of railroads that had yet to initiate RSD. In three 
symposia this summer, FRA officials explained that initiating 
field testing could potentially qualify as substitute criteria. 
Consistent with our recommendation, FRA also clarified other 
aspects of its planned approach for reviewing and granting 
extensions. Railroad representatives welcomed this information, 
though a few wish FRA had shared it much sooner.
    Turning to this year's deadline, as of August, eight 
railroads anticipate reaching full implementation by December. 
The remaining 32 said they plan to apply for an extension. To 
date, only one had done so. Sixteen said they intend to use 
substitute criteria. For those railroads that fail to meet 
either year-end requirement, FRA officials said that the 
levying of civil fines is a yet-to-be-made policy decision, and 
will take into account specific circumstances.
    Given that applying for an extension appears to be the 
general approach, rather than the exception, to the upcoming 
deadline, much work will need to be accomplished to achieve 
full PTC implementation in the final 2-year window. Many 
railroads will need to either initiate or complete field 
testing. To date, moving from field testing to RSD has taken 
railroads, on average, 2 years to complete. And about one-
quarter of the railroads told us that they had encountered 
software bugs or other challenges related to the maturity of 
the system.
    Moreover, interoperability remains a great unknown. Almost 
all railroads implementing PTC share track with at least one 
other railroad, and therefore, must ensure their PTC systems 
operate with each other. This poses a particular challenge for 
Class I freight railroads, especially in dense areas, such as 
Chicago, where 14 different railroads interoperate.
    While Class I's are in the latter stages of implementation, 
they cannot begin interoperability testing until their tenant 
railroads fully implement PTC. In turn, FRA's already 
substantial workload will increase. FRA has re-allocated some 
internal resources, and begun reviewing draft documents to help 
address the upcoming surge of anticipated submissions.
    One of the last documents railroads must submit is their 
safety plan. As of July, 34 railroads had yet to do so. FRA 
officials estimated that each safety plan would take 6 months 
to 1 year to review. Prioritizing resources based on risk will 
continue to be key to FRA's ability to manage its workload and 
oversight responsibilities.
    In conclusion, today, almost a decade after the tragic rail 
accident in Chatsworth, California, it remains an open question 
whether railroads and FRA are poised to complete the remaining 
work and overcome the ongoing challenges facing them to achieve 
full PTC implementation by 2020.
    Chairman, this concludes my statement, and I would be 
pleased to answer any questions you or members of the committee 
have.
    [Ms. Fleming's prepared statement follows:]

                                 <F-dash>
      Prepared Statement of Susan A. Fleming, Director, Physical 
         Infrastructure, U.S. Government Accountability Office
    Chairman Denham, Ranking Member Capuano, and members of the 
subcommittee:
    Thank you for the opportunity to discuss our work in reviewing 
railroads' and the Federal Railroad Administration's (FRA) efforts to 
implement positive train control (PTC). In September 2008--10 years ago 
this month--a commuter train and freight train collided in the 
Chatsworth neighborhood of Los Angeles, California, resulting in 25 
deaths and over 100 injuries. In the wake of this accident, legislation 
was enacted requiring certain railroads to implement PTC--a 
communications-based system designed to slow or stop a train that is 
not being operated safely.\1\ Forty railroads are required to implement 
PTC.\2\ These railroads include 28 commuter railroads and Amtrak, which 
collectively provide over 500 million passenger trips annually. 
Railroads that play a key role in our nation's freight network must 
also implement PTC, including the 7 largest Class I and 4 Class II and 
III freight railroads.\3\
---------------------------------------------------------------------------
    \1\ The Rail Safety Improvement Act of 2008, Pub. L. No. 110-432, 
div. A, 112 Stat. 4848 (2008).
    \2\ Specifically, these 40 railroads are currently subject to the 
statutory mandate that requires the implementation of a PTC system on 
certain main lines.
    \3\ Freight railroads are classified by operating revenues. As of 
2017, Class I railroads are those carriers with annual operating 
revenues of $447.6 million or more. Class II railroads are carriers 
with annual operating revenues of less than $447.6 million but in 
excess of $35.8 million, and Class III railroads have annual carrier 
operating revenues of $35.8 million or less.
---------------------------------------------------------------------------
    As we have previously reported, PTC implementation is a complex and 
lengthy process, which touches almost every part of major rail lines 
and almost every aspect of railroads' train operations.\4\ Each 
implementing railroad must install more than 20 major components that 
will ultimately communicate trains' locations, movements, and speed, 
and then slow or stop a train that is not being operated safely. Full 
implementation of PTC involves a number of steps, including but not 
limited to: planning and system development, equipment installation, 
testing, system certification, and achieving interoperability. Since 
U.S. railroads often operate some or all of their trains as ``tenants'' 
on the track of another railroad, known as the ``host,'' 
interoperability is intended to enable trains that operate on the same 
track to be governed by the PTC system and to move seamlessly across 
track owned by different railroads.
---------------------------------------------------------------------------
    \4\ See GAO, Positive Train Control: Additional Authorities Could 
Benefit Implementation, GAO-13-720 (Washington, DC, Aug. 16, 2013).
---------------------------------------------------------------------------
    When PTC implementation was mandated in 2008, the deadline for 
railroads' implementation was December 31, 2015. We reported in 
September 2015 that nearly all railroads did not expect to meet this 
deadline.\5\ In October 2015, Congress extended the deadline to 
December 31, 2018, and established criteria that would enable FRA, the 
agency responsible for overseeing PTC implementation, to grant 
railroads meeting certain requirements an alternative schedule up to 
year-end 2020.\6\ Throughout this statement we refer to the alternative 
schedule as the ``extension.'' My testimony today includes work 
conducted at the request of Chairman Denham and Ranking Member Capuano 
as well as Chairman Bill Shuster and Ranking Member Peter DeFazio of 
the House Committee on Transportation and Infrastructure. Specifically, 
my testimony discusses the efforts of FRA and railroads to implement 
PTC as the December 31, 2018, deadline approaches and since we last 
testified on PTC in March 2018.\7\ My statement today will address (1) 
railroads' implementation progress and the steps that FRA has taken to 
assist them and (2) how railroads and FRA plan to approach PTC 
implementation to meet the December 2018 and December 2020 deadlines.
---------------------------------------------------------------------------
    \5\ See GAO, Positive Train Control: Additional Oversight Needed As 
Most Railroads Do Not Expect to Meet 2015 Implementation Deadline, GAO-
15-739 (Washington, DC, Sept. 4, 2015).
    \6\ The Positive Train Control Enforcement and Implementation Act 
of 2015, Pub. L. No. 114-73, Sec.  1302, 129 Stat. 568, 576-582 (2015), 
codified at 49 U.S.C. Sec.  20157.
    \7\ GAO, Positive Train Control: Many Commuter Railroads Still Have 
Significant Additional Implementation Work and Opportunities Exist to 
Provide Federal Assistance, GAO-18-367T (Washington, DC, Mar. 1, 2018).
---------------------------------------------------------------------------
    To describe railroads' progress, we analyzed the most recent 
available quarterly PTC implementation reports that railroads submitted 
to FRA, reports that reflected the progress as of June 30, 2018. We 
analyzed the reports to determine the extent that each railroad has 
installed PTC hardware and initiated testing. Based on our review of 
these data for anomalies, outliers, or missing information and our 
previous assessment of such quarterly reports for our March 2018 
testimony, we determined that these data were sufficiently reliable for 
our purposes of describing railroads' progress in PTC implementation. 
To describe railroads' and FRA's progress and approaches, we 
interviewed representatives from 16 passenger and freight railroads, 
including the 12 railroads (11 commuters and 1 Class III) that FRA 
identified in June 2018 as at risk of not having implemented PTC or 
qualifying for an extension by December 31, 2018.
    The remaining 4 railroads we interviewed were: Amtrak; 2 Class I 
freight railroads, which were selected based on their relationships 
with tenant railroads and substantial progress toward PTC 
implementation; and a commuter railroad that received approval from FRA 
in March 2018 for an exception from PTC system implementation. To 
describe how railroads and FRA plan to approach PTC implementation for 
the December 2018 and 2020 deadlines, we sent 41 railroads a semi-
structured questionnaire.\8\ The questions we asked were based on the 
data collection efforts from our March 2018 testimony. We analyzed 
railroads' responses and summarized their plans and challenges into 
common categories. To determine the stage of PTC implementation 
railroads expected to reach by December 31, 2018, we considered 
railroads' responses to our questionnaire, information provided in 
interviews, and documents submitted to FRA regarding railroads' planned 
implementation approaches, among other information. To describe 
railroads' progress and FRA's actions to assist railroads, we 
interviewed the industry associations for commuter (American Public 
Transportation Association) and freight (Association of American 
Railroads) railroads, and two PTC vendors. We also reviewed applicable 
laws and FRA regulations, presentations, reports, and guidance and 
interviewed FRA officials.
---------------------------------------------------------------------------
    \8\ We sent the questionnaire to all 40 railroads that are 
currently required to install PTC and the one commuter railroad that 
was granted a mainline track exception in March 2018. In March 2018, we 
reported that 41 railroads were required to implement PTC. However, 
since then one commuter railroad received approval from FRA for a main 
line track exception, meaning it is no longer required to implement 
PTC. FRA can grant main line track exceptions under certain conditions, 
such as through limited operations. 49 C.F.R. Sec.  236.1019(c). In 
this case, a commuter railroad reduced its regularly scheduled service 
by one train on 1 day of the week to 12 regularly scheduled one-way 
trains per day.
---------------------------------------------------------------------------
    We conducted this performance audit from June 2018 to September 
2018 in accordance with generally accepted government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives.
                               background
    PTC systems are required by law to prevent certain types of 
accidents or incidents. In particular, a PTC system must be designed to 
prevent train-to-train collisions, derailments due to excessive speed, 
incursions into work zone limits, and the movement of a train through a 
switch left in the wrong position.\9\ While railroads may implement any 
PTC system that meets these requirements, the majority of the railroads 
are implementing one of four types of systems.\10\ PTC's intended 
safety benefits can be fully achieved nationwide when all required 
railroads have successfully installed PTC components, tested that these 
components work together and the systems function as designed, and are 
interoperable with other host and tenant railroads' PTC systems that 
share track. Interoperability means the locomotives of any host 
railroad and tenant railroad operating over the same track segment will 
communicate with and respond to the PTC system, allowing uninterrupted 
movements over property boundaries.\11\ Interoperability is critical to 
PTC functioning properly given the complexity of the rail network in 
the United States. In much of the country, Class I railroads function 
as hosts for Amtrak and commuter railroads. For example, one of the 
seven major Class I railroads reports that 24 tenant railroads operate 
over its PTC-equipped tracks, including freight, Amtrak, and commuter 
railroads. A notable exception to this is the Northeast Corridor, which 
runs from Washington, DC, to Boston, Massachusetts, which Amtrak 
predominantly owns and over which 6 freight and 7 commuter railroads 
operate as tenants.
---------------------------------------------------------------------------
    \9\ The Rail Safety Improvement Act of 2008, Pub. L. No. 110-432, 
div. A, 122 Stat. 4848 (2008).
    \10\ The four types of PTC systems are the Interoperable Electronic 
Train Management System (I-ETMS), the Advanced Civil Speed Enforcement 
System, the Enhanced Automated Train Control (E-ATC), and the 
Incremental Train Control System (ITCS).
    \11\ See 49 U.S.C. Sec.  20157. With certain exceptions, full 
implementation requires all controlling locomotives to be equipped with 
a fully operative and functioning onboard PTC apparatus, including the 
controlling locomotives for each host railroad and each tenant railroad 
operating on a PTC-equipped track segment. 49 C.F.R. Sec.  236.1006.
---------------------------------------------------------------------------
    PTC implementation involves multiple stages to achieve full 
implementation, including planning and system development, equipment 
installation and testing, system certification, and full deployment, 
including interoperability. Each railroad must develop an FRA-approved 
PTC implementation plan that includes project schedules and milestones 
for certain activities, such as equipment installation.\12\ The 
equipment installation stage involves many components, including 
communication systems; hardware on locomotives and along the side of 
the track (called ``wayside equipment''); and software in centralized 
office locations as well as onboard the train and along the track.\13\ 
Railroads are required to report quarterly and annually to FRA on the 
railroad's PTC implementation status relative to the implementation 
plan.\14\ A railroad can also revise its implementation plan to reflect 
changes to the project, which then must be reviewed and approved by 
FRA.
---------------------------------------------------------------------------
    \12\ The Rail Safety Improvement Act of 2008 required that 
railroads submit an implementation plan by April 16, 2010. When the PTC 
implementation deadline was extended to 2018 under the PTC Enforcement 
and Implementation Act of 2015, railroads were required to submit a 
revised implementation plan by January 27, 2016, to outline how and 
when each railroad plans to achieve full PTC implementation.
    \13\ See GAO-18-367T and GAO-15-739. In this statement, we use the 
term locomotive generally to refer to any of the variety of vehicles, 
such as cab cars and electric multiple unit trains, that commuter 
railroads may need to equip. Wayside equipment includes items such as 
communication towers or poles, switch position monitors, wayside 
radios, wayside interface units, and base station radios.
    \14\ To effectively monitor each railroad's progress implementing 
PTC, FRA requires the submission of quarterly progress reports under 
its investigative authorities, See, e.g., 49 U.S.C. Sec. Sec.  20107, 
20902, 20157(c)(2); 49 C.F.R. Sec.  236.1009(h). In addition, each 
railroad is required to annually report to FRA on PTC implementation 
progress in areas such as spectrum acquisition, installation progress, 
and the total number of route miles where revenue service demonstration 
has been initiated or PTC is in operation. See 49 U.S.C. Sec.  20157(c) 
(1); 49 C.F.R. Sec.  236.1009(a)(5).
---------------------------------------------------------------------------
    In addition, railroads must demonstrate that the PTC system is 
deployed safely and meets functional requirements through multiple 
stages of testing. Before initiating testing on the general rail 
system, railroads must submit a formal test request for FRA approval 
that includes, among other things, the specific test procedures, dates 
and locations for testing, and the effect the tests will have on 
current operations. The multiple stages of PTC testing include:
    <bullet>  Laboratory testing: locomotive and wayside equipment 
testing in a lab environment to verify that individual components 
function as designed.
    <bullet>  Field testing: includes several different tests of 
individual components and the overall system, such as testing of each 
locomotive to verify that it meets functional requirements and field 
integration testing--a key implementation milestone to verify that each 
PTC component is integrated and functioning safely as designed.
    <bullet>  Revenue service demonstration (RSD): an advanced form of 
field testing in which the railroad operates PTC-equipped trains in 
regular service under specific conditions.\15\ RSD is intended to 
validate the performance of the PTC system as a whole and to test the 
system under normal, real-world operations.
---------------------------------------------------------------------------
    \15\ Results and data from RSD testing are also used to support the 
safety case outlined in each host railroads' safety plan.
---------------------------------------------------------------------------
    <bullet>  Interoperability testing: host and tenant railroads that 
operate on the same track must work together to test interoperability 
to ensure each railroad can operate seamlessly across property 
boundaries. Almost all of the 40 railroads currently required to 
implement PTC must demonstrate interoperability with at least one other 
railroad's PTC system.
    Using results from field and RSD testing, combined with other 
information, host railroads must then submit a safety plan to FRA for 
approval.\16\ We have previously reported that these safety plans are 
about 5,000 pages in length.\17\ Once FRA approves a safety plan, the 
railroad receives PTC system certification, which is required for full 
implementation, and is then authorized to operate the PTC system in 
revenue service. According to FRA officials, the FRA may impose 
conditions to the PTC safety plan approval as necessary to ensure 
safety, resulting in a conditional certification.
---------------------------------------------------------------------------
    \16\ 49 C.F.R. Sec.  236.1015.
    \17\ GAO-18-367T.
---------------------------------------------------------------------------
    Railroads may receive a maximum 2-year extension from FRA past the 
December 31, 2018, deadline if they meet six criteria set forth in 
statute. Specifically, railroads must demonstrate, to the satisfaction 
of FRA, that they have: (1) installed all PTC system hardware 
consistent with the total amounts identified in the railroad's 
implementation plan; (2) acquired all necessary spectrum consistent 
with the implementation plan;\18\ (3) completed required employee 
training; (4) included in a revised implementation plan an alternative 
schedule and sequence for implementing the PTC system as soon as 
practicable but no later than December 31, 2020; (5) certified to FRA 
that they will be in full compliance with PTC statutory requirements by 
the date provided in the alternative schedule and sequence; and (6) for 
Class I railroads and Amtrak, initiated RSD or implemented a PTC system 
on more than 50 percent of the track they own or control that is 
required to have PTC. For commuter and Class II and III railroads, the 
sixth statutory criterion is to have either initiated RSD on at least 
one territory required to have operations governed by a PTC system or 
``met any other criteria established by the Secretary,'' which FRA 
refers to as ``substitute'' criteria.\19\
---------------------------------------------------------------------------
    \18\ PTC uses radio spectrum to communicate a train's location, 
speed restrictions, and movements. Radio frequency spectrum is the 
medium for wireless communications and supports a vast array of 
commercial and governmental services. Commercial entities also use 
radio frequency spectrum to provide a variety of wireless services, 
including mobile voice and data.
    \19\ 49 U.S.C. Sec.  20157(a)(3)(B). FRA defines a ``territory'' as 
an entire installation/track segment as identified in a railroad's PTC 
implementation plan (e.g., a track segment, territory, subdivision, 
district, etc.).
---------------------------------------------------------------------------
    FRA is responsible for overseeing railroads' implementation of PTC, 
and the agency monitors progress and provides direct assistance to 
railroads implementing PTC. For example, FRA officials provide 
technical assistance to railroads, address questions, and review 
railroad-submitted documentation. FRA has a national PTC director, 
designated PTC specialists in the eight FRA regions, and a few 
additional engineers and test monitors responsible for overseeing 
technical and engineering aspects of implementation and reviewing 
railroad submissions and requests. In anticipation of the upcoming 
implementation deadline, in May 2017, FRA began to send notification 
letters to railroads it determined were at risk of both not meeting the 
December 31, 2018, implementation deadline and not completing the 
requirements necessary to qualify for an extension. FRA identified 
``at-risk'' railroads by comparing a railroad's hardware installation 
status to the total hardware required for PTC implementation, according 
to the railroad's implementation plan. FRA has increased the ``at-
risk'' threshold percentage over time as the deadline approaches. See 
table 1.

Table 1: Installation Thresholds Used Over Time by the Federal Railroad Administration (FRA) to Determine
 Railroads At-Risk for Missing Positive Train Control (PTC) Implementation Deadlines
 


----------------------------------------------------------------------------------------------------------------
                                    Threshold of percent of hardware
 Date of railroad's progress from   installed relative to railroad's   Date of FRA at-risk    Number of at-risk
    quarterly reports used to       implementation plan--below which     letters sent to    railroads identified
    determine whether at-risk         railroads considered at-risk          railroads              by FRA
----------------------------------------------------------------------------------------------------------------
           December 31, 2016                                 50               May 2017                    17
           December 31, 2017                                 80             April 2018                    15
              March 31, 2018                                 85              June 2018                    12
               June 30, 2018                                 90            August 2018                   9\\
----------------------------------------------------------------------------------------------------------------
\\ Source: GAO presentation of Federal Railroad Administration information. GAO-18-692T.


    FRA has additional oversight tools, which include use of its 
general civil penalty enforcement authority for failure to meet certain 
statutory PTC requirements.\20\ FRA has used this authority in 2017 and 
2018 to assess civil penalties against railroads that failed to comply 
with the equipment installation milestones, the spectrum acquisition 
milestones, or both, that the railroads had established in their 
implementation plans for the end of 2016 and 2017.
---------------------------------------------------------------------------
    \20\ 49 U.S.C. Sec.  20157(e).
---------------------------------------------------------------------------
    As part of our body of work on PTC, we found that railroads face 
numerous PTC implementation challenges and made recommendations to FRA 
to improve its oversight of implementation. Specifically, in 2013 and 
2015 we found that many railroads were struggling to make progress due 
to a number of complex and interrelated challenges, such as developing 
system components and identifying and correcting issues discovered 
during testing. Most recently, we found in March 2018 that FRA had not 
systematically communicated information or used a risk-based approach 
to help railroads prepare for the 2018 deadline or to qualify for an 
extension.\21\ We also found that many railroads were concerned about 
FRA's ability to review submitted documentation in a timely manner, 
particularly given the length of some required documentation such as 
safety plans and FRA's limited resources for document review. In March 
2018, we recommended FRA identify and adopt a method for systematically 
communicating information to railroads and use a risk-based approach to 
prioritize its resources and workload. FRA agreed with our 
recommendations.
---------------------------------------------------------------------------
    \21\ GAO-18-367T.
---------------------------------------------------------------------------
many railroads remain in early stages of ptc implementation and fra has 
                    clarified extension requirements
            Railroads Continue to Install and to Test PTC Systems, and 
                    Report Previously Identified Implementation 
                    Challenges
    As of June 30, 2018, many railroads reported that they remain in 
the equipment installation and field-testing stages, which are early 
stages of PTC implementation. However, since we last testified in March 
2018, railroads have made progress on equipment installation. Based on 
our analysis of the 40 railroads' reported status as of June 30, 2018, 
about half of the railroads have completed equipment installation, and 
many others are nearing completion of this stage. Specifically, three-
quarters of the 40 railroads reported being more than 90 percent 
complete with locomotive equipment installation. Similarly, nearly 
three-quarters of railroads that must install wayside equipment 
reported being more than 90 percent complete.\22\ The remaining one-
quarter of railroads are among those designated by FRA as at-risk of 
both not meeting the end of 2018 implementation deadline and not 
completing the requirements necessary to qualify for an extension. 
Specifically, in August 2018, FRA identified 9 railroads--all commuter 
railroads--as at-risk, fewer than the 12 railroads FRA had previously 
designated as at risk in its June 2018 letters to railroads.
---------------------------------------------------------------------------
    \22\ As of June 30, 2018, seven railroads reported that they were 
not required to install wayside equipment because either their hosts 
were responsible for installation of wayside equipment, or the PTC 
system being installed did not require it. We did not include these 
railroads when we analyzed railroads' progress in wayside equipment 
installation.
---------------------------------------------------------------------------
    Since we last testified, most commuter railroads reported slow 
progress with testing, especially with RSD, while Class I railroads and 
Amtrak have reached later stages of testing. Notably, all 7 Class I 
freight railroads and Amtrak reported having initiated field testing 
and entering RSD as of June 30, 2018. We reported in 2013 and 2015 that 
Class I railroads and Amtrak have been conducting PTC implementation 
activities for longer than commuter railroads, which has likely 
factored into their advanced progress.\23\ However, commuter railroads 
and Class II/III railroads have progressed more slowly. For example:
---------------------------------------------------------------------------
    \23\ GAO-13-720 and GAO-15-739.
---------------------------------------------------------------------------
    <bullet>  Laboratory and initial field testing: 19 of 28 commuter 
railroads reported having initiated this testing as of June 30, 2018, 6 
more commuter railroads than the 13 we previously reported as having 
initiated field testing as of September 30, 2017.\24\ Additionally, 2 
of 4 Class II/III railroads reported having initiated testing as of 
June 30, 2018.
---------------------------------------------------------------------------
    \24\ See GAO-18-367T. We determined a railroad to have initiated 
testing if it met one of the following criteria: (1) at least one track 
segment reported as ``testing;'' (2) at least one track segment 
reported as ``operational/complete;'' or (3) at least 1 route mile 
reported as in testing. Accordingly, ``testing'' in this context 
includes a range of testing activities from laboratory testing to on-
track field integration testing. Additionally, because field testing is 
a prerequisite for RSD, these counts include some railroads that may 
have also initiated RSD.
---------------------------------------------------------------------------
    <bullet>  RSD testing: 8 of 28 commuter railroads reported 
initiating RSD testing as of June 30, 2018, 2 more commuter railroads 
than the 6 we previously reported as having entered RSD testing as of 
September 30, 2017. No Class II/III railroads reported having initiated 
RSD. As noted earlier, unless a commuter or Class II/III railroad 
receives approval for using substitute criteria, the railroad must 
initiate RSD, a final stage of PTC testing, on at least one territory 
by December 31, 2018, to qualify for an extension.
    Railroad representatives reported that they continue to face many 
of the same challenges we have previously identified. For example, in 
response to our questionnaire to all 40 railroads implementing PTC, 14 
reported challenges with PTC vendors and contractors, which we 
originally reported on in 2015. One railroad noted that, because its 
contractor manages PTC projects across the country with the same 
deadline and requirements, it can be difficult for all railroads to get 
the resources they need from their contractor. We previously reported 
that there are a limited number of vendors available to design PTC 
systems, provide software and hardware, and conduct testing. For 
example, we reported in 2015 that, according to railroad industry 
representatives, there were two vendors for the onboard train 
management computer and three vendors for the wayside equipment.\25\ 
Likewise, we previously reported that railroads face software 
challenges, and noted that railroads had concerns with the number of 
defects identified during software testing, since these take time to 
address. In response to our questionnaire, 11 railroads reported 
encountering challenges related to maturity of the PTC software 
systems, such as working through software bugs or defects during 
testing.
---------------------------------------------------------------------------
    \25\ GAO-15-739.
---------------------------------------------------------------------------
            FRA Has Recently Clarified Extension Requirements
    In June, July, and August 2018, FRA held three PTC symposiums that 
were attended by representatives from all 40 railroads and that focused 
on the extension process and substitute criteria, PTC testing, and 
safety plans, respectively. FRA's June 2018 symposium covered 
information consistent with our March 2018 recommendation that the 
agency adopt a method for systematically communicating information 
related to the requirements and process for an extension to 
railroads.\26\ Specifically, FRA presented information on the 
procedures for requesting and obtaining FRA's approval for an extension 
to implement PTC beyond the December 2018 deadline including FRA's 
review process.\27\ FRA also clarified that for railroads eligible to 
use substitute criteria, initiating field testing was one approach that 
could potentially qualify as substitute criteria, rather than 
initiating RSD.\28\
---------------------------------------------------------------------------
    \26\ GAO-18-367T.
    \27\ FRA has 90 days to approve a railroad's alternative schedule 
and sequence plan and provide notification to the railroad of its 
decision. See 49 U.S.C. Sec.  20157(a)(3)(C); 49 C.F.R. Sec.  
236.1011(a), (c). Within 45 days of receiving notification of a 
railroad's alternative schedule and sequence plans, FRA must provide to 
the railroad notification of any deficiencies that would prevent FRA 
approval and provide an opportunity to correct the deficiencies.
    \28\ FRA officials noted that each application for substitute 
criteria is different, with different circumstances, and that 
applications are evaluated individually on a case-by-case basis by FRA.
---------------------------------------------------------------------------
    Representatives we interviewed from the railroads that participated 
in the symposiums found them to be helpful and some railroads reported 
that the information presented led them to adjust their approach to 
meeting the December 2018 deadline. For example, one railroad 
representative we spoke to said that until the symposium, he was 
unaware that using field testing as substitute criteria was a potential 
option. Some railroads we met with also told us they are re-evaluating 
what activities and documentation need to be revised and submitted to 
FRA before the December 2018 deadline based on the information 
presented at the symposiums. For example, representatives from one 
railroad we met with said that FRA officials encouraged them to update 
their PTC implementation plan right away with current equipment 
installation totals, to ensure consistency across all required 
documentation by the end of 2018. A couple of railroads noted that the 
information presented at the symposiums clarified many questions and 
would have been beneficial to know a year or two earlier in the 
implementation process.
    In addition, in recent months FRA has continued to provide 
assistance to railroads and has taken a series of steps to better 
prepare railroads for the 2018 deadline. These steps include meeting 
regularly with individual railroads and developing approaches intended 
to help many railroads meet the requirements necessary for a deadline 
extension. For example, representatives from one commuter railroad said 
agency officials have been willing to share lessons learned, clarify 
requirements, and review draft documentation to provide informal 
feedback.
 railroads and fra are working toward extensions, leaving substantial 
                    work to be completed beyond 2018
            Most Railroads Anticipate Needing an Extension, and Many 
                    Plan to Start RSD Testing Beyond 2018
    More than three-quarters of railroads (32 of 40) reported to us 
that they plan to apply for an extension.\29\ However, FRA officials 
noted that with the exception of possibly one or two railroads, they 
anticipate that all railroads will likely need an extension. As of 
September 2018, most railroads have not submitted their request for an 
extension. A railroad must demonstrate that it has met all of the 
criteria to qualify before it may formally request an extension, and as 
previously discussed, many railroads remain in the early stages of PTC 
implementation. Of the eight railroads that anticipate reaching full 
implementation by December 31, 2018, five have conditionally certified 
safety plans; one has submitted its safety plan for review; one plans 
to submit its safety plan to FRA in fall 2018 for certification; and 
one did not specify when it would submit its safety plan for 
certification.\30\
---------------------------------------------------------------------------
    \29\ According to FRA officials, tenant-only railroads are not 
required to apply for an extension but are covered under extensions 
applied for and granted to their host railroad(s). Therefore, we 
considered tenant railroads that told us that their hosts would be 
applying for an extension on their behalf as part of the 32 railroads 
cited here. This total includes two total tenant railroads that told us 
that they would require an extension because one or more of their hosts 
would not reach full implementation.
    \30\ This includes some tenant railroads that are included in their 
hosts' conditionally--certified safety plans and that have achieved, or 
expect to achieve, full interoperability with those host(s).
---------------------------------------------------------------------------
    Of the 32 railroads that intend to apply for an extension, half 
reported that they plan to use substitute criteria to qualify, 
including 12 commuter and 4 Class II and III railroads.\31\ Moreover, 
three-quarters of the commuter and Class II and III railroads that plan 
to use substitute criteria (12 of 16) intend to apply to use their 
initiation of field testing or lab testing as substitute criteria. 
Figure 1 depicts the stage of PTC implementation railroads at least 
expect to reach by December 31, 2018, to be in compliance, based on 
railroads' responses to our July August 2018 questionnaire.
---------------------------------------------------------------------------
    \31\ As previously mentioned, only commuter and Class II and III 
railroads may apply for substitute criteria. According to publicly 
available documents, as of September 2018, 6 railroads had submitted 
substitute criteria applications to FRA for approval, and FRA had 
approved 5.
---------------------------------------------------------------------------
            Figure 1: Number of Railroads Expected in Each Positive 
                    Train Control (PTC) Implementation Stage by 
                    December 31, 2018

                    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                    

 Note: This graphic is based on railroads' self-reported expectations 
 and approaches to be in compliance as of December 31, 2018. Railroads 
     may make more or less progress than expected. For tenant-only 
railroads--railroads that only run on hosted track--we considered both 
the tenant and the host railroads' reported expectations, including for 
  extensions, which, according to FRA, are generally applied for and 
        granted to host railroads but which also cover tenants.

 \a\ Railroads that were granted a temporary mainline track exception 
may remain in the installation stage. FRA can grant mainline exceptions 
under certain conditions, such as through limited operations. 49 C.F.R. 
                           Sec.  236.1019(c).

    Although FRA has recently made clear that it is authorized to grant 
extensions based on initiating field testing or other FRA-approved 
substitute criteria, this approach defers time-intensive RSD testing 
into 2019 and beyond. In March 2018, we testified FRA officials told us 
that moving from the start of field testing to the start of RSD can 
take between 1 and 3 years, and has averaged about 2 years for those 
railroads that have completed that stage. We also testified that FRA 
officials believe that most railroads underestimate the amount of time 
needed for testing.\32\ FRA officials told us that they do not consider 
railroads that are approved for an extension under substitute criteria 
to be necessarily at a higher risk of not completing PTC implementation 
by 2020. However, in light of these time estimates and the unknown 
challenges that railroads may face during testing, railroads that are 
in the early field-testing stage moving into 2019 could face challenges 
completing PTC implementation by the extended December 2020 deadline.
---------------------------------------------------------------------------
    \32\ GAO-18-367T.
---------------------------------------------------------------------------
    Railroads further behind in PTC implementation may need to apply 
for an extension due to factors such as compressed implementation 
schedules, as well as the time needed for FRA approvals. For example, 
representatives from one commuter railroad said they hope to reach RSD 
before the December 31, 2018, deadline, but that it would be difficult 
to meet the extension requirements, apply for, and receive an extension 
given the volume of paperwork FRA will be receiving at the end of the 
year. Instead, the railroad plans to submit an extension request using 
substitute criteria consisting of field testing in order to be in 
compliance at the end of the year. Such an approach involves first 
applying for and receiving approval for substitute criteria and then 
formally requesting an extension and submitting supporting 
documentation to FRA before the end of the year. Entering RSD prior to 
the deadline could be difficult given that FRA officials told us they 
have advised railroads to allow at least a month for FRA's review of 
test requests, which must be approved prior to initiating field testing 
and RSD.
    Additionally, for some railroads further along in PTC 
implementation, particularly Class I freight railroads, 
interoperability is a key remaining hurdle for full implementation by 
the end of 2018, and railroads expect this challenge to persist in the 
future. The two Class I railroads we interviewed noted that ensuring 
all tenant railroads are PTC-equipped, tested, and interoperable is a 
primary reason the railroads plan to request an extension. One of these 
host railroads also reported that it has little ability to influence 
its tenants' progress with PTC implementation. Across all 40 railroads, 
8 reported current or anticipated challenges working with tenant or 
host railroads, or both, to plan and conduct testing to ensure 
interoperability. Moreover, given that few railroads have reached the 
interoperability testing stage, the challenges railroads may face in 
this stage remain unclear. For example, some railroads we interviewed 
noted it is unknown how much time and effort will be required to work 
through interoperability issues during testing to ensure the system's 
reliability. One railroad association stated that interoperability is, 
and will continue to be, a substantial challenge for metropolitan areas 
with dense and complex rail networks with several host-tenant 
relationships. For example, according to one commuter railroad, 14 
different freight and commuter railroads will need to interoperate in 
the Chicago area.
            FRA's Substantial Workload Remains a Concern
    FRA's already substantial workload is expected to increase as 
railroads continue to submit documentation necessary for extensions and 
continue PTC implementation activities. FRA is focused on ensuring 
railroads are in compliance through the December 2018 deadline--whether 
via an extension or by completing implementation. While FRA officials 
report that they anticipate almost all railroads will likely request an 
extension, only one--a Class I railroad--had submitted an application 
for an extension as of early September 2018.\33\ FRA will need to 
review and approve all related documentation associated with each 
extension request and make a determination within 90 days, meaning if a 
railroad were to submit its extension request on December 31, 2018, FRA 
would have until the end of March 2019 to approve or deny the 
railroad's extension request.\34\ In addition to extension requests and 
supporting documentation, many railroads will also be submitting to 
FRA: requests for substitute criteria, test requests to initiate field 
testing or RSD, revisions to PTC implementation plans, and PTC safety 
plans.
---------------------------------------------------------------------------
    \33\ FRA approved the railroad's revised PTC implementation plan 
and alternative schedule and sequence on September 5, 2018.
    \34\ FRA officials noted that FRA's decision is based on whether 
the railroad has met the statutory criteria for an alternative 
schedule, and that if the requesting railroad meets all applicable 
statutory criteria, FRA must approve the alternative schedule. 49 
U.S.C. Sec.  20157(a)(3)(C). According to FRA officials, while FRA's 
decision is pending, the railroad is considered in compliance with PTC 
requirements and FRA will not assess civil penalties.
---------------------------------------------------------------------------
    To help manage the forthcoming influx of documentation, FRA 
officials have offered to review draft documentation, such as 
substitute criteria requests and test requests, and have advised 
railroads to take FRA's review times into account prior to submitting 
required documentation. FRA officials told us that in trying to manage 
their workload, they initially told railroads they did not have time to 
review draft submittals. However, they found that taking the time to 
conduct draft reviews ultimately led to higher quality formal 
submittals and accelerated the overall review process. In addition, FRA 
officials said that their goal is to not delay any railroad that is 
ready to move into testing, and that they advised railroads to build 
30-45 days for test request reviews into their project schedules.
    Despite these efforts, railroads remain concerned about the 
agency's ability to manage the PTC workload in the coming months and 
beyond 2018. For example, 9 of the 40 railroads identified FRA's 
resources and review times as a challenge leading up to the December 
2018 deadline. Based on similar concerns, in March 2018, we recommended 
FRA develop an approach to prioritize the allocation of resources to 
address areas of greatest risk as railroads work to complete PTC 
implementation.\35\ FRA has acknowledged the railroads' concern given 
the surge of submissions requiring FRA approval in 2018 and has 
reported the agency is reallocating existing expertise and expanding 
the PTC workforce through training, expanding contracts with existing 
support contractors, and initiating one additional contract to provide 
technical support. For example, FRA officials told us that they 
reallocated resources to shift PTC Specialists' responsibilities to 
focus exclusively on testing-related activities because their 
involvement is critical for the testing stage.
---------------------------------------------------------------------------
    \35\ GAO-18-367T.
---------------------------------------------------------------------------
    Although FRA has taken steps to provide key extension information 
to railroads and help ensure railroads' compliance with PTC deadlines, 
uncertainty remains, particularly in regard to FRA's enforcement 
strategy if railroads are noncompliant with the statute, such as if 
railroads were to fail to apply for an extension by the deadline. 
Representatives from all railroads implementing PTC we met with told us 
that FRA's planned enforcement approach for any railroad that fails to 
meet the requirements for an extension beyond 2018 is unclear. FRA 
officials told us they have shared the range of applicable civil 
penalties with railroads for years,\36\ but that any policy decisions 
about how potential fines will be levied for noncompliant railroads is 
a policy decision that has not yet been made. In addition, it is also 
unclear how the agency would approach enforcement for railroads that 
have a host or tenant operating on their tracks that has not completed 
implementation or met the requirements necessary for an extension. FRA 
officials said that the goal of enforcement is to help bring all 
railroads into compliance and that they would have to look at the 
specific circumstances for any host-tenant issues before assessing a 
fine.
---------------------------------------------------------------------------
    \36\ FRA officials noted that the schedule of civil penalties is 
provided for in governing regulations. See 49 C.F.R. pt. 236, App. A.
---------------------------------------------------------------------------
    In conclusion, almost all railroads will likely request an 
extension beyond 2018, which will require FRA approval and, for many 
railroads, substitute criteria requests that may result in 
approximately a third of railroads remaining in the early stages of PTC 
implementation at the start of 2019. However, given that almost no 
railroads have submitted extension requests, it is unlikely we will 
know how many railroads will be granted an extension by the December 
31, 2018, deadline. Although FRA has reported taking some actions in 
response to our March 2018 recommendation that they better prioritize 
resources, FRA resources and review times remain a significant concern. 
These issues, combined with the ongoing implementation, testing, and 
interoperability challenges that a number of railroads reported to us, 
raise questions as to the extent FRA and the railroad industry are 
poised for full PTC implementation by December 31, 2020.
    Chairman Denham, Ranking Member Capuano, and members of the 
subcommittee, this concludes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

    Mr. Denham. Thank you.
    Mr. Naparstek?
    Mr. Naparstek. Good morning. I wish to thank Chairman 
Denham and Ranking Member Capuano for hosting this important 
discussion on Positive Train Control. I am Scot Naparstek, and 
I am Amtrak's chief operating officer.
    I joined Amtrak in 2012, and currently oversee the 17,000 
hardworking employees of Amtrak's operating departments. Our 
workforce does a great job, and I am proud to represent them 
here today.
    At this moment, Hurricane Florence is bearing down on the 
east coast. And for the safety of our customers and our 
employees, we have adjusted our service and are making all 
necessary preparations to safeguard them and our infrastructure 
as much as possible from the impacts of this storm.
    Today I will provide an update on PTC, including its 
operation on Amtrak-owned infrastructure, on other hosts' 
infrastructure, and our tenants' PTC operations on our 
infrastructure.
    First, let me discuss our most straightforward scenario: 
the Amtrak trains operating over Amtrak infrastructure. In this 
case, Amtrak plans to be fully PTC ready and compliant by the 
end of this year. We have developed a detailed plan for every 
portion of our network, and we are executing an aggressive, yet 
realistic plan which will enable the remaining one-third of our 
route-miles to be complete by December 31st.
    Second, I would like to discuss those places where Amtrak 
is a tenant on other hosts' infrastructure, and in fact, 72 
percent of our train miles are over tracks owned and maintained 
by other railroads. For those tracks we are cooperating with 
our freight and commuter host railroads as they work to 
complete PTC installations.
    We are currently interoperable with five hosts, and we 
anticipate several more before the deadline, although this is 
dependent on host readiness. In places where the host's PTC 
system is not anticipated to be ready for service by year's 
end, and if they have accomplished specific criteria, they will 
be able to apply for an alternative schedule. We expect this on 
37 segments across our network, including all the portions 
where PTC is mandated by law, but not ready by the deadline.
    Additionally, the FRA permits railroads to seek Mainline 
Track Exclusion Addendums if the operation meets certain 
criteria. Consistent with our safety management system 
methodology, we have been conducting detailed risk assessments 
to enable us to develop risk mitigation measures to address 
those areas without a functional PTC system.
    While this risk analysis process and mitigation plan 
development is still underway, let me be clear that Amtrak's 
goal is to continue to operate all of our services over all of 
our current routes come January 1, 2019. Exactly how we 
accomplish this will vary across our network, based on the 
specifics of each route. But I want to assure the committee 
that, at this time, we believe we will have strategies in place 
that will permit continued operation until PTC or PTC 
equivalency is achieved everywhere.
    Third, there are several freight and commuter railroads 
that operate over Amtrak's infrastructure. For those railroads 
who may require an FRA extension, Amtrak will work 
collaboratively with the FRA and each railroad on a case-by-
case basis, ensuring their continued safe operations.
    Amtrak's goal is for all our tenants to have operational 
PTC as soon as possible. But we are also mindful of the impacts 
that any disruption of commuter service may have, and the 
potential resulting safety consequences. Thus, Amtrak is 
working with tenants who believe they may be at risk, and the 
FRA to explore, through our SMS process, how risk mitigation 
strategies could be applied in such situations until they are 
fully operable.
    Amtrak has worked for years to be ready for the upcoming 
PTC deadline. When 2019 arrives, we will have our track, 
computer, training, and locomotive PTC work complete, we will 
be operating PTC across all the tracks we control, and across 
much of the host railroad network.
    On January 1, 2019, we anticipate that 90 percent of our 
trains will operate with PTC protection along some or all of 
their routes. We expect the FRA will have granted the remaining 
portions an alternative schedule or an exemption. Given the 
difficulty of completing testing with so many freight and 
commuter partners, and the potential for technical issues to 
arise during testing, Amtrak will be required to submit an 
application to the FRA for an alternative schedule to enable us 
to continue operating while we finalize testing of our system 
and the systems of our hosts and tenants.
    This alternative schedule is required due to the FRA's 
interpretation of the law that full implementation status 
cannot be achieved until all non-Amtrak trains operating on 
Amtrak's PTC-equipped lines are also PTC-compliant.
    As previously mentioned, we will implement mitigation 
measures for all those areas which will not have operational 
PTC, due to a host's alternative schedule of PTC exemption.
    PTC is not a silver bullet, and railroads alone cannot 
solve all the safety issues that face us, such as grade 
crossing and trespasser accidents, which require efforts from 
local, State, and Federal stakeholders. Still, we are confident 
that achieving PTC or PTC-equivalent levels of safety across 
our network will be a major safety achievement. In fact, it is 
our goal to be the safest passenger railroad in North America.
    Thank you for the opportunity to appear here before you 
today, and I welcome questions.
    [Mr. Naparstek's prepared statement follows:]
                                 <F-dash>
 Prepared Statement of Scot Naparstek, Chief Operating Officer, Amtrak
                              introduction
    Good morning. I wish to thank Chairman Denham and Ranking Member 
Capuano for hosting this important discussion on Positive Train Control 
(PTC). My name is Scot Naparstek, and I am Amtrak's Chief Operating 
Officer. I joined Amtrak in 2012, and currently oversee Amtrak's 
operations, including the Transportation, Engineering, and Mechanical 
departments, and their nearly 17,000 hardworking operating employees. 
Our workforce does a great job and I am proud to represent them here 
today, on behalf of our President and Chief Executive Officer Richard 
Anderson, who previously testified before this subcommittee in February 
of this year.
    Amtrak is committed to running the safest intercity passenger rail 
system we can for our customers and employees. PTC represents an 
essential next step for the rail industry to improve safety of train 
operations, and it will make the entire U.S. rail network safer for 
passengers, railroad employees, and the cities and towns through which 
the national rail network traverses. Thus, we have developed a policy 
of network-wide PTC or PTC-equivalency at Amtrak. Simply stated, we 
believe that all of our trains and routes should eventually be equipped 
with PTC or employ some other suite of technology and operating 
practices that addresses the safety risks that PTC helps to mitigate. 
Given the tragic incidents Amtrak has experienced since the PTC mandate 
was enacted in 2008, particularly relating to over-speed situations 
which are a risk regardless of the amounts or types of traffic using a 
specific route, we think this is the safest course and the right 
standard for the nation's intercity passenger rail carrier.
    Amtrak has long been a leader in the installation of PTC, having 
already deployed systems on two-thirds of the route-miles where we 
control the tracks, including nearly all of the Northeast Corridor 
(NEC), the busiest railroad in North America. In fact, Amtrak began PTC 
operations almost 20 years ago as part of our introduction of Acela 
Express high-speed rail service. The Advanced Civil Speed Enforcement 
System, or ACSES, that we first deployed in 2000 is active and in force 
on all of our trains operating on Amtrak's tracks anywhere between 
Washington and Boston, a deployment that we accomplished by the 
original December 31, 2015, PTC deadline.
                                overview
    Today, I will provide an update on PTC, including its operation on 
Amtrak-owned infrastructure, Amtrak's PTC operation on other hosts' 
infrastructure, and other tenants' PTC operations on Amtrak-owned 
infrastructure.
    As we have discussed with you before, PTC systems are designed to 
provide protection from the following conditions: train-to-train 
collisions; operating over misaligned switches; over-speed events; and 
work zone incursions. While we acknowledge that PTC is complicated and 
difficult to implement, Amtrak has made significant progress 
implementing PTC across the routes and equipment we control. As of 
September 10, 2018:
    <bullet>  88 percent of the minimum number of Amtrak-owned 
locomotives required for revenue service are fully equipped and PTC 
operable,
    <bullet>  122 of 142 installations on 114 State-owned locomotives 
and cab cars that Amtrak operates or maintains are complete, and 53 are 
also tested, and PTC operable,
    <bullet>  8 of 11 installation/track segments completed,
    <bullet>  132 of 140 radio towers fully installed and equipped,
    <bullet>  100 percent of employees trained as required per the PTC 
Implementation Plan to run in revenue service,
    <bullet>  607 of 901 route-miles in PTC operation, and
    <bullet>  480 route-miles in testing.
    We are proud of the work we have accomplished thus far and remain 
focused on the work ahead to advance PTC as soon as possible.
                     amtrak's operations are unique
    In many ways, the installation and deployment of PTC reflects the 
complicated nature of railway operations in the United States. Multiple 
companies and agencies must cooperate closely to ensure the safe, 
reliable, timely operation of various types of trains across differing 
networks. To integrate PTC into this complex environment has been a 
significant undertaking for the industry and its suppliers. Amtrak and 
its industry partners remain eager to bring this technology online, but 
there is no way around the fact that it is a difficult process and has 
required the dedication of significant resources, both in terms of 
funding and of our personnel. Over the last few years Amtrak and many 
other railroads have worked to develop complicated deployment plans, 
and then rethink them, as various limitations became apparent.
    At a scale unlike any other carrier in North America, Amtrak 
operates over a large and complex network of various host railroads and 
is also a host itself to numerous tenants. Our unusual role within the 
industry reflects our unique origins, and while this presents a wide 
range of challenges, it also creates opportunities for us to serve as a 
leader in a number of important ways. For example, earlier this year 
Amtrak organized and hosted PTC summits in Seattle, Washington and 
Chicago, Illinois, which brought together freight railroads, commuter 
railroads, government agencies, and vendors to focus on the challenges 
of PTC implementation in those regions. These events have been followed 
by an ongoing series of regular calls that have allowed the 
participants to learn from one another, to share their latest 
developments, to coordinate testing schedules, and to work through all 
sorts of unexpected issues.
    Amtrak has also worked hard to share our PTC expertise with our 
partners. We have done this in ways both large and small, but two quick 
examples include: preparing to install and commission PTC equipment on 
13 locomotives for the North Carolina Department of Transportation, 
ensuring those units will be ready in time for the deadline; and 
conducting an engineering survey of the new Siemens Charger locomotives 
that belong to the Illinois Department of Transportation, so that they 
could fully understand what they need to do to equip that fleet to 
become PTC-ready.
    Our work across all these fronts and with so many partners has 
enabled us to make significant progress, but it has also revealed a 
number of limitations and bottlenecks. System federation and the 
subsequent interoperability testing of the IETMS PTC system are 
complicated tasks. By definition, they depend on coordinating with 
external partners who are facing their own time and resource 
constraints. As we have worked through these issues, we have learned 
much that we expect will streamline the work involved in the remaining 
portions.
    Another issue that was raised in February's hearing that has 
continued to present challenges is the limited number of vendors 
available to support the industry. While Amtrak has developed 
significant PTC expertise in the last few years, there are still times 
when we would appreciate the ability to better utilize additional 
vendors to expedite the installation, configuration, and testing of 
various PTC components. There is simply not a deep reservoir of 
relevant expertise available to the rail industry, which has resulted 
in all of the railroads turning to the same small number of vendors 
seeking the same resources. To work around this, we have worked hard to 
foster the necessary skills inside of Amtrak, and we will continue to 
do so, but that is a slow and expensive process.
    Looking ahead to the upcoming December 31 deadline, let me address 
three important environments so that you can fully understand where 
Amtrak stands with its PTC deployment.
          amtrak ptc operation on amtrak-owned infrastructure
    First, the most straightforward scenario Amtrak faces is when 
Amtrak trains operate over Amtrak infrastructure. In this case, Amtrak 
plans to be fully PTC ready and compliant by the end of this year.
    Where Amtrak owns or operates the infrastructure, Amtrak is 
responsible for all elements of the PTC system. These rail lines 
include the following: 397 miles of the 457-mile Northeast Corridor 
mainline between Washington and Boston; 105 miles between Philadelphia 
and Harrisburg, Pennsylvania; 232 miles between Porter, Indiana and 
Dearborn, Michigan; 94 miles between Schenectady and Poughkeepsie, New 
York; and 61 miles between New Haven, Connecticut and Springfield, 
Massachusetts. We also own or operate another 12 miles of track near 
our terminals, for example, in Chicago and New York. These segments 
total 901 route-miles. Currently 605 of them have at least one wayside 
PTC system installed and operational. We have developed a detailed plan 
for every portion of our network, and we are executing an aggressive 
yet realistic plan which will enable the remaining third of the route-
miles to be complete by December 31.
    In some places where we host tenant operations over our tracks, at 
the freight railroads' request, we are installing the freights' 
standard IETMS PTC system on our infrastructure in parallel with either 
our ACSES or ITCS system, which will eliminate the requirement for them 
to install either ACSES or ITCS PTC equipment on their locomotives. 
Locations where this occurs include along the NEC between Washington 
and Philadelphia, along the Keystone Line between Frazer and 
Harrisburg, Pennsylvania, and the eastern, Michigan-owned portion of 
the Michigan Line between Kalamazoo and Dearborn. 345 miles, or roughly 
two-fifths, of our 901 route-miles will be equipped with dual PTC 
systems.
    Amtrak is dedicating significant attention to the segments where 
PTC installation is not yet complete, such as the Springfield and 
Hudson Lines. We hold regular cross-department meetings to ensure rapid 
coordination in our efforts, as we are giving this work the highest 
priority. While the timeline for these segments is indeed tight, we are 
planning to complete these projects by the December 31 deadline.
    For Amtrak locomotives, the process starts with installing the 
necessary equipment for one or, in some cases, two different PTC 
systems, and then running each unit through the necessary tests to 
ensure the proper functioning and integration of the various elements, 
which we call ``commissioning.'' Given the need for multiple PTC 
systems in individual locomotives, we have added 535 systems to 443 
units, and have completed commissioning on 456 of them. Again, we have 
developed detailed plans and are confident we will have the 
commissioning work done in time for the December 31 deadline.
    So much of the discussion around PTC relates to the hardware, that 
sometimes we do not properly convey how important training is to the 
successful rollout of PTC across our operations. To ensure our 
workforce is ready, we will need to provide training to, and ensure the 
successful completion of, 5,095 qualifications. All of those 
qualifications are complete. As some employees will need to be trained 
on multiple systems, the number of qualifications is higher than the 
specific number of people being trained. Of the overall total, 70 
percent are for the train and engine crews who operate the trains, with 
dispatchers, maintenance of way, and mechanical forces making up the 
remainder.
          amtrak ptc operation on other hosts' infrastructure
    The second operating environment I would like to cover is where 
Amtrak is a tenant on other entities' infrastructure. Since Amtrak runs 
72 percent of its train-miles over tracks owned and maintained by other 
railroads, we have spent a great deal of time and effort preparing for 
PTC operations on such areas. For the tracks we use but do not own or 
control, we are cooperating with our freight and commuter host 
railroads as they advance their obligations to complete PTC 
installations. In these models, Amtrak is responsible for the 
locomotive portion of the PTC system, which I have already addressed. 
We are currently interoperable with five hosts and we anticipate 
several more before the yearend deadline, although this is dependent on 
each host railroad's readiness.
    In places where the host's PTC system is not anticipated to be 
ready for service by year's end, if they have made sufficient progress 
with installation, they will be able to apply for an alternative 
schedule. We anticipate this being the case on 37 segments across our 
route network. We have stayed in close contact with the various hosts 
to keep apprised of the status of their PTC installation work, and the 
best information we have now suggests that approved alternative 
schedules will be in place for all of the portions of the network where 
PTC is mandated by law and is not available on January 1, 2019. 
Additionally, the FRA permits railroads to seek Mainline Track 
Exclusion Addendums (MTEAs) if the operation meets certain criteria. An 
MTEA waives the requirement for a railroad to install PTC.
    To prepare for operations where PTC is not in service, we have been 
conducting detailed risk assessments to enable us to develop an 
appropriate array of risk mitigation measures to address those areas 
that are not mitigated by a functional PTC system, consistent with our 
Safety Management System methodology. Starting in late spring, our 
safety team began a detailed, cross-departmental process of reviewing 
every portion of our network falling in one of two categories: places 
where an MTEA is present or places where we had reason to believe PTC 
is mandated but the railroads will qualify for an alternative schedule. 
Members of the safety team lead these assessments, ten of whom are 
dedicated to this process.
    They work with their Engineering and Transportation colleagues to 
develop detailed profiles of each location under review, covering at 
least 2,100 miles of track. Each assessment defines the segment under 
review, with an emphasis on the physical characteristics of the 
territory, including elements such as curves, speed restrictions, and 
facing point switches. The assessments also address operational factors 
and local traffic volumes and traffic mixes. As the assessment is 
conducted, the team quantifies potential risks both in terms of 
likelihood of occurrence and the potential severity. The assessment 
team then develops operational and technological recommendations to 
reduce risk in the near, middle, and long-term, and works with Amtrak 
leadership to ensure there is a clear, organization-wide understanding 
of the results before any approvals are sought to adopt the 
recommendations. These assessments are being worked through as quickly 
as possible while ensuring the quality of the work, and those covering 
MTEA territory are slated to be complete by the end of October, with 
the rest by the end of the year. As this work is all above and beyond 
statutory requirements, the timing is driven by our own Safety 
Management System approach.
    The central value of these assessments will be their role in 
determining what mitigations will be necessary to adopt for a given 
location over a given period to ensure Amtrak has a high degree of 
confidence in our ability to operate the safest possible railroad, 
short of the installation of PTC. We envision these potential 
mitigations in three tiers or layers.
    The first is made up of changes to our operations, which may go 
beyond compliance with the host railroads' rulebooks to create a 
greater safety margin for our operations. These changes, most of which 
could be implemented almost immediately, could include reducing the 
maximum speed of our trains, further reducing speed when we approach 
facing point switches, or even changing the composition of our crews. 
In some cases, these changes may impose delays on our trains, but we 
believe that the additional level of safety is justified.
    The second level of potential mitigations would be technological in 
nature but would take the form of relatively simple infrastructural 
changes that could be installed fairly quickly to add additional safety 
measures. Examples of such mitigations include warning signs for the 
crews, or new switch position indicators, both of which would provide 
additional situational awareness for our employees. The idea is to add 
these additional layers of mitigation to the system, which may then 
allow us to remove or minimize some of the more inconvenient 
operational mitigations we initially put in place.
    The third and final layer of mitigations consists of more elaborate 
technological solutions that would take more time to develop and 
deploy. In many cases, we may determine that a full PTC system is the 
best long-term solution to strengthening safety on a given route. In 
other cases, we believe there may be various technologies, that when 
coupled with the other mitigations I have mentioned, could offer what 
we term ``PTC equivalency'' once they were ready. Many of the ideas in 
this category are in early stages, and still have significant 
operational and procedural issues that will need to be resolved. 
Nonetheless, we are determined to be open to innovative approaches to 
obtaining the benefits of PTC across all of our network.
    While this risk analysis process and mitigation plan development is 
still underway, let me be clear that Amtrak's goal is to continue to 
operate all of our services over all of our current routes come January 
1, 2019. Exactly how we accomplish this will vary across our network, 
based on the specifics of each route, but I want to assure the 
committee that, at this time, we believe we will have strategies in 
place that will permit us to continue operations until operational PTC 
or PTC-equivalency is achieved for all of our network.
      other tenants' ptc operations on amtrak-owned infrastructure
    Third, there are several freight and commuter railroads that 
operate over Amtrak's infrastructure, and for those railroads who may 
require an extension from the FRA, Amtrak is prepared to work 
collaboratively with the FRA and each railroad on a case-by-case basis 
with the aim of ensuring their continued, safe operations.
    These various freight and commuter railroads that operate over our 
infrastructure must equip their rolling stock with PTC for use on our 
railroad and we are working cooperatively with them to advance these 
tasks. This cooperation, where applicable, primarily takes the form of 
linking our server system with the server systems of each tenant. 
Additionally, we then conduct interoperability field testing to verify 
the proper functioning of all the elements to enable both Amtrak and 
the tenant to develop confidence that the systems are working as 
intended.
    Along the NEC, we have ten tenants that will use Amtrak's ACSES PTC 
system, and another two tenants that will use the freights' IETMS 
system. This is another example of how the PTC tasks facing Amtrak are 
complicated by the wide range of rail partners with whom we interface. 
Of the corridor, we also have one freight railroad that will operate 
over our tracks using both IETMS and ITCS, and three freight railroads 
and one commuter railroad that we host that will use IETMS only, so 
there are many different integrations that all must be verified for the 
whole network to be ready. Presently on the NEC, our tenants 
Connecticut DOT, CSX, MBTA, SEPTA, and the Providence & Worcester 
Railroad have completed implementation and are currently operating with 
fully functioning PTC on our routes. MARC and Norfolk Southern will 
both be IETMS ready, but it is not clear yet if everything for PTC 
operation will be in place before the deadline. Our sense is that NJ 
Transit has significant work facing it before it will be PTC 
operational.
    Amtrak believes strongly in the value and importance of PTC and our 
aim is to ensure that all of our tenants have an operational system as 
soon as possible. Having said this, we are mindful of the impacts that 
any disruption of commuter service may have on the regions we serve and 
the potential safety consequences that could follow. Thus, Amtrak is 
continuing to work with any tenants who believe they may be at risk of 
not having fully completed the installation and commissioning of PTC 
equipment on their trains for use on our tracks. We will work with 
these carriers and the FRA to explore, through our Safety Management 
System process, the potential of risk mitigation strategies that could 
be applied in such situations until full installation and commissioning 
is achieved.
                               next steps
    Amtrak has worked for years to be ready for the upcoming PTC 
deadline. When 2019 arrives, we will have our track, computer, 
training, and locomotive PTC work complete and we will be operating PTC 
across all of the tracks we control and across much of the host 
railroad network. Already 222 of our 315 daily trains currently operate 
with PTC protection along some or all of their routes. On January 1, 
2019, we anticipate that this number will climb to 283, or 90 percent, 
with only those portions of the network which have been granted an 
alternative schedule or an exemption by the FRA being without the 
protection of this system for our trains.
    Having said that, given the docility of completing testing with so 
many freight and commuter partners and the potential for some limited 
technical issues to arise during testing of the sort that often 
accompany the initial operation of any complex technology, Amtrak will 
be required to submit an application to the FRA for an alternative 
schedule to enable us to continue operating while we finalize testing 
of our system and the systems of our hosts and tenants. This 
alternative schedule is required due to the FRA's interpretation of the 
law that full implementation status cannot be achieved until all non-
Amtrak trains operating on Amtrak's PTC-equipped lines are also PTC-
compliant. However, to be considered fully implemented requires that 
all other railroads operating across any of Amtrak's PTC-equipped lines 
must be capable of operating with Amtrak's PTC system. This 
interoperability of PTC systems between railroads remains a work in 
progress and we are currently working with each railroad to assess this 
work, so we can determine the appropriate alternative schedule 
durations. In addition, as I mentioned, we will implement mitigation 
measures that we develop for all those areas which will not have 
operational PTC due to a host's alternative schedule of PTC exemption.
    Strengthening safety is a continuous process. Amtrak's 
responsibility is to lead safety across our industry and serve as good 
stewards of the vital resources that we receive from Congress and the 
Administration to help us implement these advancements. Likewise, PTC 
is not a silver bullet and railroads alone cannot solve all of the 
safety issues that face us, such as grade crossing and trespasser 
accidents, which require a broader effort of local, State, and Federal 
stakeholders to educate motorists and pedestrians, better equip 
vulnerable crossings, limit public access to rights of way, and 
strengthen enforcement. Still, we are confident that achieving PTC or 
PTC-equivalent levels of safety across our network will be a major 
achievement in the safety performance of intercity passenger rail. One 
need look no further than our accident history to see the universal 
benefits that PTC can bring to Amtrak and our industry. We look forward 
to continuing to work with all of our partners to improve safety across 
the rail network.
                               conclusion
    I have the highest confidence in Amtrak's dedicated workforce and 
the commitment I see across our company to becomes the safest passenger 
railroad in North America. While the challenges described today are 
defficult, they can, and will, be overcome. At Amtrak, we owe our 
customers, and your constituents, nothing less.
    Thank you for the opportunity to appear before you today, and I 
welcome your questions.

    Mr. Denham. Thank you.
    Mr. Hamberger, you are recognized for 5 minutes.
    Mr. Hamberger. Chairman Shuster, Chairman Denham, Ranking 
Member DeFazio, Ranking Member Capuano, and members of the most 
important subcommittee in the House of Representatives, thank 
you for the opportunity to discuss Positive Train Control and 
progress on implementation across the U.S. rail network. My 
focus today is specifically on AAR's Class I freight railroad 
members, their significant progress to date, and the remaining 
technical and operational steps necessary to fully implement 
PTC nationwide.
    Of course, a big piece of that task is establishing 
interoperability with Amtrak, as Mr. Naparstek has just 
outlined. I want to assure the committee that all hosts are 
working diligently with Amtrak to achieve just that.
    Chairman Denham, your opening statement was spot on. This 
is a life-saving technology. But it is indeed complex and 
daunting. I am pleased to report that, on all fronts, the Class 
I railroads have made tremendous progress since this committee 
last convened on the topic in February of this year. At the end 
of July the vast majority of installation has been completed: 
98.2 percent of locomotives; 99.2 percent of wayside interface 
units; 99.1 percent of radio towers, all equipped and 
installed. And, in addition, 99.8 percent of required employees 
have received their training.
    Furthermore, by the end of July the Class I railroads 
already had in operation more than 37,000 route-miles, or 
nearly 70 percent of the 54,000 total required by law. PTC 
development has been an immensely complex undertaking from day 
one. From the start, railroads focused on developing and 
testing technology that would meet the RSIA requirements, 
especially nationwide interoperability. This required 
developing essential software and hardware. Once developed, 
rigorous and repeated testing is the only way to ensure this 
system works as intended.
    In addition to initial testing in a simulated environment, 
these components must be installed and exposed to day-to-day 
operations to verify that each individual part, and the system 
as a whole, will function properly under real-world conditions. 
And as Scot has just pointed out, those real-world conditions 
can be very challenging, as we are seeing in the Carolinas 
today. The freight rails operating there are working with 
emergency responders and the Governors to be ready to move in 
and help in the aftermath after Hurricane Florence hits.
    In addition, failure of a single PTC component can mean 
that the system shuts down a train unexpectedly and 
unnecessarily. When that happens it means trains are not able 
to operate normally on affected rail lines until the failure is 
corrected: a situation railroads are currently facing as PTC is 
rolled out.
    Additionally, it is common for one railroad's locomotives 
to operate on another railroad's tracks. Therefore, PTC systems 
must be fully interoperable across all the Nation's major 
railroads, adding yet another layer of complexity. Ensuring 
this interoperability is the largest step left to full PTC 
implementation. Class I railroads are up to the task, making 
consistent progress, and continuing to resolve issues as they 
arise.
    In the future, by the end of 2018, each Class I railroad 
will have completed PTC installation. One hundred percent of 
wayside, back office, and locomotive hardware will be 
installed. One hundred percent of spectrum will be in place, 
and 100 percent of required employee training will be complete.
    In addition, it is projected by the end of this year 80 
percent of Class I route-miles will be in operation under PTC. 
This compares to the target established by Congress in 2015 of 
50 percent.
    While some Class I railroads plan to be fully operational 
by the end of the year, all Class I railroads will be 100 
percent implemented no time later than some time in 2020.
    As Mr. Naparstek has pointed out, even if a railroad will 
have PTC fully operational on its network by the end of this 
year, FRA will not consider the railroad to be fully 
implemented until all railroads, the host, and all of its 
tenants are fully interoperable.
    The bottom line is that every day, as railroads finalize 
the PTC installation and expand PTC operations, the risk of 
accidents on the Nation's rail network is reduced, passengers 
move more safely, and employees operate in a safer environment. 
Thank you.
    [Mr. Hamberger's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Edward R. Hamberger, President and Chief 
          Executive Officer, Association of American Railroads
    On behalf of the Association of American Railroads (AAR), thank you 
for the opportunity to discuss positive train control (PTC). AAR 
members account for the vast majority of North American freight 
railroad mileage, employees, and revenue.
    In this testimony, I will review the progress freight railroads 
have made in the development and implementation of PTC and what to 
expect going forward. My focus will be on Class I freight railroads and 
their PTC-related status.
    The bottom line is that by December 31, 2018, all Class I's will 
have completed PTC hardware installation, trained all employees, and 
secured all needed radio bandwidth. Further, by the end of this year, 
PTC will be in operation on the vast majority--approximately 80 
percent--of Class I PTC route-miles network wide, with some Class I 
railroads planning to be fully operational on their networks. Between 
2018 and 2020, all Class I railroads will be completing PTC 
implementation, consistent with the statute. All railroads will 
continue their work on resolving technical operational challenges that 
will inevitably rise, which Congress anticipated and specifically 
provided flexibility for in its 2015 law. They also will be addressing 
the biggest remaining challenge of PTC implementation: interoperability 
with each other and with their tenant passenger and shortline 
railroads.
                    what is positive train control?
    As members of this committee know, ``positive train control'' (PTC) 
describes technologies designed to automatically stop a train before 
certain accidents caused by human error occur. Under the Rail Safety 
Improvement Act of 2008 (RSIA), passenger railroads and Class I freight 
railroads are required to install PTC on main lines used to transport 
passengers or toxic-by-inhalation (TIH) materials.
    Specifically, PTC as mandated by the RSIA must be designed to 
prevent four major types of train accidents: train-to-train collisions; 
derailments caused by excessive speed; unauthorized incursions by 
trains onto sections of track where maintenance activities are taking 
place; and the movement of a train through a track switch left in the 
wrong position.\1\ The PTC system now being installed to meet this 
statutory mandate is an overlay system, and meant to supplement, rather 
than replace, existing methods of operation.
---------------------------------------------------------------------------
    \1\ A switch is the infrastructure that controls the path of trains 
where two sets of tracks diverge or converge.
---------------------------------------------------------------------------
    To work as it should, a PTC system must be able to determine the 
precise location, direction, and speed of trains; warn train operators 
of potential problems; and take immediate action if the operator fails 
to act after a warning is provided by the PTC system. For example, if a 
train operator fails to begin stopping a train before a stop signal or 
slowing down for a speed-restricted area, the PTC system will override 
the operator and apply the brakes automatically before the train passes 
the stop signal or enters the speed-restricted area.
    A PTC system consists of three main elements that are integrated by 
a fourth critical element, the wireless data communications system. An 
onboard or locomotive system monitors a train's position and speed and 
activates braking as necessary to enforce speed restrictions and 
unauthorized train movements; a wayside system monitors railroad track 
signals, switches, and track circuits to communicate data on this local 
infrastructure needed to permit the onboard system to authorize 
movement of a locomotive; and a back office server stores all 
information related to the rail network and trains operating across it 
(e.g., speed restrictions, movement authorities, train compositions, 
etc.) and transmits this information to individual locomotive onboard 
enforcement systems. Finally, all of these segments of the PTC system 
are integrated by a wireless data communications system that must move 
massive amounts of information back and forth between the back-office 
servers, the wayside equipment, and the locomotives' on-board 
computers.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Such a system requires highly complex technologies able to analyze 
and incorporate the huge number of variables that affect train 
operations. A simple example: the length of time it takes to stop a 
freight train depends on train speed, terrain, the weight and length of 
the train, the number and distribution of locomotives and loaded and 
empty freight cars on the train, and other factors. During the 
operation of a single train over a single operating segment of track 
known as a sub-division, the length of time and the distance needed to 
stop that train may change 100 or more times due to changes in the 
factors mentioned above. A PTC system must be able to take all of these 
factors into account automatically, reliably, accurately, and in real 
time in order to safely stop the train wherever it may be along its 
route.
            ptc is an unprecedented technological challenge
    PTC development and implementation constitute an unprecedented 
technological challenge. Some of the development and installation tasks 
associated with the Class I railroads' efforts over the past few years 
include:
    <bullet>  A complete physical survey and highly precise geo-mapping 
of the approximately 54,000 route-miles on which PTC technology will be 
installed, including more than 450,000 field assets along the right-of-
way (e.g., mileposts, curves, rail and highway grade crossings, 
switches, signals, track vertical profiles and horizontal geometry).
    <bullet>  Installing more than 28,000 custom-designed ``wayside 
interface units'' (WIU) that provide the mechanism for transmitting 
information from signal and switch locations along the right-of-way to 
locomotives and railroad facilities.
    <bullet>  Installing PTC technology on nearly 16,400 Class I 
locomotives.\2\
---------------------------------------------------------------------------
    \2\ As just one example of the magnitude of the PTC implementation 
effort, it takes about one person working for about 1 month to install 
all of the necessary PTC equipment on a single locomotive. It will take 
approximately 1,400 staff-years to install PTC on all of the Class I 
locomotives that require it.
---------------------------------------------------------------------------
    <bullet>  Installing PTC technology on nearly 2,100 switches in 
non-signaled territory and completing signal replacement projects, 
including upgrades to PTC-compatible signal technology, at some 14,500 
locations.
    <bullet>  Developing, producing, and deploying a new radio system 
specifically designed for the massive data transmission requirements of 
PTC at tens of thousands of base stations and trackside locations, and 
on nearly 16,400 locomotives.
    <bullet>  Developing back office systems and upgrading and 
integrating dispatching software to incorporate the data and precision 
required for PTC systems.
    In all these areas, Class I railroads have already made tremendous 
progress. Figure 2 has details on the status of Class I PTC 
installations at the end of July 2018.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT[


    Additionally, as shown in Figure 3, at the end of July 2018, the 
Class I railroads already had in operation more than 37,000 route-
miles, or nearly 70 percent, of the approximately 54,000 route-miles 
that will eventually be equipped with PTC. To be clear, each Class I 
railroad will install 100 percent of PTC wayside, back office, and 
locomotive hardware, and complete all required employee training, by 
the end of 2018 and expect to have nearly 80 percent of required PTC 
route-miles operational by the end of 2018.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The AAR estimates that, as of today, freight railroads together 
have spent more than $10 billion--of their own funds, not taxpayer 
funds--on PTC development and deployment, and expect to spend more than 
$11 billion by the time PTC is fully operational nationwide. This does 
not include the hundreds of millions of additional dollars that will be 
needed each year to maintain the railroads' PTC systems once they are 
initially installed.
    testing and validation is essential for safe operation and full 
                            interoperability
    From the outset, railroads' efforts were focused on development and 
testing of technology that could meet the requirements of the RSIA, 
particularly those related to interoperability, and that could be 
scaled to the huge requirements of a nationwide system. Essential 
software and hardware for many PTC components had to be developed and 
deployed, and then rigorously tested. Only after technology is actually 
installed and exposed to the rigors of day-to-day operations can the 
task of testing each of the individual parts, and the system as a 
whole, be completed under real world conditions.
    This task is made particularly complex by the need to ensure that 
PTC systems are fully and seamlessly interoperable across all of the 
nation's major railroads. It is not unusual for one railroad's 
locomotives to operate on another railroad's tracks. When that happens, 
the ``tenant'' locomotives must be able to communicate with, and 
respond to conditions on, the ``host'' PTC system. Put another way, a 
CSX locomotive must behave like a Norfolk Southern locomotive when it 
is traveling on NS track; a BNSF locomotive must be compatible with 
Union Pacific's PTC system when it is on UP track; and so on. All the 
while, each railroad has its own operating rules designed to address 
specific conditions on its property, all consistent with FRA 
regulations, but further adding to this complexity. Ensuring this 
interoperability has been a significant challenge.
    It is critical that any and all potential failure points be 
identified, isolated, and corrected. By necessity, a mature, well-
functioning PTC system is enormously complex, and it is not realistic 
to think it will perform flawlessly day in and day out, especially upon 
initial implementation. That is precisely why testing, first in a 
simulated environment and then under real-world operating conditions, 
is so important. Unfortunately, the failure of a single part within a 
complex PTC system can mean that the system--designed to be fail safe--
shuts down a train unexpectedly and unnecessarily. When that happens, 
it means that trains are not able to operate normally on affected rail 
lines until the failure is corrected, a situation railroads are facing 
today as they proceed toward PTC implementation.
    Every day, as railroads finalize their PTC installation and expand 
PTC operations, the risk of accidents is lowered. However, as other 
train control systems implemented in other countries demonstrate, there 
is risk in improperly designed, installed, or operated PTC systems. 
This is not just a speculative concern. Since 2008, there have been a 
number of incidents worldwide in which accidents resulting in deaths 
and injuries occurred on rail lines that had PTC-like systems. These 
concerns make it essential that a railroad's first priority must be to 
implement PTC correctly, and to test and validate it thoroughly.
                               conclusion
    Railroads have devoted enormous human and financial resources to 
develop a functioning and reliable PTC system, and progress to date has 
been substantial. Class I railroads remain committed to safely 
implementing PTC as quickly as possible. By the end of 2018, each Class 
I railroad will have PTC fully operational or initiated revenue service 
demonstration on, at a minimum, 51 percent of its required PTC route-
miles or subdivisions; have 100 percent of the necessary wayside, back 
office, and locomotive hardware installations completed; have all 
required spectrum in place; and have all required employee training 
completed.
    In addition, network-wide approximately 80 percent of required PTC 
route-miles are expected to be operational by the end of 2018. While 
some Class I railroads plan to be fully operational by the end of this 
year, all Class I railroads will be fully implemented no later than 
2020. In the meantime, Class I railroads will continue to work with 
each other and their tenant passenger and shortline railroad partners 
to successfully achieve full interoperability, which is the largest 
remaining challenge to a fully implemented national PTC system.

    Mr. Denham. Thank you, Mr. Hamberger.
    Mr. Knueppel?
    Mr. Knueppel. Good morning, Chairman Denham, Chairman 
Shuster, Ranking Member Capuano, Ranking Member DeFazio, and 
members of the Subcommittee on Railroads, Pipelines, and 
Hazardous Materials. On behalf of the American Public 
Transportation Association, thank you for the opportunity to 
testify on the state of Positive Train Control implementation 
in the United States.
    My name is Jeffrey Knueppel. I am a professional engineer, 
and serve as the general manager of the Southeastern 
Pennsylvania Transportation Authority, or SEPTA, the Nation's 
sixth-largest system, providing more than 1 million daily trips 
throughout southeastern Pennsylvania. I am also chair of APTA's 
Commuter Rail PTC Subcommittee.
    As we sadly recognize the 10th anniversary of the tragic 
Chatsworth accident this week, I want to begin by reiterating 
APTA's and the commuter rail industry's commitment to 
implementing Positive Train Control.
    The Nation's commuter railroads have been working 
continuously with our freight partners, third-party 
contractors, Amtrak, and the FRA to address financial, 
technological, and logistical challenges as the industry works 
towards a common goal: implementing positive train control and 
making an already safe system even safer. And I would like to 
note that it is 18 times safer to take the train than drive.
    Since APTA last testified before this subcommittee in 
February, commuter railroads have continued to make strong 
progress. This improvement is reflected in the FRA's second-
quarter PTC progress report, including reducing by two the 
number of commuter railroads on FRA's list of at-risk 
railroads. And we expect the number of at-risk railroads to 
continue to drop.
    Although no two PTC experiences are the same, I offer the 
SEPTA story as a positive outcome based on a good plan, a 
supportive board, and some good circumstances. I kind of break 
our PTC efforts down into three stages: the first one was 
construction and testing; our plan was to do the work with both 
in-house forces, as well as contractors. So our in-house forces 
installed automatic train control, while third-party forces 
placed the access overlay on top of that system.
    We also had a particular situation with CSX, where both 
railroads wanted to run their form of PTC, and so we performed 
a separation project that was completed over a 6-mile stretch 
in August of 2015. And I would like to note that we really 
appreciate the TIGER funds that were utilized for that work.
    Stage 2 was placing routes and provisional revenue service. 
And we began in April of 2016 to start placing our lines in 
revenue service, and we did that first on our Warminster line, 
which is single-track line. We incrementally rolled out one or 
two lines a month in our territory, until January of 2017. At 
that point we intensified our field testing efforts on Amtrak, 
and ran from January until May of 2017, when we began operation 
with PTC on our three Amtrak territory lines.
    So since May of 2017, all 13 lines have been continuously 
operated with PTC. That is SEPTA vehicles. And that leads to 
stage 3, where we are at right now, and that is 
interoperability. This significant challenge remains. CSX and 
Norfolk Southern are scheduled to be completed by the end of 
the year, but this could be a photo finish for one of the 
carriers.
    It has not been easy, even though our progress appears 
strong along the way. Funding was very difficult for SEPTA. The 
economic collapse of 2008 and other circumstances put us at our 
lowest historical capital funds. Fortunately, in our State, Act 
89 was passed, which helped SEPTA through a tough time. 
Employee retention and continuity was a challenge. A limited 
vendor base. There were countless innovations needed to 
overcome technological hurdles at various points, car shortages 
during our equipment installation, endless testing, a 
formidable training effort. We did experience a very 
significant radio interference issue with freight carriers. 
There was, obviously, startup inertia and struggles, and poor 
on-time performance until schedule changes could be made.
    But we persevered through this. We have spent $344 million 
on this project, and I am proud of the efforts of our entire 
organization.
    Thank you for this opportunity to testify on the challenges 
and the successes of implementing this critical safety system, 
and I look forward to answering any questions that you may 
have.
    [Mr. Knueppel's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Jeffrey D. Knueppel, P.E., General Manager, 
 Southeastern Pennsylvania Transportation Authority, on behalf of the 
               American Public Transportation Association
    The American Public Transportation Association is a non-profit 
international association of more than 1,500 public-and private-sector 
member organizations, including public transit systems and high-speed, 
intercity, and commuter rail passenger operators; planning, design, 
construction, and finance firms; product and service providers; 
academic institutions, transit associations and State departments of 
transportation. APTA members serve the public interest by providing 
safe, efficient, and economical transit services and products.
                              introduction
    Chairman Denham, Ranking Member Capuano, and members of the 
Subcommittee on Railroads, Pipelines, and Hazardous Materials, on 
behalf of the American Public Transportation Association (APTA) and its 
more than 1,500 public-and private-sector member organizations, thank 
you for the opportunity to testify on the state of positive train 
control (PTC) implementation in the United States.
    My name is Jeffrey D. Knueppel, P.E., and I am the General Manager 
of the Southeastern Pennsylvania Transportation Authority (SEPTA). 
SEPTA is the nation's six largest transit system, with more than 9,000 
employees. We provide more than 1.1 million daily passenger trips 
through an extensive network of fixed-route services including bus, 
subway, trolley, and Regional Rail, as well as ADA paratransit and 
shared ride services that serve Philadelphia, Bucks, Chester, and 
Montgomery Counties in Pennsylvania. SEPTA's commuter rail system 
(Regional Rail) is a network of 13 rail lines with 155 stations that 
provides service to and from Center City Philadelphia and the rest of 
southeastern Pennsylvania, as well as service into New Jersey and 
Delaware. We operate 770 weekday trains and serve more than 34 million 
riders each year, and Regional Rail ridership has increased by more 
than 50 percent over the last 20 years. I also serve as Chair of APTA's 
Commuter Rail PTC Subcommittee.
    As we sadly recognize the 10th anniversary of the tragic Chatsworth 
accident this week, I want to begin by reiterating APTA's and the 
commuter rail industry's long-standing and unwavering commitment to 
implementing positive train control.
    I am pleased to be working with APTA and representing the industry 
in this important effort. Since APTA last testified before this 
subcommittee in February, the nation's commuter railroads have 
continued to make strong and continuous progress in installing and 
implementing positive train control. This progress is reflected in the 
Federal Railroad Administration's (FRA) recently released second 
quarter PTC Progress report, including reducing by two the number of 
commuter railroads on FRA's list of at-risk railroads.
    The commuter rail industry has been working continuously with 
freight partners, third-party contractors, Amtrak, and FRA to implement 
PTC and address and correct technical and interoperability challenges. 
APTA has also provided a number of forums for collaboration and the 
sharing of best practices and lessons learned, including the PTC 
Subcommittee, which has been particularly helpful in providing a 
cohesive push as the industry works toward a common goal--implementing 
PTC and making an already safe system even safer.
    We greatly appreciate the subcommittee's focused attention on the 
critical issues of rail safety and PTC, and the challenges and 
successes that publicly funded commuter railroads have experienced in 
procuring, installing, and implementing this complex signaling and 
communications technology.
                      safety is our first priority
    For commuter rail operators and the entire public transportation 
industry, safety is our first priority. Safety is not simply a value we 
share; it is a core operating principle and a promise to our riders. 
The men and women responsible for managing and operating public 
transportation systems are fully committed to the safety of their 
systems, passengers, employees, and the general public.
    Moreover, throughout our 136-year history, APTA and its predecessor 
associations have been leading advocates for safety improvements. As 
APTA President and CEO Paul Skoutelas outlined in his testimony before 
the subcommittee in February, APTA and its members have led the way in 
creating an effective safety culture over many decades:
    <bullet>  creating a Rail Safety Audit Program;
    <bullet>  developing Safety Management Program Plans; and
    <bullet>  writing more than 270 standards and recommended practices 
for public transit, including Passenger Rail Equipment Safety Standards 
(PRESS) for commuter rail cars.
    APTA's PRESS standards help improve the safety of public 
transportation systems by specifying safety requirements for vehicle 
crashworthiness, passenger door systems, emergency lighting and 
evacuation, and new benchmarks to improve the safety of vehicle 
interiors including seat attachment strength and workstation tables.
    With regard to positive train control, APTA publicly supported the 
concept of PTC prior to enactment of the Rail Safety Improvement Act of 
2008 (RSIA), and we advised Members of Congress and other policymakers 
of the need for proven technology, adequate resources, and the expanded 
radio spectrum necessary to put PTC into operation. Since enactment of 
RSIA, APTA has actively worked to assist the commuter rail industry 
with PTC research, development, installation, and implementation, 
including by participating in FRA's Rail Safety Advisory Committee 
(RSAC); establishing ``user groups'' among different types of commuter 
rail operators to share information and encourage coordinated actions; 
and conducting PTC conferences, workshops, and summits with commuter 
rail Chief Executive Officers, senior engineering staff, FRA senior 
staff, and congressional staff.
    As a result of this overriding and sustained commitment to safety, 
today, public transit is the safest form of surface transportation. 
Every year, 30 commuter railroads across America safely carry 
passengers on more than 500 million trips. And traveling by commuter 
and intercity passenger rail is 18 times safer than traveling by car.
                     positive train control mandate
    Moreover, we are working to make commuter rail even safer by 
installing and implementing PTC, a complex signaling and communications 
technology that provides a critical safety overlay on top of already 
safe commuter rail systems.
    In 2015, Congress recognized the implementation challenges that the 
Government Accountability Office had outlined since RSIA implementing 
regulations went into effect. In enacting the Positive Train Control 
Enforcement and Implementation Act of 2015, Congress identified 
specific installation and implementation milestones. Under current law 
(49 U.S.C. 20157), commuter railroads are required to implement PTC by 
December 31, 2018, or, alternatively, to meet the following milestones 
(as defined in 49 U.S.C. 20157(a)(3)(B)) by that date:
    <bullet>  Installed all PTC hardware (wayside and onboard 
equipment);
    <bullet>  Acquired all necessary spectrum for PTC implementation;
    <bullet>  Completed all employee training required under the 
applicable PTC system regulations;
    <bullet>  Initiated revenue service demonstration (RSD) on at least 
one territory subject to the PTC requirement (or other criteria); and
    <bullet>  Submitted a plan, schedule, and certification to the 
Secretary of Transportation for implementing a PTC system.
    Upon reaching these milestones by the end of 2018, the commuter 
railroads must implement PTC as soon as practicable, and no later than 
December 31, 2020.
    APTA supports these statutory deadlines and is committed to 
assisting all our commuter railroads in implementing PTC.
               ptc: unparalleled technological challenge
    As defined in statute, a positive train control system is a 
``system designed to prevent train-to-train collisions, over speed 
derailments, incursions into established work zone limits, and the 
movement of a train through a switch left in the wrong position.''
    Implementing PTC requires changes to four main system components--
vehicles, communications, signals, and the back office/control center--
and each has to be fully functioning and integrated with the other 
systems.
    When RSIA was enacted in 2008, there was no universal off-the-shelf 
technology capable of achieving these safety objectives. Although many 
commuter railroads have long used collision avoidance systems to help 
protect against certain accidents, these systems did not have all of 
the required attributes of PTC. Since the enactment of RSIA, APTA and 
its member commuter railroads have aggressively pursued both the 
funding and technology necessary to implement the PTC mandate by the 
statutory deadlines.
    PTC is a predictive enforcement system of subsystems overlaid on 
existing systems. Although commuter railroads are currently in the 
process of installing these systems, a one-size-fits-all approach to 
implementation does not exist. Each commuter railroad has its own 
unique and complex operating environment and PTC systems must be 
tailored to meet those specific operating requirements.
    For instance, commuter railroads interoperating with freight 
railroads typically use a variant of PTC called I-ETMS. Railroads that 
operate on the Northeast Corridor are installing an Amtrak-developed 
system known as ACSES. Railroads without extensive freight 
interoperability requirements may use a different PTC variant called E-
ATC.\1\ As such, what works for one commuter railroad may not work for 
another. Thus, each passenger rail system needs to build its own unique 
PTC solution, and it is that absence of a proven, off-the-shelf 
technology that creates uncertainty about whether a new solution will 
work as intended.
---------------------------------------------------------------------------
    \1\ PTC is deployed by commuter railroads in three basic forms:
      <bullet>  I-ETMS <SUP>TM</SUP> (Interoperable-Electronic Train 
Management System): In general, railroads that share track with freight 
railroads are installing and implementing a system known as I-ETMS, a 
GPS-based technology heavily dependent on the nationwide 220 MHz radio 
network. All wayside elements are monitored and reported to the 
locomotive. Track conditions and restrictions are delivered to the 
locomotive and reported to the operator for action. The system monitors 
the action of the operator and reacts if safety is compromised. I-ETMS 
supports interoperability with freight railroads. FRA granted type 
approval to I-ETMS on February 4, 2015.
      <bullet>  ACSES (Advanced Civil Speed Enforcement System): In 
general, railroads that operate on the Northeast Corridor are 
installing and implementing an Amtrak-developed system known as ACSES, 
which uses track-mounted transponders to deliver information to the 
locomotive. ACSES monitors actions of the train operator and intervenes 
if safety is compromised. It facilitates interoperability among 
operators on the Northeast Corridor. FRA granted type approvals to 
ACSES variants between 2010 and 2013.
      <bullet>  E-ATC (Enhanced Automatic Train Control): In general, 
small commuter railroads that do not require complex interoperability 
with other operators are installing and implementing E-ATC, a track 
circuit-based system that is less complex and therefore less expensive 
than either I-ETMS or ACSES. FRA granted type approval to E-ATC on 
March 11, 2016.
---------------------------------------------------------------------------
    In general, the following components are required for 
implementation of PTC:
            Locomotive Hardware
    All locomotives and other operating equipment must be fitted with 
onboard computers, radios, display units, and event recorders. Numerous 
configurations of commuter rail equipment are in service including 
self-propelled cars and push-pull equipment adding to the complexity 
and cost of deploying these onboard systems.
            Wayside Hardware
    The wayside equipment that needs to be installed is also extensive 
and includes Wayside Interface Units (WIU), switch monitors, wayside 
radios, base stations, and transponders. The status of the components 
is transmitted via WIUs to the locomotive to enable the PTC system to 
take action as necessary.
            Communications (Spectrum and Towers)
    PTC implementation typically requires a robust wireless 
infrastructure that is used for transmission of data between the 
various subsystems including the onboard, wayside, and back office 
equipment. The communications architecture includes data radios, 
antennas, wayside towers, and spectrum.\2\ After enactment of RSIA, 
many commuter railroads chose to adopt the PTC protocol developed for 
freight railroads or intercity passenger (Amtrak) operations instead of 
investing the time and money to develop their own PTC protocol.
---------------------------------------------------------------------------
    \2\ Some commuter railroads' PTC systems do not require spectrum 
and use track-based circuits to communicate data between the onboard 
and wayside equipment.
---------------------------------------------------------------------------
            Back Office
    The back office stores millions of rail network data points as 
encrypted information (e.g., speed limits, track layouts, speed of 
other trains on the system, and train compositions) and transmits the 
authorization for individual trains to move into new track segments. 
Operating PTC on commuter railroads presents a variety of back office 
requirements. Railroads that dispatch trains need to invest in a 
complete set of upgraded dispatch systems and Back Office Servers.
            Employee Training
    All employees who perform dispatch, operations, and signaling, as 
well as roadway workers and supervisors, must be trained and are 
essential for successful PTC implementation and operation. The commuter 
rail industry must train approximately 15,000 employees for full PTC 
operations.
                      ptc implementation progress
    Commuter railroads are making strong and continuous progress in 
implementing positive train control. These railroads have faced, and 
continue to face, a variety of complex challenges in implementing PTC 
including financial, technological, and logistical challenges. Some 
commuter railroads have overcome these significant hurdles, but other 
railroads continue to grapple with PTC implementation issues. Moreover, 
these railroads are faced with installing, testing, and implementing 
PTC on an enormous and complicated network of interconnected railroads 
while still providing daily service to millions of Americans, in and 
around many of our nation's most important metropolitan regions.
    The commuter rail industry continues to make substantial progress 
in implementing PTC according to updated analyses conducted by APTA, 
and as of June 30, 2018:
    <bullet>  91 percent of spectrum has been acquired;
    <bullet>  85 percent of 13,698 pieces of onboard equipment have 
been installed on locomotives, cab cars, etc.;
    <bullet>  79 percent of 14,083 wayside (on-track equipment) 
installations have been completed;
    <bullet>  78 percent of back office control systems are ready for 
operation;
    <bullet>  74 percent of 14,847 employees have been trained in PTC; 
and
    <bullet>  34 percent of commuter railroads are in testing or 
revenue service demonstration; or service is fully operational.
    These percentages represent significant increases from the status 
of PTC implementation on commuter railroads compared to 6 months ago 
(the end of calendar year 2017).
              overcoming challenges to ptc implementation
            Total Cost--More than $4 Billion
    PTC will cost commuter rail operators approximately $4.1 billion to 
implement, and an estimated additional $80 million to $130 million each 
year to operate and maintain. For publicly funded agencies that rely on 
Federal, State, and local funding, as well as passenger fares to 
operate their service, these costs are staggering.
    Moreover, these costs are in addition to the existing $90 billion 
backlog needed to bring the current public transportation system into a 
state of good repair, as estimated by the U.S. Department of 
Transportation. A recent survey of commuter railroad agencies found 
that many commuter railroads have state-of-good-repair needs that far 
outweigh their capital budgets, even before including the additional 
costs associated with implementing PTC. As a result, to fund PTC, 
commuter railroads have had to divert funds from other critical 
infrastructure and safety projects, such as replacing bridges (some of 
which that are more than 100 years old), rehabilitating outdated 
locomotives, and upgrading tracks and safety systems.
            Limited Federal Funding
    The enactment of RSIA coincided with the 2008 global financial 
crisis and a multi-year period of short-term SAFETEA-LU extension acts 
and transportation appropriations continuing resolutions making it 
difficult for public transit agencies to plan and fund major projects 
like PTC. Since Congress mandated PTC, the Federal Government has 
directly provided barely one-tenth ($435 million) of the necessary 
funding for commuter railroads to implement PTC. Moreover, more than 80 
percent of this funding ($360 million) has only been awarded in the 
last 16 months (since May 2017). In addition, two commuter rail 
operators have also secured Federal loans to help pay for PTC 
implementation. While this financing has been helpful, the burden of 
repaying these loans still falls on public agencies that are already 
under financial pressure.
    We urge Congress and the administration to consider these costs and 
provide additional funding to enable publicly funded commuter railroads 
to quickly implement, operate, and maintain PTC, as well as address the 
massive backlog of other deferred critical infrastructure and safety 
projects. Additional funding would not only help commuter railroads 
continue to achieve the necessary milestones to implement PTC, but it 
would also allow them to address critical and costly interoperability 
challenges and system-wide reliability improvements after PTC 
deployment. As previously noted, the annual ongoing cost of PTC for 
publicly funded commuter railroads is estimated to be between $80 
million and $130 million.
            Limited Vendors and Expertise
    PTC is specialized rail signaling and communications equipment and 
there are a very limited number of manufacturers of this technology. A 
limited number of PTC-qualified vendors are simultaneously in demand by 
freight, intercity passenger, and commuter rail operators to develop, 
design, and test this complex safety technology, and it has been a 
significant challenge for the industry. In addition, the procurement 
process employed by public transit agencies is more rigorous and time 
intensive, which hindered some agencies' ability to advance contracts. 
Moreover, the scale of large freight railroad PTC procurements made it 
difficult for commuter railroads, which typically contract for much 
smaller procurements, to compete in the limited market.
    Installing and commissioning PTC requires highly qualified 
signaling, communications, and software engineers. Workforce 
development is a critical issue in public transportation generally. 
With so many railroads implementing PTC at the same time, worker 
retirements and limited available expertise in the specialized 
communications and signaling fields, where institutional knowledge is 
crucial, has taxed the nationwide implementation effort.
            Communications (Spectrum and Towers)
    Many commuter railroads have also faced significant issues in 
accessing and acquiring the necessary radio spectrum. Railroads often 
attempted to secure spectrum on the secondary market, only to encounter 
issues such as questions about ownership and legal authority to sell, 
unavailability in required geographic areas, and cost-prohibitive 
contractual requirements. Some railroads contracted their spectrum 
usage to the host railroads on which they operate, which created other 
issues that needed to be addressed.
    Commuter railroads also may be subject to contractual constraints 
imposed by State and local governments. For instance, receiving 
government approval to use a sole-source procurement to acquire 
spectrum can take a very long period of time.
    Finally, after spectrum is acquired, commuter rail PTC systems are 
also subject to radio interference from freight railroads operating on 
or near commuter rail territory that can overwhelm commuter rail PTC 
signals and render the system vulnerable to failure. Complex, and 
sometimes costly, solutions must be developed to mitigate this 
operational problem.
            Equipment Installation and Training
    Commuter railroads do not have surplus equipment or personnel, and 
the impact of PTC implementation on daily service has been significant. 
It is extremely difficult to operate the level of service that our 
customers rely upon when railroads must remove railcars and personnel 
from service for onboard equipment installation and training and work 
on multiple territories simultaneously.
    Most locomotives and other operating equipment must be reconfigured 
to accommodate the installation of PTC components, which has led to 
higher costs and longer schedules to implement PTC than initially 
predicted. To provide an example of the level of effort required to 
install this hardware, it generally takes one person working for one 
complete month to equip one locomotive or similar controlling 
equipment. Moreover, this example does not take into account the design 
and proof-of-concept work that is needed prior to equipage. Similarly, 
many railroads must upgrade track components such as switches and 
signals to be reported by the Wayside Interface Units. Commuter 
railroads face the same challenges in equipping the wayside components 
as private-sector freight railroads, but with far more limited 
development and testing resources.
    In addition, railroads installing I-ETMS must maintain extensive 
back office capability to interact with the overall PTC network. 
Recognizing this requirement as a key resource constraint for commuter 
railroads, APTA, in conjunction with FRA, worked with suppliers to 
develop a cloud-based back office system. In 2015, FRA provided 
approximately $5 million for this initiative. The shared back office 
provides for efficient operations, software maintenance, communications 
software updates, train initialization, and other key features. Several 
suppliers now offer this service.
            Interoperability
    Commuter railroads face different operating environments. Railroads 
operate as hosts on tracks they own, as tenants on other railroads 
tracks (e.g., freight railroads, Amtrak), or a combination of the two 
environments. PTC must have the ability to interface and function with 
different operators that share use of a section of track. In 
metropolitan areas, several different carriers often operate on one 
section of track. For instance, Metra, a Chicago-area commuter rail 
operator, has 13 required rail partners for its service area. Moreover, 
interoperability requirements are very complex for both testing and 
implementation. It continues to be a challenge to ensure compatibility 
and requires close coordination and communication between host and 
tenant railroads. Commuter railroads continue to diagnose and resolve 
software issues and address complex interoperability issues as they 
begin testing the system in RSD.
    Overall, there are 30 commuter railroads vying for a limited number 
of resources related to PTC. As you can imagine, the systems are at 
various stages of the process. It is important to note that commuter 
railroads must continue to serve their customers during this process. 
Each day, systems must delicately balance PTC installation and serving 
their customers as they work to continue to safely carry passengers on 
more than 500 million trips per year.
                  septa's experience implementing ptc
    Finally, I would like to outline SEPTA's experience implementing 
PTC. Despite a period of historically low capital funding at the 
Authority, our Board was committed to implementing PTC. The Board's 
support, coupled with proactive decisionmaking and planning, and some 
good circumstances, combined to drive SEPTA's PTC implementation 
efforts. Following our implementation plan, SEPTA received FRA approval 
to operate ACSES II PTC provisional revenue service on our Warminster 
Line in April 2016, and SEPTA commuter trains have been operating under 
PTC on all 13 of its Regional Rail Lines since May 1, 2017.
    SEPTA began designing its PTC system in November 2009 without 
really knowing how we were going to pay for it, but we were fortunate 
to have several circumstances fall into place, and we were positioned 
to take action, including:
    <bullet>  In 2013, SEPTA received a $10 million U.S. Department of 
Transportation TIGER Grant and worked with CSX to physically separate 
freight and commuter rail operations to address PTC interoperability in 
a congested corridor where SEPTA's West Trenton Line operated over the 
freight carrier's Trenton branch.
    <bullet>  Counter to industry trends, we had a qualified and highly 
skilled in-house team that remained intact throughout implementation; 
and
    <bullet>  Most importantly, at the end of 2013, Pennsylvania 
enacted Act 89--Pennsylvania's landmark multi-modal transportation 
funding bill--which gave SEPTA a future, doubling our annual capital 
program. The bill provided critical funding to allow SEPTA to begin to 
address its $5 billion state-of-good-repair backlog while making it 
possible for SEPTA to aggressively finish PTC implementation.
    Without Act 89, and the other good circumstances, SEPTA's PTC story 
would be very different.
    Implementing PTC at SEPTA has required a series of innovative 
solutions to myriad challenges--cost, limited Federal funding, 
interoperability, radio spectrum, equipment installation and training, 
and a limited number of qualified vendors to accommodate the 
simultaneous, industry-wide implementation of PTC. SEPTA's in-house 
team has distinguished themselves in responding to the complexities of 
implementing a new safety system across our extensive network in a 
finite period of time and maximizing opportunities to install, test, 
and implement our system. But we would not have been able to execute 
our plan without close and productive working relationships with 
Amtrak, CSX and Norfolk Southern, our third-party contractor Hitachi 
(formerly Ansaldo), and the Federal Railroad Administration.
    At a total project cost of more than $344 million, completing the 
installation of PTC for a system as large and complex as SEPTA was, and 
continues to be, a hard and challenging project. After working through 
a number of technical and operational challenges, SEPTA continues to 
address interoperability with freight tenants operating on various 
segments of our territory.
    To date, SEPTA has already invested more than $337 million to 
implement PTC, following a strategic approach:
    <bullet>  successfully separating SEPTA from CSX on the West 
Trenton Line;
    <bullet>  systematically rolling out PTC on SEPTA territory 
beginning in April 2016 and completing PTC implementation on 12 
distinct segments by January 2017; and
    <bullet>  activating PTC on the three lines that operate on Amtrak-
owned track on May 1, 2017.
    SEPTA is proud of its record implementing PTC for our customers and 
employees, and yet we still have work to do.
    With three major phases completed, and with SEPTA trains operating 
with PTC on all 13 Regional Rail Lines, the final major focus is 
completing the task of establishing interoperability with the freight 
lines--CSX and Norfolk Southern--operating along portions of SEPTA 
territory. Working with our freight partners, this phase of the program 
is scheduled to be completed by December 2018.
    Although we have had success in our implementation efforts, no two 
commuter railroads are the same--each has different operating 
environments, equipment, host-tenant relationships, and ridership--so 
no two PTC experiences are going to be alike. What we do have in 
common, though, is a commitment to safety and implementing PTC on our 
systems. That commitment is shared by our employees--who embraced 
SEPTA's PTC efforts during training and installation and now in revenue 
service--and our customers--who experienced schedule adjustments and 
service changes during implementation. SEPTA's PTC effort would not be 
where it is without their professionalism and patience.
                               conclusion
    Safety is the shared responsibility of every commuter railroad in 
the country, and the current nationwide effort to implement positive 
train control is a critical initiative that reflects the industry's 
commitment to strengthening safety. The nation's commuter railroads are 
aggressively working to implement PTC by the statutory deadlines, and 
right now, thousands of workers across the country are working 
trackside or in back offices to make that happen.
    APTA is grateful for the work that this subcommittee has done to 
make our nation's railroads safer. We look forward to continuing to 
work with you and your staff on this and many other issues that face 
public transportation agencies.

    Mr. Shuster [presiding]. Thank you, Mr. Knueppel.
    And now, Ms. Mortensen, you are recognized for 5 minutes.
    Ms. Mortensen. Chairmen Shuster and Denham, Ranking Members 
DeFazio and Capuano, and members of the subcommittee, thank you 
for holding this important hearing and inviting me to testify 
about our experience implementing PTC on the smallest commuter 
rail service in the country.
    First of all, I want to note our sincere appreciation for 
our congressional delegation for our service area, especially 
the ones who serve on the House T&I Committee. Chairman Denham, 
and Representatives DeSaulnier and Garamendi have done a 
fantastic job for our constituents, and we are very fortunate 
to have them on this committee.
    Second, I also want to thank the Class I railroads who are 
our hosts for both our ACE service, which I will talk about 
today, and the San Joaquins Amtrak service, which we manage. 
They have been incredibly collaborative and helpful to us on 
the PTC, as well as our goals to expand services out in 
northern California.
    Just a brief bit about our agency. We operate under a 
consolidated staffing model that allows us to be very agile. We 
are a very, very small agency, and we manage both the ACE 
commuter rail and the Amtrak San Joaquins. And we throw our 
heart and soul into both. We have two policy boards that can 
take care of the constituents in each of the communities, but 
we share one staffing so that we can leverage opportunities, 
have very good cost controls and cost efficiencies, and bring 
more rail service, regardless of whether it is intercity or 
commuter, to the communities that we serve.
    The Amtrak San Joaquins run up and down the spine of 
California, north and south, and our ACE trains connect that 
spine from the Central Valley into the bay area. Our small rail 
commission is headquartered in Stockton, in San Joaquin County. 
And while we don't have very large budgets, we really make the 
most of what we have with our local partners.
    Our State just gave us a big vote of confidence in 
investing $1 billion in our program of State funds to help us 
expand more service up to Sacramento, the State's capital, and 
further down into the Central Valley. And we are tasked with 
delivering that within the next 3 to 6 years. So we are used to 
daunting tasks.
    We have just four ACE trains that operate in the commuter 
hours between the Central Valley and the Silicon Valley, our 
big job market. But on 3 of those 4 trains a day we are 
carrying over 1,000 people each way. That is a very congested 
train situation, and we realize safety is paramount.
    We are also celebrating our 20-year anniversary. So while 
we are the smallest, we are not the newest kid on the block. 
And we have made do mostly by funding from local transportation 
sales taxes in each of our service counties. We have really 
found that self help is a necessity when running a regional 
rail program.
    In addressing the topic of today's hearing, I am here to 
represent to you--and I know we are on the list of nine--that 
our board and our entire team is more than 150 percent 
committed to safety in many ways, including PTC. We have 
undertaken all the steps possible for us, and will continue to 
take the final steps necessary to fully implement the PTC 
program by the deadline.
    But I do want to be very direct, and especially in response 
to the opening comments. We have had some challenges. Some we 
have worked through, some we are continuing to work through. 
Some are out of our control, and frustrating, but we continue 
to push ahead.
    While being the smallest does have its advantages in terms 
of agency flexibility and agility, our responsiveness out in 
the service territory, and very close access to our customers, 
in a national process where we are vying for the attention of a 
single vendor and manufacturer of the PTC equipment, we find 
ourselves sort of pushed towards the end of the line. We really 
have faced a situation of being at the mercy of the 
marketplace.
    We operate our trains on the host railroads, so our only 
requirement for the ACE trains are the PTC implementation on 
six locomotives, eight cab cars, and setting up a back-office 
server. We also have the responsibility of the crew training, 
of course, but we have a somewhat limited role in terms of our 
compliance requirements.
    Our PTC equipment was ordered in March of 2017, well in 
advance of this year's deadline, well in advance of being able 
to work with our host railroad partners on the testing. But 
because of the many other orders--and important orders--across 
the country, the equipment was not delivered until April of 
this year, so a year and a month after the order. And it was 
difficult for the vendor, as was mentioned before, to establish 
a site workforce, given the demands.
    This week, 6 of our locomotives--of our total 14 pieces of 
equipment--that is 42 percent--will be fully outfitted. That is 
as of today. We are on an expedited installation schedule, so 
all units will be completed by mid-October. And our test trains 
begin field testing on Saturday, October 6th. That will 
continue through into RSD through the end of December under 
Union Pacific's testing plan.
    I would like to give an example of how Union Pacific is 
helping us out, since our equipment is not fully installed. 
They helped expedite us getting a desktop simulator that will 
help get our engineering crews into at least the desktop 
training sooner, so that they are already well ahead of the 
game, once the equipment is out and field testing.
    Our back-office server has been approved by UP, and we are 
ready to start configuring all the equipment with the slot 10 
cards as soon as the testing units are validated. So we have 
been trying to be very forward-moving and very proactive in our 
implementation.
    And I know your question is why has it taken so long to get 
to this point. And I guess it is good news and bad news. Issues 
that have arisen for other properties who do have the resources 
to do the R&D testing and work out the bugs, those sort of 
cascade onto us.
    So I will give you an example. The radio antennas, which 
are common to everyone, they began to fail due to water 
intrusion for other agencies that were using them. And so the 
antenna was recalled. So we already had our service kits 
ordered with the old antennas with the cabling, and we had 
already installed some. So we were unsure about the priority 
for us getting the new antennas, since you had operating 
systems that were failing.
    So, rather than wait for that, we continued with the 
installation of the old antennas. They haven't failed yet. And 
out in California we are not in a water intrusion situation, so 
we just forged ahead with the old antennas. We will replace 
them when the new antennas become available to us down the 
line, as they will at some point, but it is an example of how 
we can be a little bit innovative, and just keep making this 
thing work, regardless of what the challenges are.
    On the Amtrak San Joaquins side, I am happy our partner 
Amtrak has taken the lead. They made a big equipment purchase a 
little bit after we did, and I think they sort of got in front 
of us, but that lets us have one of our systems out in the 
corridors testing already. And I am confident the San Joaquins 
will be compliant.
    And I guess a benefit of being last in line, we have taken 
advantage of the lessons learned. We have taken the resources 
that the FRA has offered. Both FRA DC and FRA District 7 have 
been great to us throughout the process.
    Our operating contractor from Herzog, who has been our 
contractor for 20 years, he came from the Northstar property 
and has been through the PTC process, so he is helping us 
expedite, and he is firm in his commitment to me that the ACE 
service will meet the deadline.
    We have also had other partner agencies offer us some 
equipment if we have some trouble, if anything malfunctions, 
and we are thankful for that.
    So with everyone rowing the boat this hard, I believe we 
will meet the deadline. And we look forward to adding our name 
to the list of agencies that are in PTC operation, and we get 
off the list of nine.
    And I thank you for the opportunity to share our experience 
today and look forward to your questions.
    [Ms. Mortensen's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Stacey Mortensen, Executive Director, San Joaquin 
                        Regional Rail Commission
    Chairman Denham, Ranking Member Capuano, and members of the 
subcommittee:
    Thank you for holding this important hearing and inviting me to 
testify about our experience implementing PTC at likely the smallest 
commuter rail service in the country.
    First of all, I want to note our sincere appreciation for the 
congressional delegation in our service area, especially the ones who 
serve on the House Transportation and Infrastructure Committee.
    Chairman Denham, Rep. Garamendi and Rep. DeSaulnier have done 
fantastic jobs in Congress representing their constituents and our 
humble agency. And we are honored to have them represent us on the 
committee. Your leadership in all things transportation has been 
integral to our continued success.
    Second, I would also want to thank our Class I railroad 
stakeholders--Union Pacific and BNSF. They have been incredibly 
collaborative in so many ways, and we wouldn't have our successful 
services without their cooperation and leadership.
    First a bit about our agency. Under a consolidated staffing model 
which allows us to be agile, we manage both the ACE commuter service 
and the Amtrak San Joaquins. One runs up the central spine of the State 
and the other runs east-west from the Central Valley to the Bay Area. 
We are headquarted in Stockton in a small valley county and while we 
don't have large budgets, we make the most out of what we have. Our 
State recently allocated funding for long awaited expansions to 
Sacramento and further south in the Central Valley and we are focused 
on delivering new service in the next 3 years.
    Our four daily ACE trains operate during the commute hours between 
California's Central Valley and the Silicon Valley, with connections to 
San Francisco. On three of those four weekday trains, ridership is over 
1,000 passengers. The ACE Service celebrates a 20-year anniversary on 
October 19th and has been funded mostly by local transportation sales 
taxes in San Joaquin, Alameda and Santa Clara Counties.
    Let me be clear about one thing from the beginning: The Board and 
the entire team are 150 percent committed toward safety. We have 
undertaken all the steps we could--and will continue to do that--to 
fully implement PTC by the deadline. But let me also be very clear and 
direct in admitting that we definitely have had some challenges--
challenges we have solved and are continuing to work through. Other 
things regrettably, are not directly under our control--yet we push 
ahead.
    While being the smallest can have its advantages in terms of agency 
flexibility, responsiveness and close access to the customers, in a 
national process vying for the attention of the single manufacturer of 
PTC equipment and software, it has positioned us toward the end of the 
line.
    We were quite simply at the mercy of the marketplace.
    Issues that arise in the implementation and testing for other 
agencies before us can have cascading impacts on our program that are 
beyond our control. We operate on a host freight railroad, so our only 
equipment requirement involves our six locomotives, eight cab cars and 
the back-office server.
    The ACE PTC equipment was ordered in March of 2017, well in advance 
of this year's Federal deadline. Because of the many other orders 
across the country, the equipment was not delivered until April of this 
year. Further, the vendor couldn't establish a site workforce until 
late June. This week, six of our 14 locomotives and cab cars (or 42 
percent) will be fully outfitted. All units will be completed prior to 
the end of October and test trains will begin operating every Saturday 
starting October 6th. Testing will continue through the end of December 
under Union Pacific's testing plan.
    The back-office server has been approved by Union Pacific and the 
consultant is ready to start configuring the equipment with the ``Slot 
10'' cards as soon as the first testing unit has been validated. We 
have been trying very hard to be forward moving and proactive in our 
implementation.
    Why has it taken so long to get to this point? While there are 
several reasons, one example of the difficult issues we've had to work 
through was equipment recalls.
    Radio antennas for early implementation agencies began to fail due 
to water intrusion, resulting in the product being recalled. We already 
had the ACE kits ordered with the ``old'' antennas and several had been 
installed along with the cabling. The priority for delivery of new 
antennas was focused on systems that were already in operation and 
those in the Northern States where water intrusion conditions were more 
threatening.
    Rather than wait the undetermined amount of time for the new 
antennas to be delivered, we continued installation-and will begin 
testing with-the old antennas which have not yet failed. We will 
replace the ``old'' antennas and cabling after our PTC program is 
completed and certified.
    On the Amtrak San Joaquin side, Amtrak was able to make a large, 
expedited purchase of the onboard equipment within the last year, so 
the San Joaquins are already in testing mode. However, this pushed ACE 
a little further out. But each experience learned in the San Joaquin 
roll out is valuable to ensuring the ACE program meets the deadline.
    One benefit of being last in line is taking advantage of the 
lessons learned at other agencies. FRA's PTC Summits have been very 
helpful and both FRA Washington and our FRA District 7 staff have 
offered assistance throughout the process. In addition, the General 
Manager of our Herzog O&M contractor has been through the PTC process. 
Given his experience with Northstar, we are able to move faster and he 
is firm in his commitment that we will meet the PTC deadline. Another 
partner agency has also offered us two antenna kits if we experience 
any interruption to the installation schedule. In an effort to achieve 
compliance, Wabtec has assigned more staff and is utilizing our Herzog 
contractor for some tasks such as pulling cable and welding brackets. I 
believe that we will meet the deadline.
    Another delay that was beyond our control was due to the fact that 
ACE trains operate on the Caltrain Corridor for approximately four 
miles in the San Jose area. As you may know, Caltrain will be filing 
for an Alternative Schedule. We cannot complete work on that stretch 
without their cooperation.
    We look forward to adding our name to the list of agencies who are 
operating the new PTC system.
    I thank you for the opportunity to share our experience with you 
today and look forward to your questions.

    Mr. Denham [presiding]. Thank you, Ms. Mortensen. I 
appreciate you being here.
    When is Caltrain scheduled to upgrade the 4 miles of track 
that ACE operates over?
    Ms. Mortensen. Caltrain plans to begin testing a segment by 
the end of this year. It will not be the segment that is for 
the ACE in the Capitol Corridor, down around San Jose. So they 
will begin testing, but not in that section. So that is 
anticipated, I think, in the second quarter of 2019.
    Mr. Denham. So if you are unable to certify that area for 
PTC, how does that affect your deadline?
    Ms. Mortensen. So we are a tenant on both railroads. So 
they will file an alternative schedule for all the tenants--
Amtrak, Capitols, ACE, and UP. And so we will fall under that.
    Mr. Denham. So they will file for the extension.
    Ms. Mortensen. Correct.
    Mr. Denham. You are not required to do so.
    Ms. Mortensen. Correct.
    Mr. Denham. Thank you.
    Mr. Naparstek, in your testimony you talked about 605 of 
the 901 Amtrak-owned route-miles have at least one wayside PTC 
system installed and operational. What are the biggest risks to 
not completing the remaining one-third of Amtrak's routes by 
December 31st?
    Mr. Naparstek. The largest risk at this time, I would say, 
is the interoperability testing, in terms of the time it will 
take to run the test trains, to evaluate the test results, to 
submit and get approvals.
    So--in each of the areas we run--and we cover a lot of 
territory. Certainly on the Northeast Corridor, Michigan, 
Chicago, et cetera, each one has a little bit of a different 
risk pattern. But where we are, based on the fact that--a lot 
of what we are looking at now is doing interoperability 
testing.
    For instance, on the Northeast Corridor--and I think it has 
been mentioned--until all our tenants are ready for 
interoperability testing, we can't be 100 percent complete. And 
we have tenants on various phases. We have Mr. Knueppel's 
organization, who I think is much more advanced than certainly 
other commuter agencies.
    So working through the whole interoperability, I think, is 
the biggest risk right now.
    Mr. Denham. And how far are you on the Northeast Corridor?
    Mr. Naparstek. We plan on having all route-miles where we 
control PTC ready and compliant. So we should be ready 
ourselves on the corridor, and it will be a matter--we will 
file for extensions, we will file for the alternative schedule, 
and then we will work with all our tenants to help them become 
interoperable.
    And in some--I mean in some cases, to be frank, I am 
working with the tenants right now, my staff and I, to 
understand when they could be ready for testing.
    Mr. Denham. You will file for an extension on the Northeast 
Corridor, as well?
    Mr. Naparstek. Yes.
    Mr. Denham. I would say that--I don't want to speak for Mr. 
Capuano, but we have shared a number of conversations about the 
accidents that we have both seen, together--Philadelphia being 
one of those. And in 2015 this committee was promised that the 
Northeast Corridor would be 100 percent PTC-compliant by the 
end of 2015. It is 2018 now, and we are talking about filing 
for an extension because we are still not there yet.
    I am going to tell you it is one of the main reasons of 
frustration for this committee, when Mr. Sumwalt talks about 
the 29 deaths that have happened around the country. Amtrak is 
right there on some of those catastrophic accidents--Philly 
being one of the most. So it is with a great deal of 
frustration that we continue to have this conversation and talk 
about extensions, especially when the last hearing that we had 
at the beginning of the year we were very explicit about who 
was going to need an extension and why.
    Mr. Batory, what is your strategy to enforce PTC 
implementation compliance after the 2018 deadline?
    Mr. Batory. Thank you, Chairman.
    Mr. Denham. I think just pull it closer. I think that one 
is----
    Mr. Batory. Yes, we are having a technical defect here.
    If I didn't know better I would think it was a railroad and 
we bad-ordered this thing.
    [Laughter.]
    Mr. Batory. Very good question. Going into 2019 we will 
continue the plan that emerged during first quarter of 2018 
with the urgency and intensity that we have applied against 
that plan throughout this calendar year so far.
    We are already recognizing where there are violations, and 
recommending penalties. That is our only, if you will, 
mechanism to entice more urgency and more effort towards 
bringing PTC to resolve.
    But I would much rather see us retain the resolve for PTC 
through the constant communication and collaboration that we 
have demonstrated as a group of people over the past 6 months. 
We have made considerable inroads. This is my observation of 
the FRA when I arrived in regards to this particular 
initiative. It is a personal opinion, based on the facts that 
were put before me.
    We definitely lacked, within FRA, a proactive organization 
plan with a sense of urgency. We were decentralized in 
responsibility and accountability. And I am not just speaking 
of recent date; I am talking over the last 10 years, part of it 
from my observation from the outside.
    Now, was the FRA responsive? Yes. FRA has always been 
responsive with this initiative. But it was somewhat ad hoc 
because of the decentralization. But we have a plan today, we 
started formulating that plan when the Secretary brought me on 
as a special advisor back in November of last year. It was 
formalized in January of this year. And I am very pleased and 
proud of the people that I am working with, both in the 
railroad industry, in other agencies, and in FRA itself, of 
what has been accomplished. And we are going to do nothing less 
than what we have demonstrated thus far.
    Mr. Denham. Thank you.
    Mr. Batory, I am out of time. But one of the questions that 
has come up as we have had PTC hearings throughout the years is 
what about the fines that at some point will be levied. I 
believe it is up to $27,500 per day. Are you prepared to deal 
with any of the rails that have fallen behind or ignored the 
mandate with a heavy fine?
    Mr. Batory. What I have shared internally among the people 
that I work with daily--and actually, the range can be anywhere 
from around--I think it is $857 per violation, up to around 
$27,000.
    At this juncture, when you have an initiative that is 10 
years old, and you see the amount of lagging that has taken 
place, why would you do anything less than the full amount?
    Mr. Denham. Thank you. I would now like to recognize the 
ranking member, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    To Amtrak, Mr. Naparstek, the--back when we had a hearing 
in February, President Anderson said, ``There may be railroads 
that operate over our NEC tracks which may not have sufficient 
PTC-commissioned rolling stock to operate normal services by 
the end of the year. Under the present rules, we cannot permit 
noncompliant equipment on our railroad after the deadline.''
    But you seem to have said something different. Can you 
explain that to me?
    Mr. Naparstek. Our----
    Mr. DeFazio. Please, close to the microphone, so people----
    Mr. Naparstek. Our position is to work very aggressively 
with the FRA and with our tenants in order for, at the 
deadline, to have each railroad operating services as safely as 
possible.
    I want to make sure----
    Mr. DeFazio. Yes, but that--not as--I don't want as safely 
as possible. This was pretty definitive. We cannot permit 
noncompliant equipment to be used. Does that still stand, or 
not?
    Mr. Naparstek. We expect every tenant that will operate on 
Amtrak--Amtrak will be 100 percent operating trains----
    Mr. DeFazio. Got that.
    Mr. Naparstek [continuing]. With PTC.
    Mr. DeFazio. Right. But these are on your tracks----
    Mr. Naparstek. We expect every tenant to be operating 
either with PTC or under an extension, under an alternative 
schedule.
    Mr. DeFazio. OK. So the statement should have been 
qualified at the time, saying not--so you are saying that 
someone has an extension, the equipment is noncompliant, but it 
is not noncompliant because they have an extension? OK. 
Interesting.
    All right, and then he also said, you know, that, 
obviously, there will be carriers over which we operate who 
appear unlikely to achieve sufficient progress to apply for an 
alternative PTC implementation schedule by the year's end. For 
any route segment Amtrak will suspend operations. How are we 
doing there? Are we going to have suspensions of service in 
certain areas? Are we going to have holes in the system?
    Mr. Naparstek. At the point--since the statement was made, 
there has been a lot of progress made by host railroads. As we 
evaluate where our hosts are, our hosts will either be 
operational or will qualify for alternative schedules. We are 
not anticipating right now that there will be a host that will 
not have at least an alternative schedule.
    Where we will run over MTEA [Mainline Track Exclusion 
Addendum] territory or where we will run over alternative 
schedule, we are applying risk mitigation strategies, we are 
looking at the territory, and we are saying what additional 
risk can we do to close the gap.
    The goal, our goal at Amtrak, will be to be running PTC 100 
percent everywhere we run. That is not a goal we will be able 
to achieve by 12/31, but we are committed to make that goal, 
and we will continue. So even over MTEA territories, we will 
continue to move towards PTC. In the meantime we will use risk 
mitigation to move towards what we are terming as ``PTC 
equivalency,'' using other operational and technology means to 
close the gap.
    Mr. DeFazio. OK. Administrator Batory, I guess you are 
going to get a flood of extension requests. And, as I 
understand, these are rather complicated and lengthy documents.
    I mean are you, you know, staffed up to the point where you 
are going to be able to process all of these by the first of 
next year? Especially if some of them come in, you know, in 
December?
    Yes. Yes, I think it is--it might be working this time.
    Mr. Batory. Can you hear me?
    Mr. DeFazio. Yes.
    Mr. Batory. We will get it closer. There we go.
    Now, we are talking about the acceptance?
    Mr. DeFazio. Well, the extensions.
    Mr. Batory. The--OK, the----
    Mr. DeFazio. Yes. I mean there is--you are going to get 
quite--well, you are getting a pile of both, OK?
    Mr. Batory. It is--the extensions thus far, for instance, 
we have the ability to handle the alternative schedule requests 
within a timely period where the--we have a 90-day window. We 
have to go back and tell the applicant what the concerns are, 
if any, within the first 45 days, and then we have the 
remaining 45 days to [inaudible].
    Mr. DeFazio. Well, if people submit documents on the first 
of December, and you get 45 days to send back concerns, do they 
qualify to continue to operate on January 1, even though you 
have----
    Mr. Batory. Yes. Yes, they do.
    Mr. DeFazio. Well, that is probably going to mean you are 
going to get a heck of a lot of people filing on whatever the 
last business day is in December.
    Mr. Batory. You are exactly right, Congressman. And we have 
discussed that with the prospective to-be-compliant carriers. 
We have talked about it internally.
    We are going to be able to be responsive to the alternative 
scheduling requests. The one that is concerning that we may 
want to discuss later has to do with the certification of the 
safety plans.
    Mr. DeFazio. OK, all right. My time has expired. Thank you, 
Mr. Chairman.
    Mr. Denham. Mr. Shuster, you are recognized.
    Mr. Shuster. Yes, Mr. Batory, can you--I don't think I 
quite--Mr. DeFazio, I think, has a great question. And I guess 
the answer I am looking for is do you have enough staff to meet 
those timelines? That is--I am a bit unclear on that.
    Mr. Batory. I have a calendar that we have to respect and 
recognize.
    Mr. Shuster. I am sorry, I can't hear you.
    Mr. Sumwalt. I do want you to note that the NTSB does 
occasionally help the FRA.
    [Laughter.]
    Mr. Shuster. I see that.
    Mr. DeFazio. The room is getting redone next year, and 
there will be----
    Mr. Batory. I trust----
    Mr. DeFazio [continuing]. Include a new sound system.
    Mr. Batory. I trust that is for the record. OK, OK.
    In regards to how we are staffed, we have 30 people that 
are assigned full-time to the administrative review of PTC. 
When we look at what we have in the way of talent among those 
30 people--and that is the key, talent--we have a sufficiency 
rate of probably in excess of 80 percent. The other 20 percent 
are going through the learning curve.
    Now, we are also retaining third-party service providers. 
And as far as getting past this calendar year and into next 
year, the administrative burden that we are going to see facing 
ourselves we feel comfortable with.
    I will add one thing, though, that I talked about earlier 
about FRA and how it----
    Mr. Shuster. Sure.
    Mr. Batory [continuing]. Polices itself. Starting early 
this year, we instituted a perpetual inventory of all 
administrative instruments that entered the FRA, was being 
handled within the FRA, and being sent out by the FRA 
concerning PTC. We defined timelines for ourselves, as far as 
how much time we should give ourselves to respond. That has 
helped immensely, because now we really understand what we are 
faced with, and we are maturing as every day goes on.
    Mr. Shuster. OK, thank you.
    Ms. Fleming. Mr. Chairman, could I----
    Mr. Shuster. Sure.
    Ms. Fleming [continuing]. Add perspective to that?
    Mr. Shuster. Sure.
    Ms. Fleming. You know, we talk to all the railroads, and 
they, quite frankly, do remain concerned about FRA's ability to 
manage the influx of documentation.
    As I mentioned in my opening remarks, we have 32 out of the 
40 railroads that are going to seek an extension. So FRA is 
going to have to deal with reviewing and approving all of that 
documentation. You have got substitute criteria of requests to 
initiate testing, RSD. Safety plan documents could be as long 
as 5,000 pages.
    There has been some movement of some resources, 
particularly with testing, and they have expanded some 
technical contracts. But it hasn't amounted to a substantial 
increase in resources. So we really think they should implement 
our rec, which is to come up with a more strategic, risk-based 
approach. It is not about getting to just December, it is not 
even about getting to 2020. This is kind of a game-changer for 
the railroad operations and industry, so they are going to be 
in it for the foreseeable future.
    Mr. Shuster. Well, and you mentioned risk-based, and I know 
Mr. Batory and I have talked about risk-based and, you know, 
this is not the hearing to talk about this. But I think in the 
future--I won't be here, but I hope this committee deals with 
it, not just the railroads, but industry in general.
    When you deploy technology, many--the railroads, this is a 
new technology, it has been extremely complicated. But once it 
is implemented, I think the technology is going to grow 
exponentially. And the FRA has to be working in collaboration 
with the freight rails to make sure that we are moving fast, 
because I have seen so many times that technology is developed, 
and by the time the Government gets around to saying OK, there 
is new technology.
    So, Mr. Batory, can you respond to that?
    Mr. Batory. Yes. Let me also share this. And this was 
something that was enlightening to myself. And, you know, it is 
one thing to live outside the tent, and it is another thing to 
live inside the tent.
    Mr. Shuster. Right.
    Mr. Batory. When it comes to PTC--and this is a tribute to 
yourselves and all your colleagues in Congress--we have two 
statutes, one from 2008 and the one from 2015. The one in 2008 
was three sheets of paper. The one in 2015 was six sheets of 
paper. We took that, OK, and we formulated regs. And we came up 
with 45 pages of regs. And then the rulemakings that percolated 
out of that was 190 pages.
    Implementation plans, which are things that are already 
behind us--now, they have to be maintained, they are living 
documents--represent anywhere from 150 to 200 pages, with a lot 
of technical substance that has to be maintained, going 
forward, forever more.
    The one that gives everybody a concern is the safety plan. 
And I was astonished. And remember, my railroad in my prior 
life had to be PTC-compliant. The typical safety plan, 
regardless of the amount of mileage or the size of the 
railroad, averages in excess of 5,000 pages of paper. Now, that 
might be surprising to some of you.
    Now, as a result of these symposia--and that--this is where 
I think people get concerned. How do you administer 5,000 pages 
of paper? How much of it is substance and how much of it is 
fluff? Is it format over substance, or is it substance over 
format? So, as a result--and to put 5,000 sheets into 
perspective, it is one Xerox box of paper, so it is pretty 
heavy, too. And that is what we are struggling with.
    Mr. Shuster. Right.
    Mr. Batory. And what we have identified is there is a way 
in which--to go after the substance and facilitate this process 
much faster.
    Now, when we had this symposium I just referenced a moment 
ago, I had 100 people in the room. The 100 people in the room 
were the experts of the railroad industry. I said, ``Has 
anybody in this room written their entire safety plan?'' There 
was no raising of hands. I said, ``Has anybody in this room 
read the entire safety plan?'' There was no raising of hands. 
``Has anybody edited the entire safety plan?''
    There was no raising of hands, because it has been 
syndicated out within their respective companies or out to 
third parties, then put together, and then sent to the FRA. And 
then, when people see what they are sending to the FRA, they 
are astonished, and they say, ``Can the FRA really handle all 
this?'' And that is where we have now learned that we are able 
to look at these safety plans, give conditional approval.
    At this juncture we have given conditional approval to a 
total of nine: six of the seven Class I's. The only one that 
hasn't gotten conditional approval yet--but we have it--is 
Canadian National. We have two commuter railroads--that is 
Metrolink and SEPTA--and then we, naturally, have Amtrak.
    So that is why I bring this to everybody's attention. Let's 
not make something out of perception, let's talk about facts.
    Mr. Shuster. Right. Well, I think you have got a great 
point. I have run out of time here, so--but I just want to make 
one final point. Again, that is a great point. You and I have 
had this discussion.
    But I just want to say that you really give me great 
confidence that a guy who comes from the operating world, comes 
to the Government, and I have great confidence you are going to 
change things at FRA, and you have demonstrated here, right 
here in this committee room, when you had a problem with your 
mic, you didn't screw around, you reached over and got another 
mic, and solved the problem immediately. And that is what it 
takes, I believe. So thank you very much.
    I yield back.
    Mr. Denham. Mr. Capuano.
    Mr. Capuano. Thanks, Mr. Chairman. Again, I want to start 
out by recognizing the railroads that have done their jobs, 
which is the majority of them. They are at least heading in the 
right way, particularly the Class I's. So I want to start 
there.
    At the same time, as I sit here, you have heard the 
chairman say several times we have asked--for years now, people 
come and tell us what they need. No one has. No one came and 
said we needed extra time. No one came and said we needed extra 
money. And the FRA didn't come and say we needed more people. 
So I sit here thinking there is no reason that we should have 
anybody in this situation.
    As I sit here and I look at it, I think it is incredibly 
unfair to the railroads who have done their job to allow those 
that have not, to escape this.
    The permanent exception you gave to somebody is 
unacceptable. And I believe, if there is ever an accident on 
that line, that permanent exemption will be thrown out by a 
court of law, because there was no authority to do it. Simple. 
And when that happens, somebody at the FRA is going to be held 
to blame. It may not be you; it will be somebody.
    And if it happens again, we will get another one coming in 
looking for an exemption because they don't have any money. 
Every railroad in the country could have made that excuse, yet 
they didn't. They came in and said, ``OK, we have money, we 
will do this, we will reprioritize our spending.''
    And to sit here and say to somebody they have no money, 
here is my answer. On line 7 of your written response, Mr. 
Batory, you say you imposed the maximum civil fine on 13 
railroads of $27,904. Thank you. But you also say it is a one-
time fine. Eleven lines above that you also say you could 
assess that fine for every day they are not in compliance--
$27,000 one time is not the maximum fine. It is $27,000 per 
day, per railroad, every day. And that money could be then used 
to help those, including the ones who are fined, to actually 
reprioritize their spending.
    I got to tell you I have none--zero--sympathy for the 
handful of companies that haven't done anything. None.
    And I have said it before and I will say it again. It is 
only a matter of time until the next accident happens and 
someone dies. We have got NTSB--I believe your numbers were 29 
deaths and $190 million. How much is a life worth? Apparently, 
it is $190 million.
    Well, guess what? That is not near what my wife is worth, 
not near what my children are worth. Maybe you don't value your 
families as much as I do.
    And again, I don't think anybody wants to--it is a business 
decision. The FRA has the authority--and if you don't have the 
authority, you should come to us, even today, and say, ``We 
don't have the authority to do this, we don't have enough 
people to do that,'' whatever it is, and we will do our best to 
help you. But unless you do that, we have to presume you have 
got what you need.
    I also have to presume, since you have done it in your 
previous life, you know how important this is. There is no 
excuse not to do it.
    And where is the sympathy coming? How are you supposed to 
look at one of the Class I railroads who have done this, spent 
millions of dollars doing this? They didn't really want to do 
it, but they were told they had to, they finally realized, OK, 
we got to do it, let's get over it. How do you turn to them and 
say, ``Thank you for doing what you did, thank you for 
reprioritizing your spending. But you, over here, Music City, 
New Mexico Rail Runner, doesn't matter. You can go right ahead, 
keep killing people.'' It is totally unacceptable.
    I don't think you are going to find anybody on this side of 
the table who is going to accept that responsibility. I don't 
think you are going to find anybody--it comes January, the next 
rail accident that happens after January, that they are going 
to sit here and say, ``Not a big deal.'' And that is fine, if 
that is what you want to do.
    I also think you got lawsuits coming. You got lots of 
lawsuits coming. And maybe my next life, maybe I will go back 
to practicing law so I can take one-third of that fee. It is 
going to cost a fair amount of money. And you know what? There 
isn't a single person that I know of that wants a penny of it. 
They don't want to lose their loved ones.
    So again, I am going to end where I started. I want to 
thank the companies that have done their job. I know it wasn't 
easy. I know some of them had to be pushed, kicking and 
screaming. And again, I am not trying to be a perfectionist 
here. I get there will be some extensions. That is OK, within 
reason. But there are a couple of companies that haven't done 
anything. And we have been down that rail before, and it is 
wrong. And I don't think this Congress is going to accept it 
any longer.
    I apologize for the rant, but, what the hell, that is what 
I do. Thank you.
    [Laughter.]
    Mr. Denham. Thank you, Mr. Capuano.
    Mr. Gallagher?
    Mr. Gallagher. Thank you, Mr. Chairman.
    First of all, I would like to thank all of you for being 
here today and taking the time to brief us on this very 
important matter.
    Mr. Batory, given that PTC connects trains' controls to 
wireless networks, is there any instance where a successful 
hacker could theoretically gain control of such a system to 
disrupt their functionality, and even potentially cause a 
derailment?
    If so, what measures are being taken to prevent such a 
development?
    Mr. Batory. Thank you, Congressman. Yes, there are efforts 
that have been underway long before PTC. And we are fortunate 
that those efforts were underway before the development of PTC, 
because we are capitalizing on the results of those efforts.
    Imagine our automated train control systems that we had in 
place throughout this country, all of our sophisticated 
computer systems and networks that we have within the railroad 
industry. We have teams of people within the corporations that 
work very silent, but effectively, in developing the software 
technology that is needed to monitor perspective hacking, as 
well as protection of hacking. And that is carrying forward 
into the PTC realm, and has to continue to be maintained.
    Mr. Gallagher. Just in terms of the overall threat 
landscape, do you feel like you are getting the information you 
need from the interagency, from all the stakeholders necessary 
to understand who might be trying to penetrate systems and 
networks?
    Mr. Batory. I can only speak for myself, personally. I have 
never sought, OK, specifically who is attempting. But there 
have been attempts in the other systems, OK, non-PTC. And the 
railroad industry individually, as far as companies, as well as 
collectively, has been quite successful.
    Mr. Gallagher. Thank you.
    Mr. Hamberger. Mr. Gallagher, if I could chime in there, it 
is a major concern for the industry in general, but for PTC in 
particular. I would like to get a more detailed answer for the 
record, but I believe the data transmissions are encrypted, and 
I believe we have a very reputable contractor, whose name I 
don't have at the tip of my tongue, working with us to help 
provide that security.
    But I would like permission to submit a more detailed 
answer for the record, Mr. Chairman.
    Mr. Denham. Without objection.
    Mr. Gallagher. Thank you, Mr. Hamberger. And I would like 
to follow up with you. And forgive me for being new to all of 
this. You know, the chairman has assigned me a lot of homework 
as the newest member of the committee, and I am staying up all 
night to do it.
    But the FRA and FTA have awarded grants that have 
subsidized PTC implementation to the tune of more than $1 
billion, correct? So much of this has gone into infrastructure 
that the freight railroads use, and has thus helped defray any 
investment that the railroads would otherwise have to make 
themselves.
    Could you just sort of tell us why you think that this 
subsidization of a private profitable industry is justified, 
and--not to stoke division--but especially when I hear often 
from AAR that, for example, trucking doesn't pay its fair 
share, and things like that, I just would be interested in your 
perspective on that issue.
    Mr. Hamberger. I would like to get a little bit better 
understanding of that $1 billion. I believe most of it has not 
gone to the Class I freight railroads. I believe it has gone to 
short lines and to commuter roads, primarily. So I stand by the 
AAR position that this industry has spent over $10 billion of 
private-sector money, going on--by the end of this year it will 
probably be $11 billion not subsidized, not taxpayer money, 
private-sector money to meet this safety mandate.
    And so, if we are going to transition into the issue of 
modal equity, the matter is really how much of the trust fund 
comes from user fees and how much of it comes from non-user 
fees, and the last----
    Mr. Denham. Mr. Hamberger, can I interrupt real quickly 
before Mr. Capuano leaves?
    [Laughter.]
    Mr. Denham. I just want to thank him for his leadership on 
this committee. He has been somebody that not only have I 
worked very, very well with in a very bipartisan fashion, but I 
have learned a lot from him, too. His passion, but his 
knowledge is a lot.
    And I will tell you. I have even learned that not only can 
you buy a cheap shirt, but it is quite--it has got a cooling 
effect to it.
    [Laughter.]
    Mr. Denham. He is a fashion statement that we are all 
following.
    [Applause.]
    Mr. Capuano. Thank you.
    Mr. Denham. You are a good man, Mike.
    Mr. Hamberger?
    Mr. Hamberger. I was in the middle of a rant there, Mr. 
Chairman.
    [Laughter.]
    Mr. Hamberger. But let me just close by saying that in the 
past 10 years $43 billion of taxpayer money has gone into the 
Highway Trust Fund, not user fees, to subsidize those people 
whose infrastructure is funded by the Highway Trust Fund.
    Mr. Gallagher. Mr. Chairman, I had a whole line of 
questioning related to the utility of short-sleeve, button-down 
shirts and them going in and out of style, but I will forgo 
that.
    I would just respond by making a point that, with freight 
in this country expected to increase by 40 percent over the 
next 30 years, you know, this is not a zero-sum game between 
different modes. There will be room for everyone to grow. 
Everyone has to have skin in the game. We need to make a 
public, as well as private investment.
    And so, I think we need to ask hard questions around what, 
you know, everyone has to do. And so--and particularly when it 
comes to the cyber vulnerabilities, I will look forward to the 
followup.
    Thank you, Mr. Chairman.
    Mr. Hamberger. And I will be glad to follow up on the modal 
equity issues, as well.
    And for the record, I was incorrect. It is $143 billion in 
the last 10 years, not $43 billion, $143 billion of non-user-
fee revenue into the trust fund.
    Mr. Denham. Thank you.
    Mr. Lipinski?
    Mr. Lipinski. Thank you, Mr. Chairman. I want to start out 
with Mr. Batory.
    We were talking about the safety plans that had not been 
submitted. So looking at the PTC dashboard, it looks like CN 
has submitted a plan, but it has not been approved yet. Is that 
accurate?
    Are you going to prioritize approving plans ahead of 
requests for extension, so that those get done more quickly, 
and that PTC can be started up on those lines?
    Are you going to prioritize approving the submitted plans, 
safety plans, over the request for extensions?
    Mr. Batory. Yes.
    Mr. Lipinski. I just want to make sure you are going to----
    Mr. Batory. Yes, yes----
    Mr. Lipinski [continuing]. Be able to get done, because----
    Mr. Batory. Both efforts are going in tandem. And as far as 
the CN one, it is currently being reviewed, and there are some 
unique circumstances about that that I would certainly share 
with you, in the essence of time----
    Mr. Lipinski. OK.
    Mr. Batory. But it is positive.
    Mr. Lipinski. OK. More general, I just wanted to make 
sure--as Mr. Shuster was talking about, we want to make sure 
you have the ability to move forward as quickly as you can with 
all this, because the requests, as you have said, are going to 
come pouring in.
    Now, how much grant money does the FRA have still right now 
from fiscal year 2017, 2018 for PTC grants? I know some money 
went out in late August. How much more is there?
    Mr. Batory. If I could, Congressman, let me characterize it 
this way.
    First of all, we have, out the door, OK, among all the 
parties associated with PTC, $2.6 billion so far.
    Now, since fiscal year 2017 we had CRISI money of $67.32 
million that was noticed during first quarter, and selections 
are currently under review. A portion of these funds went to a 
PTC project under the special transportation circumstances 
program.
    We also had the CRISI money that was identified strictly 
for PTC, the $250 million. As soon as that hit, we recognized 
that we had to do something different, and get that money out 
as quickly as possible, without compromising the due diligence 
that we have to administer in getting money into responsible 
hands. And we were able to get that accomplished within about 
75, 90 days.
    The part that was interesting about that--and I want to 
touch on, and I shared this with staff internally, I shared it 
with some of your colleagues--at this juncture it was more 
about the calendar than it was the money. But it--we did 
webinars, which is nothing new for FRA by a stand-alone, but we 
sought APTA, we sought AAR, we sought other associations and 
said, ``Get your membership on a webinar. We will help 
facilitate it so we can get this money into the responsible 
hands.'' It was undersubscribed.
    So, as a result, we just issued a NOFO, I believe this 
week, to get out the balance that was not taken----
    Mr. Lipinski. How long do you expect that to----
    Mr. Batory. And we are going to try to get that done within 
about 90 days--again, if not less. Because----
    Mr. Lipinski. Now, that last one was very impressive.
    Mr. Batory. You have to get this money in their hands, so 
that they----
    Mr. Lipinski. Yes.
    Mr. Batory [continuing]. Can get the equipment purchased, 
get it delivered, and get it applied.
    Mr. Lipinski. A lot of us have been talking about passenger 
rail as a big concern here. It is also--but honestly, this is a 
tough one, when it comes to--we want to make sure that commuter 
rail, especially, is going to get PTC installed as quickly as 
possible.
    But, you know, a question out there: are we going to be 
levying these big fines against commuter railroads who do not--
may not have the money to begin with, and that is why they are 
so slow in getting this done? And what will happen next? So, 
you know, that, I think, is a question.
    Do you have any, you know, comments on that?
    Mr. Batory. I certainly do. Let me share a statement of 
fact. When we had individual meetings, eyeball-to-eyeball, with 
each of the 41 railroads--and at that time I was not yet 
confirmed, I was an advisor to the Secretary--I shared with 
each of them that I often sat on the other side of that table, 
where they were sitting. So I asked for candor and thorough 
understanding of where they were with PTC.
    And money came up in each of those conversations, and only 
in 2 was money an issue among the 41 to-be-compliant railroads. 
It was more about the calendar, and can we make the calendar as 
far as physical installation and implementation of the 
equipment. Those two railroads was the Rail Runner in New 
Mexico and Caltrain train in California.
    Other than that, there wasn't--now, that is not to say that 
there isn't a railroad that wouldn't have taken a check that 
day. They all would have taken money. But none of them said 
money was an impediment.
    Ms. Mortensen. Congressman Lipinski, if I could add to that 
as a small commuter rail property, I had to do risk analysis 
about funding the PTC program. And what we did instead was--our 
State is very supportive in California of getting PTC 
installed. And so, through State sources related to safety and 
security, we funded our $7 million PTC program.
    I worried, just about the timing of Federal grants coming 
out, that that would be another one of those issues that is out 
of my control that would push when we could make the order of 
equipment. And so there are times when there is just the 
uncertainty of the grants added on to the uncertainty of all 
the rest of the program that--we couldn't bear that risk.
    And so, while we--the offer was made, we did go forward 
with State funding, just because it had more certainty about 
when we would have our hands on it and be able to get it to the 
vendor and order the equipment.
    Mr. Lipinski. All right, thank you. I yield back.
    Mr. Denham. Mr. DeSaulnier?
    Mr. DeSaulnier. Thank you, Mr. Chairman. I admire your 
attire today. For the record, I paid $5.98 at K-Mart for this 
shirt, so I realize the wisdom of Mr. Capuano, and I want to 
make my comments in the same spirit of Mr. Capuano, but looking 
more towards the future.
    So, Ms. Mortensen, I have been around long enough to 
remember when you started. If memory serves me, there is, like, 
175,000 car trips through that corridor right now. We have got 
companies like Facebook and Google anxiously wanting to write 
checks to improve that. We talked about doing the Dumbarton 
Bridge. So you are taking 2,000 people.
    So I would like to make this comment--and if you could 
specifically add to this and come back to Mr. Batory--this 
reminds me of an FDA hearing in another committee. We have got 
people who want the FDA to do best practices and make sure they 
don't make mistakes. But they want them to get new inventions--
in that instance, in biomedicine--and to saving lives.
    In places like the bay area and Philadelphia and urban 
areas, we have got this huge demand, mega-trips, people 
spending 2 hours going both ways, yet imperiling the growth of 
these urban areas where 65 percent of our GDP comes from. So we 
want to get it right.
    But looking forward, what do we learn from this? We can 
expect new technology, we can expect new innovation. But right 
now people are struggling with their day-to-day life, and it is 
impacting the national income if we don't get this 
infrastructure right.
    So, Ms. Mortensen, maybe you can--I know about your 
instance, because Mr. Denham's constituents come through my 
former constituents when I was in the legislature. They are 
going out there to buy affordable housing. They are working as 
software engineers in some of the biggest companies in the 
world. They are taking 2 hours to go. But you are 
overprescribed.
    So what are things that you look at, your situation? You 
could take more of those cars off the Altamont, off 580, and 
put them into a real world-class commuter rail system, if we 
got our act together here at the Federal level, and knowing 
that the State is ramping up, as you said, a $1 billion just 
for that corridor.
    Ms. Mortensen. Well, I think one observation I have seen 
about the Facebook issue--and I have been in transportation 25 
years--this is the first time where we have flash mob 
population that ends up at one place at one time.
    It used to be, when an industry would come in, it would 
take some time to develop the plant--you know, a production 
plant, a steel plant--you would know how fast it would grow and 
how many employees would be there over time. And it followed a 
fairly predictable schedule. With the new tech firms in the 
Silicon Valley, there can instantly be 19,000 employees in one 
location, and that is not a unique situation. It is happening 
over and over again. Government has a difficult time responding 
so quickly to put the infrastructure together for something 
like that.
    And so I am aware of the issues on the Dumbarton Bridge, a 
very valuable bay crossing that doesn't exist today. And I 
think public-private partnerships, where we let the public 
sector take the lead and maybe push things through faster than 
the Government can, is a way to look at those kind of 
situations to solve it faster. We would definitely utilize the 
Dumbarton Bridge. But if we do the typical Government study/
design/build process, it will be 35 years.
    Hopefully--there is a financial partnership between Plenary 
and Facebook that has about $1 billion on the table. And I 
think that kind of thing we should support at the Federal, 
State, and local levels, because capacity is critical. We have 
to solve our own problems within the communities.
    And then we have to negotiate with our Class I railroads. 
That is a commodity for them. We want our goods, too, not just 
people movement. So it is a give-and-take on a lot of different 
fronts.
    Mr. DeSaulnier. So, Mr. Batory--and I would like to, in the 
context of Mr. Sumwalt, who--NTSB came to your rescue there 
with a microphone, his quote was, ``Every day that we go 
without PTC, we are at risk of a mass casualty event due to 
human error.''
    So here is the balance. And you said urgency. We have got 
these demands of commuters, their lives being affected. We want 
to get new--so what have we learned from this experience? How 
can we fix this, once and for all, but going forward make sure 
we are more nimble about getting new technology in place and 
out into the commuter's benefits?
    Mr. Batory. Thank you for that question. Just to speak on 
PTC first, it has been a 10-year journey. And----
    Mr. DeSaulnier. It is too long.
    Mr. Batory. Exactly. What did this phone do 10 years ago? 
And we are basically trying to put in a platform that we 
designed 10 years ago.
    So, as a result, I understand that there may be some 
frustration and irritation about things that have taken place 
that evolve from the past. But I am trying to lead this 
initiative looking through the windshield, and not through the 
rearview mirror.
    And we have to go forward, we have to bring closure to PTC 
1.0, as I call it, recognizing the calendar gives us as much 
latitude as 2023. But we can't wait that long. And if we get it 
done sooner, we can then have a more robust, efficient PTC 
system that will be less money to maintain and operate, it will 
have more risk reduction, enhancing safety overall.
    And when you start doing that you take variability out of 
the system. And when you take variability out of the system, 
you create capacity. And that allows for additional organic 
growth. We see that, both in the passenger side and the freight 
sector, but we have got to get this accomplished and quit 
worrying about the past.
    Mr. DeSaulnier. But the key part--and this is for future 
hearings--is what have we learned from this experience, going 
forward. So when you put the phone up--this discovery 10 years 
ago, we don't want to be here 10 years with some undeveloped, 
unknown technology now going through the same experience. There 
is a real demand and consequence for everyday people's lives if 
we don't get better at this. So that is the point of my 
question.
    Thank you, Mr. Chairman.
    Mr. Hamberger. If I might be so bold, I think what we have 
learned is that a mandate that is so specific is what is 
causing the problem. If the mandate had been reduce accidents 
by X percent, if the mandate had been reduce fatalities, reduce 
accidents per train mile, then the industry, working with 
suppliers, would be able to leapfrog technology, move forward.
    And I am hoping that that lesson is learned so that, once 
this platform is put in place--and it is a heck of a platform--
that there are a lot of people in the Class I's now, sitting 
in--you know, smart people--how do we take advantage of this to 
go to--what I refer to PTC 2.0--and get additional safety 
benefits, additional operational efficiency benefits. But we 
are going to need an FRA and a Congress that allows us to do 
that, and doesn't impede us from being able to do that.
    Mr. Denham. Thank you, Mr. Hamberger.
    Mr. Babin?
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman. Thank you, 
witnesses for being here. And this will be for Mr. Knueppel. Is 
that the way you say it, Knueppel?
    Mr. Knueppel. Knueppel.
    Dr. Babin. Knueppel, OK. Sorry about that. Can you tell us 
about some of the commuters that are on track to meet the 
deadline, and what they are doing that is making them 
successful in this implementation? Just give me a rundown, if 
you don't mind.
    Mr. Knueppel. Sure. Obviously, I can give you our own 
experience, which I talked a little bit about today.
    For a public agency, there are a lot of things that kind of 
have to break the right way. For us, we were fortunate in that 
we had had an in-house signal construction program already 
going. And so we just were able to expand it. The fact that we 
were also able to use contractors and find a way to have both 
working at the same time was very good.
    A lot of people have been retiring in the last 10 years. At 
my company I have lost, just generally, 25 percent of my 
employees in the last 3 years.
    Dr. Babin. Wow.
    Mr. Knueppel. And so, keeping your talent and your team 
together is usually a big factor in how an agency will do.
    We do low bids. Low bids can work out. Low bids cannot work 
out. We were very fortunate with Hitachi and formerly Ansaldo, 
and they were very motivated and they worked well with us, and 
they were based in Pennsylvania, so that helped.
    For SEPTA, radio spectrum went very well. When we went to 
pursue it, the person was extremely reasonable and actually 
owned it, which made it a lot easier.
    Relationships are a big deal. With CSX I can tell you that, 
you know, we had already separated on one of our territories 
with them. So having to separate again, it was just a follow-
on. We did that separation project with them in less than 2 
years, start to finish. And the TIGER funds were, as I 
mentioned, very helpful.
    But we had also a radio interference problem with them, and 
it got tough. But the relationships that we had, we ultimately 
worked through it. I liken it to the Cuban Missile Crisis, but 
we got through it.
    Amtrak was very, very instrumental in helping us, and their 
engineering group was based out of Philadelphia, so that was 
extremely helpful.
    And the FRA, you know, I think, has been very, very helpful 
to us. And the Administrator has even come to me and sat in my 
office and made sure that I had what I needed and answered any 
questions, so that, you know, your relationship with the FRA is 
important.
    Your workforce, you know, your train crews, it is a big 
change. And so the agencies that have a positive approach 
towards it, and buy-in, that helps.
    And for us, you know, I had a very supportive board. We 
were at a very, very low time, in terms of our capital funding, 
but our board was very, very supportive. And our riders, I 
can't thank them enough, because they knew what was going on, 
we were telling them, and it did affect them. Our on-time 
performance went way down, as we--we run every car we can every 
day. They are always asking for more cars on every train. And 
we had to take cars out of service to equip them, and they were 
patient, and they let us keep going.
    Dr. Babin. I want to ask you one more question, though.
    Mr. Knueppel. Sure.
    Dr. Babin. If you can just go ahead and wrap up----
    Mr. Knueppel. I am done, I am done.
    Dr. Babin. You are done? OK.
    Mr. Knueppel. So those are kind of the positive things that 
came out of our experience.
    Dr. Babin. OK, thank you. And then, how much money have 
commuter railroads invested into PTC, and what is the estimated 
total cost?
    Mr. Knueppel. $4.1 billion.
    Dr. Babin. OK.
    Mr. Knueppel. And the funding that has been made available 
to us is about one-tenth of that. And 80 percent of that has 
really only come since May of 2017.
    The problem with having the money come late is with the 
requirements of the funding. You often can't use it on 
contracts that have already been awarded. So that is what makes 
it difficult to have the money--have--in most cases, for 
commuters, come later. But we are certainly making use of it 
wherever we can.
    Dr. Babin. OK, thank you. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Denham. Thank you.
    Ms. Esty?
    Ms. Esty. Thank you, Mr. Chairman. And I, too, salute Mr. 
Capuano and his short-sleeved shirts.
    I wanted to touch on two topics, as I think the last one 
here--no, no, Mr. Weber is joining us.
    The first, as somebody who represents Connecticut, I have 
to drill down more on the Northeast Corridor and serious 
concerns. There has been way too much loss of life. There 
continue to be delays on that. And safety is paramount.
    And the other is I do want to, before the close of my 5 
minutes, return to Mr. Hamberger's point about, basically, 
performance standards. And I think if we in America are going 
to have a transportation and an infrastructure system that is 
state of the art, we have got to figure out how to move much 
more nimbly. And I do want to return to that, because we saw 
that with NextGen. We are seeing that with this. And we are 
losing ground around the world, and we have got to figure out 
together how to stop pointing fingers at who is responsible and 
saying we have to redo how we get to fast, safe, affordable.
    So on the Northeast Corridor, Mr. Naparstek, I know--not 
everybody in this room knows, but I know the Connecticut lines 
are owned by the MTA, not Amtrak. So when you say how much--
when you are talking about how much of that, of the Northeast 
Corridor that everything Amtrak owns is going to be compliant, 
what is not going to be compliant? So what lines are--what 
portions are not going to be compliant, and how heavily 
traveled are those portions?
    Mr. Naparstek. [No response.]
    Ms. Esty. Because the rails are actually owned--in 
Connecticut are owned by Connecticut, are owned by the MTA. 
They are not owned by the State of Connecticut. Are those all 
going to be compliant with PTC?
    Mr. Naparstek. I believe--let me get back to you with 
specifics on Connecticut. And I actually have somebody on my 
staff who could easily answer that. But I believe they will be 
compliant. But I would want to verify that 100 percent, in 
terms of Connecticut.
    Everywhere we run service in Connecticut should be 
compliant by 12/31/2018.
    Ms. Esty. All right. Because I have to say it. For many of 
us this is like Groundhog Day. I have been on this committee 
for almost 6 years, and we have been hearing about we are 
close, we are close, just give us a little more time, a little 
more time. And frankly, you know, I have to say the folks in my 
district are angry and worried and late to work. Like a 
combination of all those. That is not a good combination.
    So you hear that frustration up here? That is because--and 
the chairman of the subcommittee has raised that--people have 
not come forward to say, ``This is what we need.'' And to wait 
until the eleventh hour, I mean, how is Mr. Batory supposed to 
go through on the 31st of December? This is like college, you 
know, paper being done all night and asking for an extension 
at, you know, 1 minute of midnight. It is not any good way to 
instill confidence in the riding public. And it makes it 
impossible for us to do our jobs of oversight. And that is 
really for everyone. I mean don't wait. Tell us what you need, 
and we will try to work with you.
    Mr. Batory, I agree with you on those fines. I mean you get 
people's attention, people--and the Class I freights have 
complied. But if people are not complying--you change the 
business calculation if you are facing a big, fat fine. And we 
did do that extension in 2015 because we wanted the money to go 
to PTC, not to fines. And here we are, 3 years later, and it 
didn't work. So I think people say take out the sticks now, 
because this is not working. We haven't succeeded in getting 
this done.
    So again, what is it going to take to get this done as 
rapidly as possible? We are not going to performance standards 
2.0, we had better go to performance standards. What exactly do 
we need to do right now to get this done as fast as possible? 
Is it fines?
    I mean, Mr. Batory, do you think it is fines? And I want a 
fast response. Do you think it is fines to get attention now?
    Mr. Batory. That is definitely a tool in the toolbox. And 
as I mentioned earlier, I would like not to have to use that 
tool. But if that is the one you have to use in combination 
with everything else that we have now invoked, OK, I think we 
should do nothing less than that, insofar as exercising that.
    But the main thing is getting the concentrated, concise, 
collaborative communication. And I am going to speak to the 
Northeast Corridor, from Boston down to Washington, DC.
    When we met with those 41 railroads, Amtrak was one of 
them. And even though we have read in the newspapers over the 
last 3, 5 years that the Northeast Corridor has PTC in place, 
it has pepper spots and stains all over it where there is no 
PTC. They have done an excellent job this year in trying to get 
rid of those pepper spots and stains where Amtrak is in total 
control of itself.
    The next thing that became very apparent, we had to 
maintain nothing less than a dialogue of once a month on a 
macro perspective with Amtrak. We maintain a dialogue with them 
daily, tactically, on PTC. But they host a lot of commuter 
railroads. So, as a result, it then became apparent that we had 
an absence of synchronization between the commuter railroads 
and Amtrak. And the only way you are going to get that resolved 
is communication, and you can never have too much 
communication.
    So, as a result, with our monthly meetings now, we have 
basically--we don't ask people to come to Washington, but we 
allocate whatever amount of time--it is usually about 15 to 20 
minutes--for each individual commuter railroad to express on 
the monthly call where they see issues with Amtrak, and where 
Amtrak sees issues with the commuter railroad, so we can get 
them in synch, and get this PTC piece in place. It is a very 
densely operated piece of railroad that doesn't lend itself to 
absorbing a lot of variability because of its density. And we 
have to have this interoperability piece in place sooner, 
rather than later.
    Ms. Fleming. May I add a perspective? I think one of the 
things that we need to think about is that only eight railroads 
said they are going to make the December deadline. So 32 are 
seeking an extension. Of those 32, 12 would like to use 
substitute criteria, particularly initial testing. And that is 
in the really early stages. And our analysis has shown that 
from initial testing to RSD takes, on average, 2 years. So if 
you do the math, we are concerned that some railroads won't 
even make 2020.
    Mr. Hamberger. As long as people are adding on, let me add 
on, if I might, Mr. Chairman, those people who are filing for 
an alternative schedule, I would argue, are not filing for an 
extension. They are filing for an alternative schedule under 
the law, as written.
    Several Class I railroads and Amtrak were ready to be 
declared fully implemented by the end of 2018. But the FRA 
regulations stipulated that no one could be fully implemented 
until everyone was fully implemented. Therefore, the host 
railroad, whether it was a freight railroad or Amtrak, could 
not ask--asked, but was denied being declared fully implemented 
because their tenant railroads were not fully implemented. And 
I think Mr. Naparstek is being kind to one of his tenants by 
not going further down that path.
    And--but it is important, I think, for this committee, and, 
as I read some of the media outlets, for the media to 
understand that there were railroads ready to be fully 
implemented 100 percent operational, and were denied that and 
were forced to apply under the alternative schedule.
    Mr. Denham. Thank you, Mr. Hamberger. Final question to Mr. 
Weber.
    Mr. Naparstek. If I could--I am sorry, sir, but if I could 
answer Congresswoman Esty's original question, so for Amtrak 
tracks in Connecticut we will be 100 percent in operation by 
12/31. For CTDOT, they will be PTC-operable completely by the 
deadline. And Metro-North will be filing for an alternative 
schedule.
    Mr. Denham. Thank you.
    Mr. Weber, you are recognized for 5 minutes.
    Mr. Weber. Thank you. Gosh, I don't know where to start.
    Mr. Batory, quick question for you. I was here earlier, and 
had to go to another hearing. You--and I have been on this 
committee now--what is this, my second year? So you mentioned 
there were two laws, 2008, 2015 in some of your remarks. And 
then you went through 2008 was four pages long, and then you 
went from there to the number of rules, and from there to the 
safety--can you give me those stats again? Do you have them 
handy? I will come----
    Mr. Batory. Yes, Congressman. And just to give you some 
color as to why I sought this, when I heard the safety plans 
were 5,000 pages, I was a little taken back. So I said, ``Well, 
let's peel the onion back.'' What got us to 5,000 pages?
    So I said, well, tell me how thick was the statute that 
came out of Congress? In 2008 it was three pages; 2015 it was 
six pages. And then the RSAC [Railroad Safety Advisory 
Committee] process was engaged to develop the regs, and we came 
up with 45 pages of regs. And that percolated 190 pages of 
rulemaking, which then drove the implementation plans that are 
not that burdensome, but they are living documents and have to 
be maintained forevermore--150 to 200 pages. But then you get 
to the safety plan, and it is 5,000 pages.
    Mr. Weber. OK. So in those rules and all those pages that 
you cited, Mr. Hamberger makes a very good point. There was no 
provision for tenant rail lines, I guess, railroads. And I am 
not quite sure how to provide for that, because, you know, it 
is true that Amtrak may be on board, for example, but if you 
have got tenants responsible, are they to be held liable for 
their tenants under those rules?
    Mr. Batory. Here is what evolved. There are three 
railroads, and the facts are there, so I feel comfortable in 
revealing them.
    You have two commuter railroads that are extremely far 
ahead of the curve: Metrolink and SEPTA. The two Class I's are 
Burlington Northern Santa Fe and Union Pacific, as far as 
maturity into PTC. Burlington Northern Santa Fe realized that 
they were going to have their entire railroad PTC-equipped, 
their locomotives are equipped, OK? So naturally, if you are 
working at Burlington Northern you would say, well, I am done, 
OK?
    But they have thousands of miles on their railroad that 
they offer, OK, for use by tenants, some of them utilized by 
Class I's. So, as a result, they wanted to be recognized as 
fully implemented. And we said you can't get fully implemented, 
because you have tenants out there that aren't going to be PTC-
equipped.
    And let's talk about Chatsworth. That was a Metrolink train 
and a Union Pacific train, a tenant and a host got together. So 
if you would have declared that piece of railroad--had PTC been 
in effect back then--and said you are fully implemented, but 
one of those two weren't equipped, you would have still had the 
crash. So that is why it was written that way.
    So what we told Burlington Northern Santa Fe, we said, all 
right, there is the rule, the reg, the law, but there is also 
the spirit and the intent of all that. So that is when we 
suggested get all your tenants to file for alternative 
schedule, OK, and----
    Mr. Weber. Not an extension, but an alternative----
    Mr. Batory. Just get the tenants----
    Mr. Weber [continuing]. Schedule, as pointed out.
    Mr. Batory. Get the tenants to file for alternative 
schedule, and then we can recognize you as being fully 
implemented, recognizing those tenants are not fully 
implemented yet, because they filed for alternative schedule. 
They elected not to----
    Mr. Weber. Why?
    Mr. Batory [continuing]. When we offered. I do--I can't 
answer that. Burlington Northern----
    Mr. Hamberger. Well, clearly, they had no jurisdiction over 
their tenants----
    Mr. Batory. I have----
    Mr. Weber. Well, that is what I said, you are making them 
responsible.
    Mr. Batory. But he----
    Mr. Naparstek. Well, there is two things.
    Mr. Batory. So----
    Mr. Naparstek. Jurisdiction, as well as you can't test 
interoperability on a tenant that isn't ready to test----
    Mr. Weber. That is a little tough.
    Mr. Naparstek. We can't prove 100 percent--we are 100 
percent ready, but I can't prove on Amtrak's system 100 percent 
interoperability without my tenants being ready.
    Mr. Weber. That is a little tough.
    Mr. Naparstek. Therefore, I need to work with my tenants, 
and we will be as aggressive as possible to get them PTC-
operable as quickly as possible.
    Mr. Weber. I am running out of time and I am the only thing 
that stands between this committee and lunch, so I need to 
hurry.
    Ms. Fleming, you said something that got my attention. You 
said that there were 32 of the 40, but that the others--the 8 
were seeking an extension based on--so that they could come up 
with, was it substantive criteria? Was that what you said?
    Ms. Fleming. Right. So within the statute, FRA has the 
ability to allow railroads to apply for--instead of meeting the 
current criteria for an extension, substitute criteria.
    Mr. Weber. Oh, substitute criteria.
    Ms. Fleming. Substitute. So, 16 are going to seek an 
extension using substitute; 12 of the 16 want to be able to 
have approval for initial field testing, which is really in the 
early stages.
    And my point was that, for those 12 railroads, we are a 
little concerned that they may not even meet 2020, because at 
that juncture you are still kind of working through a lot of 
bugs, the system may not be mature, and the railroads that are 
further along, such as my colleagues at the table, it has taken 
an average of 2 years from initial testing to RSD. So we are a 
little concerned that some of those railroads--granted, 
sometimes extensions--you know, I mean your schedules work out 
fine. But sometimes there is, you know, unforeseen 
circumstances. So we are a little concerned about those 12 
railroads and where they are at this point.
    Mr. Weber. OK. Well, I am past my time, Mr. Chairman. I 
appreciate your indulgence, I yield back.
    Mr. Denham. Thank you, Mr. Weber.
    Mr. Shuster?
    Mr. Shuster. Well, I just want to say a final note. Look, 
this is an incredibly complicated situation here. Deploying 
technology that is not fully developed, and we are going 
through the process, we have got some folks that are--
obviously, the freights are ready to go, and you have got 
others that aren't. So this is incredibly complex. It should be 
a lesson to all of us about technology and going forward, no 
matter what the industry is, and how we have to make sure that, 
as Mr. Batory said, it has got to be a collaborative effort.
    These companies don't want to have dangerous--they don't 
want--they want to have the safest possible system they can 
have, and I don't believe anybody is trying to cut any corners, 
but it is just very complicated. So I just wanted to say that.
    But also, I wanted to say to my good friend of 40 years, 
Ed, I did the calculation. Forty years I have known Ed 
Hamberger. He has been a great friend. He has done an 
outstanding job, I believe, at running AAR for the last 20 
years.
    You have been a great ally at times and have been a 
formidable opponent at times, and I appreciate that. And 
whoever has to fill your shoes at AAR has got some really, 
really big shoes to fill. So--but I wish you the best. And 
whoever comes after you, I wish them the best, having to go 
after Ed Hamberger.
    That being said--I am not done yet, Mr. Chairman--I came 
here today because this is an incredibly important hearing. But 
I would not miss the final performance of Ed Hamberger.
    Now, I went through the--went through, looked at the 
testimony, I tried----
    Mr. Hamberger. I am delighted to hear that this is my final 
performance.
    [Laughter.]
    Mr. Shuster. At least before this committee, I should say.
    Mr. Hamberger. Chairman Denham may have different ideas, 
but anyway----
    Mr. Shuster. Well, at least before this committee, at least 
when I am here. Maybe Denham and I won't be here the next time.
    So--but I just wanted to say I looked through the record, I 
tried to find some way to grill you today, because with a name 
like Hamberger, grilling you is absolutely appropriate.
    [Laughter.]
    Mr. Shuster. But I couldn't, because I agree with you, that 
the Class I's have done their work, have done their job. And so 
we are in a situation here that, as I said, it is complicated. 
But again, you have done a great job for the last 40 years.
    I appreciate all of you being here. And again, we are going 
to continue to work forward. And I know in the able hands of 
Chairman Denham, he will make sure that we all come together 
and we have a great ending when it all comes together.
    Mr. Hamberger. Mr. Chairman, right back at you. Of course, 
you have been a great Member of Congress, a good friend, and a 
great chair. And whoever follows in your footsteps will have a 
great legacy to live up to, as well.
    Mr. Shuster. Thank you very much.
    And if I could ask one more question, Mr. Denham, when I 
finish here, please do not recognize Ed Hamberger again, 
because he always tries to get in the last word.
    Mr. Hamberger. Can he just say, ``Well done, Hamberger''?
    [Laughter.]
    Mr. Shuster. Great job, Ed.
    I yield back.
    [Laughter.]
    Mr. Denham. Last word of this committee is PTC, get it 
done.
    With that, if there are no further questions, I would like 
to ask unanimous consent that today's record of the hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing, unanimous consent that the record remain open 15 days 
for additional comments and information submitted by members 
and witnesses.
    Without objection, so ordered.
    I would like to thank our witnesses again today.
    If there are no other comments, the committee stands 
adjourned.
    [Whereupon, at 11:58 a.m., the subcommittee was adjourned.]


 
                       Submissions for the Record

                              ----------                              


 Testimony of Floyd Mason, President, Brotherhood of Railroad Signalmen

    Dear Chairman Shuster and Ranking Member DeFazio:
    My name is Floyd Mason. I have served as Vice President 
East for the Brotherhood of Railroad Signalmen (BRS) for many 
years, which included the role of chairman on our training 
committee. During our recent Convention, I was elected 
President of the BRS and assumed the office on October 1, 2018. 
Prior to my full-time union assignment, I worked on Class I 
railroads as a technical employee, which involved extensive 
work on a large signal installation initiative--the 
installation of centralized traffic control systems that in 
many areas changed operation from a local operator to a remote 
centralized control facility. The BRS represents signal 
employees who install, maintain and test the signal systems 
responsible for the safe movement of trains and protection of 
the public, including Positive Train Control (PTC) which 
overlays and is governed by the existing signal system.
    On September 13, 2018, I was accompanied by BRS Legislative 
Representative Leonard Parker while attending the 
Transportation and Infrastructure Committee (Committee) hearing 
titled, ``The State of Positive Train Control in the U.S.'' 
While at the hearing, certain comments and assurances were made 
either by the industry or by Federal Railroad Administration 
(FRA) Administrator Ronald Batory regarding the status of PTC 
training for Railroad Signalmen. The theme was Class I 
Railroads have completed, or nearly completed, the required and 
necessary training of Railroad Signalmen in aspects of PTC. 
More specifically, the implication is that the training of 
Railroad Signalmen required by the Rail Safety Act of 2008 is 
complete, meeting the requirements of the law and FRA 
requirements. The indication was that this training provides 
Signalmen with what they need to properly perform their duties 
and provides for the safety of the public and rail employees 
regarding PTC--with these comments I plan to challenge that 
notion.
    The work of Railroad Signalmen, other front-line rail 
workers, the industry, the FRA, and this Committee has been 
truly impressive. Without question, the installation of PTC is 
the largest application of life-saving and operational-
efficiency technology in the history of railroad signaling. The 
process has taken time, arguably too much time, but the scope 
and level of technical advancement in railroad signaling is 
impressive and remarkable. My comments are limited to the 
training of Signalmen on Class I railroads. The Class I 
railroads appear to be the yardstick that the T&I Committee is 
using for progress, and rightfully so.
    The training provided for Railroad Signalmen is inadequate 
and will not meet the high-standard necessary to ensure the 
safe, proper, and reliable operation of these sophisticated 
systems. As an anecdote, at Local meetings where I converse 
with Signalmen, I am often met with chuckles or concerns when I 
raise the subject of proper training for PTC systems. There has 
been a real effort to check off all Signalmen as PTC trained, 
unfortunately what is needed and what has occurred are vastly 
different. I raised this issue personally and directly with 
Administrator Batory at the BRS 52nd Regular Convention in 
August where he was a speaker. I sincerely believe he reports 
on the progress of this and other PTC related issues based on 
reports provided by the industry. It is certainly 
understandable that the reports are not verified by field 
visits the way that FRA Testing Requirements under 49 CFR Parts 
234 and 236 are verified. Generally speaking ``PTC Training'' 
in some cases is a quick briefing describing what the 
technology is and what it is intended to do. Signalmen who must 
troubleshoot the system in the middle of the night after the 
system fails, replace defective components, test the system for 
proper operation, and return the system to normal operation 
must be more extensively trained than the generic overview 
provided to those who simply need to know what the system is or 
its purpose.
    I will provide two examples demonstrating that the 
necessary training has not occurred, in part due to the 
railroads canceling their overall signal training effort. I 
will cite two examples: (1) CSX which canceled its very 
effective training development program and (2) Norfolk Southern 
(NSR) which canceled all training to Journeymen over a dispute 
involving expense reimbursement. These two railroads ended the 
programs that were working towards the proper training of 
Signalmen during the very time that the railroads were 
reporting that great strides were being accomplished in this 
area.

     LExample 1: On CSX, signal training beyond the existing 
training, which is extensive, is developed by a joint labor-
management process. This joint process was canceled when Hunter 
Harrison came in as CEO and the process has not resumed. The 
facility known as the REDI Center, a centralized CSX training 
facility, is a ghost town compared with its past vibrancy. 
There is no other process or location that has taken the place 
of the joint training development process or training facility. 
In the previous joint training development process, subject 
matter experts mostly made up of Signalmen were sometimes 
accompanied by vendors or managers. In this instance, 
cooperation from the railroad managers responsible for 
standards and instructions, signal management, technical 
writers and various experts in visual aid came together and 
developed training procedures for new equipment. The procedures 
led to testing standards, along with a written manual at an 
appropriate technical level for Signalmen, which contained 
illustrations and technical requirements. After this effective 
program was canceled and no replacement put in its place, all 
Signalmen were checked off as qualified on PTC as reported to 
FRA and your Committee.

     LWe know from implemented training on many previous 
examples of new technology that this is simply not possible on 
the scale required with the time involved and without the 
support of the previous training process or facility. We can 
provide real examples of technical training developed for new 
signal equipment; and we challenge CSX to provide examples of 
technical training for PTC installation, maintenance, and 
repair. Your Committee can then compare the products.

     LExample 2: Recognizing the need for PTC Training and 
other ``Journeyman Training'' the BRS worked jointly with NSR 
signal management in 2017 and 2018 to re-develop Journeyman 
Training. This effort included the professionals at the 
McDonagh Training Center, a NSR training facility near Atlanta, 
Georgia. This training, however, did not make it to Signalmen 
beyond an initial pilot group; the Pilot was intended to test 
its effectiveness of the new program.

     LAfter the initial pilot program, a dispute developed 
about reimbursement of travel expenses for the Signalmen 
attending the facility. We spent time in 2017 and 2018, 
resolving those conflicts. We have now developed a 2nd Pilot 
Program with an agreed upon plan to reimburse travel expense 
for those that attend. The 2nd program is scheduled to begin 
the first week of October 2018, for one small class of 16. It 
is our hope and intention that we will begin to train more 
Signalmen in 2019.

     LThe training, which is limited, is an excellent start to 
what we should be doing across the nation. It takes a week of 
classroom training using simulators and covers important 
aspects of PTC. With a class size presently limited to 16, and 
with less than 52 available weeks in the year, it will be years 
before this effort will reach all 1,300 signalmen. Adding to 
the limited availability of training resources is the 
requirement to train newly hired employees. The new hire 
training process takes 43 weeks, and not all training is 
performed at the McDonagh Center, but never-the-less impacts 
availability of the facility to train Signalmen on PTC.

     LAgain, the Signalmen on NSR have not, and will not be 
properly trained on PTC for some time.

    I attach to this statement a copy of our Pilot Training 
Program on NSR and the proposal that led to it. If you need 
supporting documentation pertaining to the training that was 
canceled over disputes, that information can be provided.
    I will look for verification of the limited or nonexistent 
nature of PTC Training on the other remaining Class I railroads 
and provide it if you are interested.
    This testimony/letter was prompted by the misinformation, 
Leonard Parker and I witnessed during the September 13, 2018, 
T&I hearing, that is being shared with your Committee. 
Additionally, there was a private comment made by a guest, who 
I believe was there to support the Association of American 
Railroads (AAR)--this guest assured us that PTC training really 
was accomplished. We knew better and felt compelled to bring 
this to light.
    Finally, the work of your Committee and all those involved, 
notwithstanding the shortfall on this most important issue, is 
to be commended, but it can't be left as fact that Signalmen 
are properly trained on PTC Systems when it is not true.

                                 <F-dash>
        Journeyman/Advanced Training--2018 Pilot Program 5-21-18
    There are two available openings for Journeyman Training in 
calendar year 2018: August 27 to 31, 2018 and October 1 to 5, 2018. We 
have had a series of successful Pilot Programs for the ERN, N&W and 
Southern before 2018. The training, particularly the portions that had 
to do with radio equipment testing using a watt meter, and the PTC 
Initialization using PTC equipment in a trailer were helpful and 
informative. A dispute developed with respect to what the proper 
expense should be to get signal employees to and from the McDonough 
Training Center. Some were reimbursed zero while others were reimbursed 
overtime, penalties and expenses.
    A second pilot program for dealing with travel time and expense 
will be arranged for volunteers in the two available weeks for 2018, 
using existing rules and training to the extent possible. This second 
Pilot Program is outlined below:
    <bullet>  Reduce training program to fit within Tuesday, Wednesday 
and Thursday of each week.
      <bullet>  Focus on PTC related training and new training modules
    <bullet>  Longer term, look for ways to take more conventional 
modules, for example switch machines and put them into either a CBT 
module, a module for remote video, or train the trainer delivery method
    <bullet>  All Signalmen (including those currently assigned four 
ten-hour days) attending training will be converted to a 5-day 40-hour 
schedule Monday through Friday for the week of training
    <bullet>  Travel will occur on Monday and Friday. NSR will pick the 
mode of travel from among: company vehicle, private automobile, or 
airline. If private vehicle, mileage will be reimbursed, if airline, 
NSR will provide ticket.
      <bullet>  Transportation to and from airport will be either 
company vehicle, or private auto with mileage reimbursement.
      <bullet>  Transportation from airport to Training Center will 
either be arranged by NSR or reimbursed as actual necessary expense.
      <bullet>  Hotels will be provided, and meals will be reimbursed 
at the standard per diem rate.
      <bullet>  Transportation from the hotel to the Training Center 
will be provided by NSR.
    <bullet>  Consistent with travel arrangements, briefings may be 
held on Monday afternoon or Friday morning, schedules permitting.
    <bullet>  This second Pilot Program will be voluntary, for 
examining the scheduling and expense reimbursement aspects of training, 
while concentrating on several key topics related to PTC or timely 
changes in railroad signaling.
    Next step review potential for schedule with McDonough Training 
Center, Joe Lee, for feasibility to develop schedule before August. 
(based on conversation it is feasible) Review transportation for 
Tuesday, Wednesday, Thursday classes. (arranged by Signal for past 
classes) Exit survey of volunteers and instructors for suggested 
changes to arrangements with the goal of keeping travel expense and 
time away from home manageable. The results of the second pilot will be 
informative for future training including FRA parts 243 and 236 
training.


			           [all]
                                    
</pre></body></html>
